<html>
<title> - THE AMERICAN HERITAGE RIVERS INITIATIVE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                THE AMERICAN HERITAGE RIVERS INITIATIVE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                                   on

 H.R. 1842, TO TERMINATE FURTHER DEVELOPMENT AND IMPLEMENTATION OF THE 
                  AMERICAN HERITAGE RIVERS INITIATIVE

                               __________

                   SEPTEMBER 24, 1997, WASHINGTON, DC

                               __________

                           Serial No. 105-70

                               __________

           Printed for the use of the Committee on Resources



                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 45-912 CC                   WASHINGTON : 1998
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held September 24, 1997..................................     1

Statement of Members:
    Bonilla, Hon. Henry, a Representative in Congress from the 
      State of Texas, prepared statement of......................   110
    Calvert, Hon. Ken, a Representative in Congress from the 
      State of California, prepared statement of.................    11
    Cannon, Hon. Christopher B., a Repesentative in Congress from 
      the State of Utah, prepared statement of...................    11
    Chenoweth, Hon. Helen, a Representative in Congress from the 
      State of Idaho.............................................     1
        Additional material submitted for the record by..........   169
    Emerson, Hon. Jo Ann, a Representative in Congress from the 
      State of Missouri..........................................    23
        Prepared statement of....................................    25
    Furse, Hon. Elizabeth, a Representative in Congress from the 
      State of Oregon, prepared statement of.....................     7
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................    21
        Prepared statement of....................................    22
    Herger, Hon. Wally, a Representative in Congress from the 
      State of California........................................    15
        Prepared statement of....................................    17
    Hunt, Hon. James B., Jr., Governor, North Carolina, letter to 
      Board of Directors, Riverlink..............................   197
    Hutchinson, Hon. Asa, a Representative in Congress from the 
      State of Arkansas, prepared statement of...................   113
    Johnson, Hon. Nancy, a Representative in Congress from the 
      State of Connecticut.......................................    12
        Prepared statement of....................................    14
    Kanjorski, Hon. Paul, a Representative in Congress from the 
      State of Pennsylvania......................................    26
        Prepared statement of....................................   139
    LaHood, Hon. Ray, a Representative in Congress from the State 
      of Illinois, prepared statement of.........................   111
    Pallone, Jr., Hon. Frank, a Representative in Congress from 
      the State of New Jersey....................................     3
    Paul, Hon. Ron. a Representative in Congress from the State 
      of Texas and Hon. Bill Archer, a Representative in Congress 
      from the State of Texas, letter to President Clinton.......   189
    Reyes, Hon. Silvestre, a Representative in Congress from the 
      State of Texas.............................................    32
    Scott, Hon. Robert, a Representative in Congress from the 
      State of Virginia..........................................    19
    Smith, Hon. Lamar S., a Representative in Congress from the 
      State of Texas, prepared statement of......................   112
    Stearns, Hon. Cliff, a Representative in Congress from the 
      State of Florida...........................................    18

Statement of Witnesses:
    Blomquist, Dan, Montanans for Multiple Use, Kalispell, 
      Montana....................................................    97
        Prepared statement of....................................   247
    Bright, David L., Sr., Harrison, Arkansas....................    92
        Further information submitted by.........................   236
    Chavis, Mayor Larry, Richmond, Virginia, prepared statement 
      of.........................................................     6
    DeVeny, Bill, Idaho Farm Bureau Federation, Boise, Idaho.....    81
        Prepared statement of....................................   122
    Ealy, David Allan, Perrysville, Indiana......................    83
        Prepared statement of....................................   215
    Hoover, Lois Van, Idaho Multiple Land Use Coalition, Yellow 
      Pine, Idaho................................................    64
        Prepared statement of....................................   186
    Kustra, Robert, Governor of Illinois, prepared statement of..     3
    LaGrasse, Carol, Property Rights Foundation of America, Stony 
      Creek, New York............................................    85
        Prepared statement of....................................   223
    Lynch, Robert S., Central Arizona Project Association, 
      Phoenix, Arizona...........................................    62
        Prepared statement of....................................   114
    McGinty, Kathleen, Chair, Council on Environmental Quality, 
      Executive Office of the President, Washington, DC..........    29
        Prepared statement of....................................   145
    Moss, Linda Bourque, Western Heritage Center, Billings, 
      Montana....................................................    99
        Prepared statement of....................................   262
    Nelson, Reginald William, Richmond, Virginia.................   102
        Prepared statement of....................................   127
    Pendley, William Perry, Mountain States Legal Foundation, 
      Denver, Colorado...........................................    60
        Prepared statement of....................................   174
    Ross, Gordon, Coos County Commissioner, Coos County, Oregon..    79
        Prepared statement of....................................   122
    Samuel, Peter, Schuylkill River Greenway and Heritage 
      Corridor, Wyomissing, Pennsylvania.........................    94
        Prepared statement of....................................   125
    Smith, Desmond K., Trans Texas Heritage Association, Alpine, 
      Texas......................................................    66
        Prepared statement of....................................   117
    Sundquist, Hon. Don, Governor, Tennessee.....................   199
    Young, David, Buncombe County Commissioner, Asheville, North 
      Carolina...................................................    76
        Prepared statement of....................................    68
    Yturria, Mary A., Brownsville, Texas.........................   119
        Prepared statement of....................................   191

Additional material supplied:
    Budget Options for American Heritage Rivers..................   308
    Central Arizona Project Assoc., letter to Mr. Young..........   337
    CEQ, Memorandum to Distribution, Ray Clark, CEQ..............   306
    Clinton discloses plan to improve waterways, The Washington 
      Times......................................................   305
    Council on Environmental Quality.............................   276
    CRZLR, Inc., letter to Mr. Young.............................   322
    Idaho Farm Bureau Federation, letter to Ms. McGinty..........   159
    Kruse, Charles E., President, Missouri Farm Bureau, and 
      others, letter to Mr. Ray Clark............................   332
        Letter to the Executive Office of the President, Council 
          on Environmental Quality...............................   162
    Lugar, Hon. Richard G., and Hon. Dan Coats, letter to Ms. 
      McGinty....................................................   323
    Missouri Levee and Drainage District Assoc., letter to Mr. 
      Young......................................................   324
    Owyhee County Commissioners, letter to the Executive Office 
      of the President, Council on Environmental Quality.........   164
    Resources Committee, American Rivers Heritage, obtained from 
      CEQ........................................................   311
    River, fisheries, recreation, business, and conservation 
      orgranizations letter opposing H.R.1842....................   132
    Text of H.R. 1842............................................   274
    Trans Texas Heritage Assoc., letter to Ms. Karen Hobbs.......   334
    Voting motion on Dept. of Interior's Appropriation Bill......   131
    Winona, Minnesota, City Hall, letter to Mr. Young............   330

Communications submitted:
    Blue Ribbon Coalition Inc., Idaho Falls, Idaho...............   255
    County of Buncombe, text of Proclamation.....................   199
    Seattle Times................................................   137
    Tri-City Herald..............................................   138
    Watershed Projects in Coos County............................   204



      HEARING ON H.R. 1842, TO TERMINATE FURTHER DEVELOPMENT AND 
       IMPLEMENTATION OF THE AMERICAN HERITAGE RIVERS INITIATIVE

                              ----------                              


                     WEDNESDAY, SEPTEMBER 24, 1997

                          House of Representatives,
                                    Committee on Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 12 p.m., in room 
1324, Longworth House Office Building, Hon. Helen Chenoweth 
presiding.

STATEMENT OF THE HONORABLE HELEN CHENOWETH, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF IDAHO

    Mrs. Chenoweth. [presiding] The Committee on Resources will 
come to order.
    The Committee is meeting today to hear testimony on my 
legislation, H.R. 1842, which is a bill to stop the American 
Heritage Rivers Initiative.
    I would like to welcome our witnesses, many of whom have 
traveled thousands of miles to get here, and two of my 
constituents from Idaho, Lois Van Hoover, representing the 
Idaho Multiple Land Use Coalition, and Bill DeVeny, 
representing the Idaho Farm Bureau Federation. We also have a 
number of Members of Congress today, and I welcome you all.
    I'm honored to be here in the chair today, and I greatly 
appreciate Chairman Don Young's allowing me to conduct this 
hearing. I've been looking forward to it, but it seems to me 
that something is wrong with the picture that we're going to be 
seeing today--wrong procedurally. We are doing things exactly 
backward.
    Generally, and if things are in correct constitutional 
order, it is the legislative branch of government that creates 
the programs and the executive branch that carries them out. 
Here, though, with the American Heritage Rivers Initiative, 
there's been a complete and literal flip-flop between the roles 
and duties of the Congress and the Clinton Administration. 
Instead of Congress making the proposal and the administration 
commenting on it, it is the Clinton White House dreaming up the 
initiative, and we, the Congress, are the ones commenting. We 
are actually in the position of taking testimony, not on the 
creation of a new program, but on how to stop one.
    This initiative clearly violates the doctrine of separation 
of powers as intended by our Founding Fathers. And as James 
Madison wrote in Federalist No. 47, ``The accumulation of all 
powers, legislative, executive, and judiciary in the same 
hands, whether of one, a few or many, and whether hereditary, 
self-appointed, or elective, may justly be pronounced the very 
definition of tyranny.''
    My colleagues, this American Heritage Rivers Initiative is 
being thrust upon the American people in the exact manner James 
Madison warned us against.
    I introduced H.R. 1842 on June 10, shortly after President 
Clinton's American Heritage River Initiative was first 
published in the Federal Register. This legislation, which is 
co-sponsored by 38 Members, would prohibit Federal agencies 
from spending any funds on this unauthorized, unappropriated, 
and intrusive program.
    On Sept. 11, and with no consultation with the leadership 
of Congress, President Clinton issued Executive Order 13061 
directing 12 Federal agencies to implement this program. Many 
Americans are disturbed by this arbitrary use, and many would 
say ``abuse'' of Presidential authority.
    I, along with millions of other Americans, was shocked and 
appalled that President Clinton would use so Draconian a 
process to rob people of their constitutional rights and 
patently ignore the legislative branch of government. However, 
I should not be surprised by this display of power. After all, 
this is the same administration which locked up 1.7 million 
acres in Utah without even consulting Utah's Governor and their 
congressional delegation, not to mention other State and local 
officials.
    It's also the same administration that proposed a $64 
million buyout of a mining property in Montana to a Canadian 
company without consulting the Montana Governor and its 
congressional delegation, or the U.S. Congress. This program is 
illegal, has not met public requirements, misappropriates funds 
Congress mandated for other purposes, and usurps individual 
water rights, private property rights, and the sovereignty of 
all 50 States. It defies the imagination how President Clinton 
could ram this initiative down our throats, despite massive 
resistance outside the Washington, DC beltway.
    In addition to the violation of water and property rights, 
what I find very, very troubling is how an agency like CEQ, 
with a budget of only $2.4 million, can run a program like the 
American Heritage Rivers Initiative, which costs by very 
conservative efforts $4 million to $7 million every year so 
far. Where is the money coming from? And who appropriated it? 
Who authorized it to be spent like this?
    No place in U.S. Statutes can you find the phrase, 
``American Heritage Rivers Initiative,'' and no place can you 
find the position of a ``river navigator'' or the term ``river 
community.'' And this leads me to wonder whether the Anti-
Deficiency Act of 1982, which prohibits and proscribes criminal 
sanctions for the expenditure of Federal funds for unauthorized 
purposes, is implicated.
    And certainly one is left to wonder if this meets the 
requirements of 31 U.S.C. 1301(a), which states, 
``Appropriations shall be applied only to the objects for which 
the appropriations were made.''
    Beyond the constitutional and legal questions raised by the 
executive order, there are some fundamental questions that I 
share with many of my colleagues. If this program is 100 
percent honorary, voluntary, and non-regulatory, then why is it 
being done by the Federal Government and with no less than 12 
agencies?
    If it is 100 percent voluntary, why does the program not 
explicitly require that the Federal agencies get written 
permission from private land owners before their land is 
included within an American Heritage Rivers designation?
    And why did the Council on Environmental Quality totally 
ignore the request of 55 Members of the House, who requested 
that the public comment period on this initiative be extended 
beyond August 20?
    I look forward to hearing Ms. McGinty's response to these 
and other questions, and I also look forward to hearing from 
other witnesses today.
    Mr. Chairman, I--the Chair now recognizes the Ranking 
Member, Mr. Pallone, for an opening statement.

STATEMENT OF THE HONORABLE FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Well, thank you for the title, Madam Chairman.
    Let me first, if I could, request unanimous consent to 
include in the record four documents. One is a statement from 
Lieutenant Governor Bob Kustra, of Illinois, who was an invited 
witness but couldn't make it; second, testimony from Mayor 
Larry Chavis--I guess--of Richmond, Virginia; third, statements 
from Representative Furse and Representative Gejdenson, and, 
finally, a letter from, well--American Rivers--I'm not sure 
exactly what that refers to, but American Rivers. I would ask 
unanimous consent to include those.
    Mrs. Chenoweth. Without objection, so ordered.
    [The prepared statement of Governor Kustra follows:]
      Statement of Hon. Bob Kustra, Lieutenant Governor, Illinois
    Mr. Chairman. Distinguished members of the committee. I want to 
thank you for the opportunity to address what I believe is a very 
important issue not only for my state of Illinois but for the country 
in our efforts to improve our rivers and streams.
    Just as our rivers and watersheds cross many governmental 
boundaries, our efforts to revitalize these resources must be a 
partnership of local, state and Federal efforts. The American Heritage 
Rivers Initiative proposed by President Clinton in his State of the 
Union Address, and detailed 2 weeks ago, provides us with a great 
opportunity for us to navigate through what some have seen as a river 
of bureaucratic red tape in getting the help and assistance we need for 
river improvement at the state and local levels.
    We are currently in the process of preparing our nomination of the 
Illinois River Watershed for such designation.
    The strength of this new initiative is that it will help us better 
coordinate Federal services and assistance. The Illinois River 
watershed is a vast Z5,000 square mile area encompassing 55 of our 102 
counties. Approximately 80 percent of the river's watershed is within 
our state's jurisdiction, which is an asset; however, Federal agency 
programs in the watershed area also have a strong impact on the 
ecosystem, from navigation to soil conservation, from Chicago to St. 
Louis.
    The improved service delivery, technical assistance, coordination 
of Federal involvement, and work toward our local communities' 
objectives will be key benefits this initiative can provide our 
Illinois River Watershed should we receive this designation.
    Simply put, we see this initiative as providing coordination for a 
revitalization effort that will benefit not only our state but the 
entire nation as well.
    This initiative embodies what many have said is a fundamental role 
of our Federal Government--to complement local and state initiatives. 
We support this program for the following reasons:

          1. The American Heritage Rivers initiative is voluntary--we 
        initiate whether to participate or not. We realize the 
        importance of the Federal Government in joining our state and 
        local partnership in progress. No one has forced our hand in 
        this matter, and should we receive this designation we may exit 
        the program at any time.
          2. It is locally driven--our communities throughout the 55 
        counties of the Illinois River Basin are currently at work with 
        their efforts to improve the watershed. Those that live, work 
        and play along the river know what's best for this vital 
        resource. They will not give up their right to dictate the 
        future of a river that has shaped the history of their 
        communities. There will be no takeover under this Initiative.
          No one, however, can underestimate the technological and 
        informational resources that the Federal Government can provide 
        to our local efforts. This initiative enables us to look to the 
        Federal Government as a clearinghouse of knowledge and 
        expertise in river improvement and revitalization. For towns 
        like Havana, population 7,000, and larger cities like Chicago, 
        this is an enormous opportunity to put the Federal Government 
        to work for them, not the other way around.
          3. There are no new regulations or rules dictated by the 
        Federal Government. Contrary to what some critics of this 
        proposal say, we find nothing in the materials that recommends 
        further restricting what our local communities can or cannot do 
        with their efforts along the river.
          4. There is also a great opportunity under this initiative to 
        learn what the Federal Government is doing right and what it is 
        doing wrong as it relates to our rivers and streams. Through 
        this initiative, the Federal Government will be listening to 
        state and local communities that have lived with Federal 
        Government involvement in the past. This dialog and interaction 
        at the local level will enable the Federal Government to study 
        and improve how it provides assistance to communities 
        throughout the nation.
    Unfortunately, not all view this initiative in a positive light. It 
has been described as a program ``unleashing United Nations troops 
patrolling the Illinois River's curving path.'' The program has been 
portrayed as a ``new Federal land-use scheme,'' that the Federal 
Government ``will control all land use and will police this initiative 
by aerial photography and satellite surveillance.''
    We have seen nor heard anything from the Federal Government that 
would indicate they are interested in pushing us around in Illinois. 
What they are interested in doing is maintaining the quality of one of 
this Nation's most important rivers. Furthermore, there is nothing in 
our plans for the Illinois River that could be described as a take-
over, or that is in any way going to take land away from anyone.
    While some may see controversy, we see opportunity in the American 
Heritage Rivers Initiative. We feel the Federal Government is needed 
here to be a partner, not a manager or boss.
    To understand why I believe this initiative is important to my 
state, one must understand the integral part the Illinois River and its 
watershed have played in our state, regional, and indeed national 
histories.
    The Illinois River flows diagonally across the State of Illinois, 
beginning southeast of Chicago and joining the Mississippi near St. 
Louis. Eighty percent of the lands that drain into the Illinois River 
are in the State of Illinois. Because of the ways we have used the 
river and the land, the river has experienced both decline and 
recovery.
    In fact, the National Research Council, which is associated with 
the National Academy of Science and the National Academy of 
Engineering, named the Illinois River as one of three river-floodplain 
ecosystems in the United States that are priorities for restoration.
    Throughout the history of our nation's expansion westward, the 
Illinois River and its tributaries have served as a major 
transportation highway for goods and products.

    <bullet> More than 50 percent of the commercial traffic on the 
Mississippi River above St. Louis comes from the Illinois waterway;
    <bullet> More than 60 million tons of commodities are shipped on 
the Illinois River annually;
    <bullet> Approximately one half of the 1.4 billion bushels of corn 
produced in lllinois travel the Illinois waterway; and
    <bullet> Ninety percent of our state's population live and work 
within the Illinois River basin.
    The Illinois River was once unparalleled in this country as a 
natural resource. But since the turn of the century, as the state's 
population and economic base grew, the Illinois River has experienced 
profound changes.
    By the 1950's, virtually all aquatic vegetation had vanished from 
the Illinois River and its backwater lakes due to water pollution and 
modified water levels. As a result fish, mammals, waterfowl, clams, and 
other related life forms declined drastically. Without the vegetation, 
sediment was no longer anchored to the bottom of the riverbed and 
lakes, but rather was stirred up in the water by wind and boat 
movement.
    To this point in the state's history, agricultural productivity 
soared, as did population growth and urban growth. The increasing 
movement of soil from the land, due to channelized streams, eroding 
streams, and land conversion greatly increased the amount of sediment 
reaching the Illinois River.
    Since this time, agricultural practices have been modified to keep 
more of the productive soil in place. Industries and municipalities 
have markedly improved sewage and wastewater treatment methods under 
the Clean Water Act.
    As of 1995, more than three-fourths of the state's farmland is at 
``T,'' the tolerable rate of soil loss where soil building processes 
replace the amount of soil lost. In the Upper and Lower Illinois River 
Basins, more than 4.2 million acres of cropland are in conservation 
tillage systems.
    The Illinois River and its backwater areas occupy about one-third 
of the floodplain, of which 47,000 acres are in state and Federal 
ownership and 34,000 are owned by private sporting clubs. Forests along 
the Middle and Lower Illinois River are among the largest remnant 
forest ecosystems in the state north of the Shawnee National Forest. 
Today more than 20 communities rely on the waters of the Illinois and 
its tributaries for their drinking water, and sportfish and waterfowl 
populations are growing.
    Citizen action in the Illinois River watershed also is widespread 
and diverse in communities like Meredosia with a population of just 
under 1,200 and in the Chicago suburbs 100 times the size of Meredosia.
    The Chicago River, for example, is enjoying unprecedented attention 
for restoration and economic development. More than two hundred miles 
south, citizens in Meredosia have created a River Museum and annual 
Riverfest celebrating the river's past abundant fish, fowl and mussel 
populations that supported substantial harvests. In the early 1900's 
there were 15 factories along the Illinois River manufacturing buttons 
from mussel shells. In partnership with the U.S. Fish and Wildlife 
Service, the area's backwater lake is being restored through active 
management, providing habitat for migrating waterfowl. Walking paths 
and economic development are results that celebrate the river's past as 
well as Meredosia's future.
    Despite the seemingly remarkable recovery, the future of the 
watershed and the river corridor are truly imperiled.
    Each year more than 14 million tons of sediment are transported 
through the watershed. More than half of this sediment load is 
deposited in the Illinois River Valley, and the balance is carried to 
the Mississippi River.
    Most backwater lakes have lost more than 70 percent of their 
storage capacity, destroying wildlife and recreational areas. In 
northeastern Illinois, during a recent 20-year span, land conversion 
for residential purposes grew by nearly 50 percent while population 
increased by less than 5 percent. Erosion control is needed on 4.1 
million acres of cropland in the Upper and Lower Illinois River Basins.
    Stormwater management is a vexing problem throughout the watershed. 
Sudden flooding, from both large and small storm events, occurs due to 
past alterations to speed water from the land. Swiftly moving waters 
take more sediment, carving away at stream banks.
    The sediment, coupled with unseasonal flooding, yield a river 
system less capable of ``managing'' its sediment through a natural 
pattern of deposition, drying and compaction. Operation and maintenance 
of the navigation system is increasingly difficult, due to accumulation 
of sediment in the channel and rapidly fluctuating water levels.
    The diversity of interests and stake holders throughout the 
watershed is evident in reviewing the history of the region. When 
issues and interests overlap and compete, disagreements often arise 
about which management approaches to take.
    Yet, despite this diversity, there is strong agreement that the 
future condition of the watershed of the Illinois River and its 
tributaries will greatly influence the region's capacity for 
navigation, recreation, economic prosperity, and ecological balance.
    We recognize that for our state, region and nation, if this 
important highway cannot be traveled, if this great recreational outlet 
cannot be utilized, and if this natural resource cannot be preserved, 
then our health is indeed in jeopardy.
    Over the past 2 years, we have brought competing interest to the 
table to discuss ways to protect and restore the river, and we produced 
comprehensive management plan guided by principles rooted in fairness 
and emphasizing a volunteer approach.
    In January as we unveiled this Integrated Management Plan for the 
Illinois River Watershed, I said, ``There are no quick fixes or easy 
outs. It's time to roll up our sleeves and get to work, putting aside 
political and professional differences. We face a long-term commitment 
to seeing that this vital economic, ecological and aesthetic resource 
is improved for future generations.''
    We have begun putting the recommendations of our plan in place. We 
know that this is a partnership of state and local entities, working 
with our private sector.
    Carrying out these recommendations will go a long way toward saving 
the Illinois River for future generations. In the future, we must 
monitor our progress and evaluate our efforts, and we certainly must 
never forget just how important and fragile this river is.
    I see the steps we have taken at the state and local level as 
providing the basis for a unique partnership with our Federal 
Government through the American Heritage Rivers Initiative.
    Some 87 years ago, President Theodore Roosevelt viewed the Illinois 
River and its valley from the scenic bluffs of Peoria's Grand View 
Dive. He said, ``I have traveled all over the world, and this is the 
world's most beautiful drive.''
    It is our hope that the American Heritage Rivers Initiative and our 
state and local efforts already underway will once again enable 
passers-by to remark on the beauty of this great natural resource.
    We have everything to gain by acting now to save this vital natural 
resource and everything to lose if action is not taken.
    Again, I want to thank this Committee for the opportunity to 
address its members today and I look forward to answering your 
questions.

    [The prepared statement of Mr. Chavis follows:]

     Statement of Hon. Larry Chavis, Mayor of the City of Richmond

    Good morning ladies gentlemen, Chairman Young, Congressman 
Miller, members of the Resources Committee and all others who 
have taken the time to be with us here today.
    Thank you for allowing us to address you today--for the 
opportunity to tell you--from a grass-roots and urban 
perspective--just what the American Heritage Rivers Initiative 
has already done for localizes up and down Virginia's historic 
James River. Positive changes are happening on our river: 
changes brought about well in advance of any possible 
designation for the James as an American Heritage River.
    Vice-Mayor Baskerville and I are here today as 
representatives of the James River Heritage Partnership.
    We are a dedicated group of well over 150 individuals, 
representing

    <bullet> 20 counties, 9 cities, 2 towns, 2 Native American 
Tribes,
    <bullet> 8 regional planning district commissions,
    <bullet> dozens of non-profit agencies dedicated to outdoor 
recreation and natural resource protection, historic 
preservation and cultural awareness
    <bullet> dozens of riparian corporations, and most 
importantly
    <bullet> the hundreds and hundreds of private citizens in 
the communities along the James who are supportive of our 
efforts.
    The mere fact that we have all come together to achieve a 
common goal is unprecedented in the history of Virginia. Given 
the state's unique political structure--which often separates 
rather than unifies localities--working together--as we are 
now--is the exception and not necessarily the rule. From this 
perspective, the American Heritage Rivers Initiative has 
already worked wonders for us.
    On Friday of last week, the city of Richmond welcomed 
Senator Charles Robb and the U.S. Secretary of Transportation 
Rodney Slater to the banks of the James River. This was a 
golden opportunity for members of the Partnership to show our 
guests the exciting, innovative programs happening along the 
James. The American Heritage Rivers Initiative affords 
riverfront cities like Richmond a chance to rediscover the 
vital roots of their downtowns, to once again nurture and enjoy 
riparian land that for years has either been isolated or 
underutilized.
    Along the James River, we have
    <bullet> Extensive and ongoing waterfront development 
activities at Hampton Roads and Lynchburg,
    <bullet> Cooperative initiatives among all 19 soil and 
watershed conservation districts in the James River watershed 
to develop The Chesapeake Bay Tributaries Strategy.
    <bullet> Habitat restoration programs aimed at restoring 
and protecting the summer nesting grounds of the bald eagle, 
and year-round populations of striped bass, shad and river 
herring
    None of these initiatives are being developed, I might add 
at to expense or exclusion of our corporate neighbors along the 
James, many of whom contribute significantly to river 
stewardship programs in addition to the important contributions 
they make to our regional economies.
    The members of the James River Heritage Partnership are 
working together to

    develop active programs that highlight the economic, 
cultural and natural resources of this important river, which 
represents the common wealth of our many diverse heritages--
whether European, African, or Native American
    We are working together to
    Gain designation for the entire James River, from its 
headwaters at Irongate in Botetourt County to where the River 
flows into Chesapeake Bay at Hampton Roads, 450 miles of some 
of the most scenic lands in the entire country
    We are working together to
    Be among to first ten rivers to be rightly called an 
American Heritage River
    We are working together because the river will continue to 
impact us all.
    Since President Clinton announced this initiative during 
his 1997 State of the Union message the program has had its 
detractors. It is to the opponents of the President's 
Initiative--some of whom we respectfully address this morning--
that I submit the following points for consideration:
    First and foremost, The American Heritage Rivers Initiative 
does not seek to
    <bullet> jeopardize the rights of riparian property owners 
whether they are large corporate citizens so vital to the 
regional economy of western, central and/or Tidewater, Virginia 
or to the small farmers or other private individuals who own 
land adjacent to the river
    The Initiative does not seek to
    <bullet> Advocate for the imposition of any new federal 
mandates or regulations that would in any way hamper the rights 
of riparian localities to make their own land use decisions.
    For these reasons and so many others that time does not 
allow me to expound on, the American Heritage Rivers Initiative 
represents the potential for positive working relationships 
between federal agencies and local communities dedicated to 
being good stewards of their rivers. We sincerely hope that 
what you have heard today will enable you to make the right 
decision and allow for the American Heritage Rivers Initiative 
to go forward.
    We thank you very much for the chance to give voice to our 
support of the President's Initiative. The City of Richmond 
anticipates great and lasting benefits to all Virginians should 
the James achieve the status of an American Heritage River. A 
status I might add that it greatly deserves.

    [The prepared statement of Ms. Furse follows:]

 Statement of Hon. Elizabeth Furse, a Representative in Congress from 
                          the State of Oregon

    I appreciate the opportunity to express any strong support 
for the American Heritage Rivers Initiative.
    President Clinton announced this initiative as a way to 
assist local communities in realizing the goals of 
revitalization they have for their own rivers. By providing a 
supportive Federal-local partnership, this voluntary initiative 
will essentially help local people help themselves. The 
initiative involves no regulations, no Federal mandates, and no 
unwilling participants. Instead it helps communities tap into 
the myriad of resources available to restore and protect the 
environmental, cultural, recreational, and historic values of 
their favorite waterway.
    Not only do I support the American Heritage Rivers 
Initiative in general, I specifically am supporting the 
nomination of the Willamette River, which flows through the 
heart of Portland, as one of the ten selected American Heritage 
rivers.
    Oregonians remember the days when the Willamette was one of 
the most polluted rivers in the country. The waters of this 
river were so choked with pollution that when live fish were 
put in a basket and lowered into the river to check the water 
quality, it took only a minute and a half for the fish to die. 
Oregonians remember the phrase they used as youngsters to 
describe swimming in the river--the ``Willamette River 
stroke''--a phrase which refers to the fact that they would 
have to clear a path through the floating sewage debris in the 
water before they could swim.
    But those days of neglect are gone and now the Willamette 
is the focus of a mayor campaign of restoration and protection. 
This effort has widespread local support and has been endorsed 
by Oregon Governor John Kitzhaber, Oregon state agencies, the 
city of Portland, Portland Audubon Society, the Student 
Watershed Research Project at the Saturday Academy, the 
Willamette Riverkeepers and countless other organizations and 
citizens.
    These Oregonians hope to capitalize on the assistance that 
would be provided through the American Heritage Rivers 
Initiative to turn their dream for the Willamette River into a 
reality.
    I support these efforts to restore the Willamette and I 
support the American Heritage Rivers Initiative, which will 
help foster this and other local efforts to revive and 
celebrate the rich river heritage of this country.

    [The information referred follows:]
    [GRAPHIC] [TIFF OMITTED] T5912.209
    
    Mr. Pallone. Thank you. And Madam Chairman, let me say that 
I am opposed to your legislation, and I am very much supportive 
of the American Heritage Rivers Initiative. I have to say very 
emphatically that my constituents, and not only in my district, 
but throughout the State of New Jersey, are very excited about 
this initiative and, frankly, I think, would be just as shocked 
to think that there is opposition to it as I think you are 
shocked to think that it would proceed.
    So, I guess it sort of indicates that there is a big 
discrepancy, you know, maybe in different parts of the country 
or in different ideologies. But I do want to stress that this 
is something that a lot of people are excited about and are 
very much in favor of, not only in my district and in New 
Jersey but, I think, throughout the country.
    And I think the reason for that is very simple. Our country 
has been built around our Nation's rivers. From the very 
beginning rivers served as an essential means of 
transportation, as a conduit for trade and commerce, and as a 
source of unlimited recreational opportunities.
    The goal of the American Heritage Rivers Initiative, as 
announced by the President in the State of the Union address 
and as outlined in two separate Federal Register notices and an 
executive order that you mentioned that was signed by the 
President earlier this month, is to support communities in 
their efforts to restore and revitalize the economic, historic, 
cultural, recreational, and environmental values of their 
rivers. It's really not something, I think, that you can argue 
about in terms of the purpose of the initiative.
    And, again, I would stress, this is a non-regulatory 
program. The American Heritage Rivers Initiative imposes no new 
Federal regulations. It's also a domestic initiative. The 
American Heritage Rivers Initiative does not give foreign 
governments or international organizations any role or 
authority over these rivers.
    But really, most importantly, and I know that the Chairman 
mentioned it, but I have to stress again that this is a purely 
voluntary program. Local communities must nominate their own 
river for designation as an American Heritage river and must 
define their own plans for the river. In order to receive a 
designation, the nomination must have broad-based support from 
the local community, and it's my understanding that if the 
river nomination does not have the support of the Member of 
Congress from that district, it will more than likely be denied 
a designation as an American Heritage river.
    If there's a river community in any Member's district that 
does not want to participate in this initiative for any reason, 
the community does not have to participate. I'm certain that 
those communities which are looking to have rivers designated 
would welcome the reduction in competition. I have to say that, 
actually, when I told some of my constituents that there were a 
lot of Members in Congress who were opposed to this, in some 
ways they were happy because they figured, well, maybe that 
means there's less competition; there won't be as many 
candidates.
    The bottom line on the American Heritage Rivers Initiative 
is that it is really a prime example of good government at 
work. The initiative is going to reduce overlapping efforts 
among Federal agencies, cut bureaucracy and red tape, and spur 
economic development in local communities.
    And I think that--I know that the Chairman mentioned the 
Council on Environmental Quality. That is really what I think 
the job of that council is. I mean, the whole purpose of the 
council and what I have seen them do, not only in this case, 
but in many others, is to simply try to reduce red tape, to cut 
bureaucracy, to basically bring together Federal agencies--I 
know the Chairman mentioned 12. In a way, that makes it more 
likely that a project moves forward in a collective way without 
having to go through a lot of hurdles.
    And I've seen the Council on Environmental Quality most 
recently work very effectively in this way with an effort to 
put an end to the dumping of toxic dredge materials off the 
coast of my district in New Jersey. On September 1, we actually 
announced the end of the dumping of toxic dredge material. 
Kathy McGinty was there in New Jersey to announce it, and if it 
wasn't for the Council on Environmental Quality and their work 
in trying to basically sift through all of these different 
Federal agencies and come to a conclusion and get everybody 
collectively to come to a consensus, we would still have that 
dumping of toxic dredge material.
    So, I think the purpose of the CEQ is pretty clear. I don't 
think it's to create more bureaucracy or to get around 
Congress. I think it's just the opposite. It's to try to bring 
Federal agencies together to establish a consensus, and I think 
this American Heritage Rivers Initiative is just another 
example of that.
    None of these things are going to proceed without 
consensus, and I am certain that any Member of Congress could 
veto the proposal in their district and it wouldn't even get to 
the CEQ unless there was broad bipartisan support for the river 
being designated.
    I would yield back, Madam Chairwoman.
    Mrs. Chenoweth. Thank you, Mr. Pallone. And without 
objection, I will also enter into the record the opening 
statement of Mr. Ken Calvert, my colleague from California.
    [The prepared statement of Mr. Calvert follows:]

 Statement of Hon. Ken Calvert, a Representative in Congress from the 
                          State of California

Remarks on the American Heritage Rivers Initiative
    I thank the Gentlelady from Idaho for bringing this issue 
before us today. The current Administration has consistently 
been waging a war on the West, treading on private property 
rights and the western way of life. Unfortunately, the 
Administration has once again gone too far with the American 
Heritage Rivers Initiative. I am shocked that the 
Administration blatantly tried to skirt around the democratic 
process by enacting the American Heritage Rivers Initiative 
without receiving Congressional approval. And carried this 
injustice one step further by shortening the required public 
comment period.
    I cosigned the letter to the Council on Environmental 
Quality Chairwoman Katy McGinty advising her to extend the 
comment period, and I am proud to be a cosponsor of H.R. 1842, 
which would not only put a stop to further implementation of 
this initiative, but also cease all funding. The War on the 
West has gone on for too long, and its time we put a stop to 
it. Thank you, Mr. Chairman.

    Mrs. Chenoweth. Are there any other opening statements?
    With that I'd like to just proceed, then, to the Members 
that we have in front of us. I'm very pleased that you're here; 
that dem-

onstrates a lot of good interest, and I look forward to your 
testimonies.
    Mr. Radanovich. Madam Chair? Helen?
    Mrs. Chenoweth. Yes. Yes, Mr. Radanovich.
    Mr. Radanovich. I'd be curious to know, as we're discussing 
this issue with various witnesses, whether or not, especially 
Members, whether or not they have an interest for rivers in 
their own districts to be designated as opposed to rivers 
outside their district; if you would, please.
    Mrs. Chenoweth. Would you please repeat that? I'm sorry, 
Mr. Radanovich.
    Mr. Radanovich. I just want to make sure that any Member 
that is on record for supporting or opposing Heritage Rivers 
indicates that they have a special desire for rivers in their 
own districts or rivers in other Members' districts.
    Mrs. Chenoweth. Thank you. We will, if there is no 
objection from the Congressman who will be testifying, we would 
like for you to indicate whether you are supporting rivers in 
your own district or the issue in general.
    So, I would like to recognize the Honorable Nancy Johnson, 
first, for her testimony.

 STATEMENT OF THE HONORABLE NANCY JOHNSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CONNECTICUT

    Ms. Johnson. Thank you very much, and thank you, Madam 
Chairman for this opportunity. I appreciate your holding this 
hearing.
    I am a strong proponent of the designation of the 
Connecticut River Basin as a national heritage river. It is the 
largest river basin in New England. It covers four States, and 
so on and so forth.
    But my testimony today is in support of the American 
Heritage Rivers Initiative. I respect the comments you made 
about how this was developed and the lack of communication, and 
I regret that. But I want to address myself to why I think this 
innovative approach is really--why it has been so embraced in 
New England and why there is so much enthusiasm for it among 
the local communities that I represent, all kinds of groups of 
people that I represent, because they really see it as an 
opportunity to better preserve the historic, cultural, 
economic, and environmental value of the rivers.
    For the first time the small towns are seeing the values of 
the rivers, and so they're beginning to think that this could 
contribute to their economy. So there are a lot of ideas out 
there; there's going to be a lot of development. We need to 
make--I mean, I want to make sure that the development is 
harmonious with environmental preservation goals as well as 
economic revitalization goals, and so do the towns. So, we are 
a densely populated part of the country. We have small towns, 
and so along the river there are many towns.
    You know, on some of the western rivers there are not so 
many towns along the river. There are lots of towns along our 
river, and so cooperation and coordination is extremely 
important, but it's also hard. Small towns cannot afford the 
kind of sophisticated per-

sonnel that can find, literally, the resources that we have 
already appropriated because they're in--what--six or eight 
different Federal agencies. So, we have resources out there. We 
have technical assistance out there, but a little town with no 
expertise has a very hard time finding these programs, 
integrating them, coordinating with the town next to it.
    And, truly, the opportunity here for a whole river basin to 
be able to have one person in the bureaucracy who knows that 
river and knows their problems and knows what people upstream 
are doing and what people downstream are doing is really just 
an--would be an extraordinary help to us; the problems inter-
agency, the problems with a single agency.
    We have had a tremendous success rehabilitating the river 
front in Hartford, and the river front in Hartford on both 
banks now has parks, recreational facilities, and amphitheaters 
at Riverfront Plaza. It's become a real economic driver for the 
city. The area now attracts major sporting events like 
professional water skiing competitions, but also was the site 
of the champion bass fishing tournament. Now who would 
associate that with Hartford, Connecticut? Nobody in their 
right mind, a few years ago.
    So, we have dealt with the river in a way that's good for 
the river and good for the economy of this urban area. But the 
Hartford river front project could never have gone forward if 
they hadn't been able to get money from other places to get the 
sophisticated personnel. It took them 18 months to get the 
permit to just do a walkway across the river for pedestrians.
    So we really do need to be able to cut through the red 
tape. We really do need to be able to do inter-agency 
cooperation. Little towns need somebody out there who knows the 
whole river and what's being done and can provide them with 
that kind of help.
    Let me just conclude, because I don't want to take too much 
of your time, but I spent 10 years working with this Committee 
to get the Farmington River designated as a wild and scenic 
river under the National Wild and Scenic Rivers program. And it 
took a long time, because in my part of the Nation local 
government is very, very strong, and people are very jealous of 
local power. And they were afraid that if you studied the river 
and you designated the river, you would control the river.
    So, our designation legislation required a Committee--this 
was when Reagan was president his first term--and we had 
representatives from every town on the Committee. The 
Department of Interior used to look at me and say, ``We don't 
do it this way. We don't do it this way.'' I said, ``You don't 
understand. We have to do it this way, because that's the way 
we govern in New England.''
    Anyway, out of it we came up with a designation bill, then, 
that has set the model for New England, so now we have more 
rivers designated, but it is completely different than the old 
designation law because it retains the power to control 
development and property rights and all those issues along the 
river. And those towns committed themselves to a river 
preservation plan that the Department of Interior said would 
meet the wild and scenic river criteria, but it protected the 
local communities from that fear that the Federal Government 
would do to them that which they did not want done to them.
    But it also gave the Federal Government support and gave 
the towns the support and the technical assistance and, in 
fact, the money to study the river in its initial phase that we 
needed in order to get a healthy river management plan and 
economic development plan in place. So, we have a unique local-
Federal partnership under the wild and scenic rivers program 
through working with a part of the country that is absolutely 
committed to local control. So they see this as no new 
resources, no new authority, no new mandates, but an 
opportunity to have somebody help them break through the 
bureaucracy and the inter-agency barriers to developing and 
preserving our river.
    So, it's that part of it that I support. We're excited 
about it. We think we're the best application, and, as I say to 
the administration, you don't ever want to have a rivers 
program that's only western or only southern. And for a long 
time wild and scenics didn't have any designations in New 
England, so I hope, at least, the designations under this 
program will represent benefits across the Nation.
    Thank you.
    [The prepared statement of Ms. Johnson follows:]

 Statement of Hon. Nancy L. Johnson, a Representative in Congress from 
                        the State of Connecticut

    Good morning, Mr. Chairman and members of the Committee. I 
appreciate the opportunity to appear before you as a committed 
supporter of the American Heritage Rivers Initiative.
    Ever since President Clinton announced his intention to 
create this program, I have been among its leading supporters 
because this innovative approach is just what my local 
communities need to restore and revitalize their rivers and 
waterfronts. I recognized the promise this initiative holds for 
the historic, cultural, economic and environmental value of 
rivers such as the Connecticut River in my home state, simply 
by enabling local communities to gain better access to 
scattered Federal resources to achieve community defined goals.
    The American Heritage Rivers Initiative is about making the 
Federal Government a better partner with local communities in 
river conservation and revitalization efforts. The program will 
assist river communities to gain timely and coordinated access 
to existing programs and resources. The objective here is to 
provide better delivery of Federal services in such a way that 
is not only approved by local residents, but is designed by 
local residents. It is entirely a ``bottom up'' program. For my 
fellow Republicans, this should represent a welcomed departure 
from more traditional conservation programs in that it moves 
away from the usual Federal command and control approach toward 
empowering local communities and supporting local initiatives.
    Many of the supporters of H.R. 1842 cite their fear of an 
impending Federal land grab and the loss of private property 
rights as justification for blocking this program. But that 
will not happen under this initiative. This is an entirely 
voluntary program. Even the published notice in the Federal 
Register stated that ``The initiative will create no new 
regulatory requirements for individuals, or state or local 
governments.'' The President reiterated this just 2 weeks ago 
in a September 11 press conference in which he said, ``Every 
step of the way, the initiative will be driven by the needs and 
desires of the communities that choose to participate. There 
will be no Federal mandates, no regulations, no restrictions on 
property holder's rights.''
    I believe the opposition to this program is based on a 
misunderstanding of its structure and differing regional needs. 
This program rests on the principle of local control and seeks 
to break through the bureaucratic barriers that currently block 
local access to existing Federal resources. Those barriers are 
real and paralyzing to small towns without sophisticated 
personnel and are particularly daunting to groups of small 
towns that want to coordinate development projects. Because we 
are an old and densely populated part of the nation, our river 
towns value this support to make cooperation easier and reduce 
bureaucratic and interagency barriers to need resources. The 
goal of this program is to improve the efficiency of government 
programs and promote economic growth in river towns. Those I 
represent welcome this new opportunity.
    This initiative is as much about the future as it is about 
our past. I point to the Connecticut River and the new 
Riverfront in Hartford, Connecticut. On both banks of the 
river, parks, recreational facilities, amphitheaters and a 
riverfront plaza have been completed or are under development. 
This is providing a tremendous economic boon for the city. The 
area now attracts major sporting events like professional water 
ski competitions and championship bass fishing tournaments. 
When Bud Light sponsored a triathalon in 1992, it brought in 
more than 1100 athletes from more than 30 states with an 
estimated local economic benefit of $4 million. The American 
Fisheries Society will bring its national convention to 
Hartford in 1998 with an expected economic benefit of $2 
million.
    The Riverfront was recognized by the prestigious American 
Rivers organization as being one of America's most improved 
urban rivers due to its phenomenal economic revitalization. And 
yet when you talk with those who were responsible for this 
change they can tell you how much red tape they had to deal 
with to move ahead with restoration or revitalization efforts. 
As successful as the Riverfront has been, it too had to contend 
with lengthy bureaucratic delays even though it was in constant 
consultation with the relevant agencies. It took the 18 months 
to receive approval from the Army Corps of Engineers to build a 
simple walk bridge. The Riverfront on the Connecticut River and 
other waterways like it would enjoy even greater success with 
the assistance that comes from receiving the designation of 
being an American Heritage River.
    For the sake of the local communities that surround our 
great rivers, I urge the members of this Committee to support 
this voluntary approach to the preservation of river areas of 
historic and environmental value, to the expansion of cultural 
richness and to the economic revitalization of our great river 
basins as they run through old cities and pre-revolutionary 
towns alike.
    I thank the members of the Committee and hope that my 
testimony will cause you to reevaluate this sensible 
conservation program.

    Mrs. Chenoweth. Thank you, Nancy Johnson. I appreciate your 
comments.
    The Chair now recognizes Mr. Herger.

 STATEMENT OF THE HONORABLE WALLY HERGER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Herger. Thank you, Madam Chair, and members of the 
Committee, for this opportunity to express my strong support 
for your legislation and to share my strong concerns regarding 
the American Heritage Rivers Initiative.
    And let me state at this time, on behalf of an overwhelming 
number of constituents who have contacted me over the last 
several months, our northern California district stands very 
strongly in opposition to any rivers being declared so under 
this Act within our northern California district.
    This initiative sets a terrible precedent for overriding 
local involvement in land use, planning, and zoning issues, and 
totally disregards authority of established community 
governments. It also poses a serious threat to the rights of 
private property owners across the Nation. Seventy percent of 
the total land base in the United States is owned by private 
individuals. By implementing a program that requires increased 
Federal intervention in private property use and enjoyment, 
this initiative sets up a situation ripe with the potential for 
abuse.
    Traditionally, the Federal Government has allowed private 
property owners free use and maintenance of their land, so long 
as it does not interfere with the use and enjoyment of 
surrounding property owners. This initiative, however, bypasses 
established procedures and interjects the Federal Government 
into the planning and zoning processes historically undertaken 
at local levels as a function of properly elected local 
government.
    Planning and zoning activities have developed along a 
finely balanced set of practices and principles that ensures 
each individual in the community first, has the right to be 
heard and, second, that he or she has the right to reasonably 
use his or her property. By allowing this Federal intervention, 
the Clinton Administration interjects the Federal Government in 
the local decision process and forces private land owners to 
subjugate their own land use interest to that of the Federal 
Government.
    How is this accomplished? To begin with, the Executive 
Order fails to define how much land and how many jurisdictions 
will make up the land base of the nominated rivers. 
Furthermore, the person in charge of administering the 
designated river, called a river navigator, would be appointed 
solely by the President. By disregarding existing political 
boundaries and by appointing another Federal agent, whose job 
is held only at the behest of the President, residents of the 
river community are left with no political recourse to address 
damages suffered as a result of the river designation.
    Through tradition and well-established legal practices, the 
Supreme Court has granted States and communities the authority 
to institute local planning and zoning commissions. Under this 
valid authority, these commissions follow a well-defined 
process to develop a master plan for their communities. This 
master plan is shared with the public. Proper notice is given. 
Comments are submitted and hearings are held. Then the master 
plan is voted on and officially adopted.
    Unless this process is followed, and members of the public 
are given the opportunity to participate, comment, and vote, 
the courts have held time and time again that any regulatory 
zoning ordinance pursuant to the master plan is considered 
invalid.
    The American Heritage Rivers Initiative, on the other hand, 
completely disregards this process and unilaterally throws out 
more than 100 years of land use, planning, and zoning laws. In 
addition, once an area is designated, there is no mechanism in 
place to allow the community to undesignate itself. Without 
this power in place, the President's designation of a river as 
an American Heritage River becomes permanent.
    In effect, this initiative therefore imposes an Escalante 
monument on the different rivers every year. And with 70 
percent of this Nation owned by private individuals, it will do 
so in many areas where no Federal interests currently exists. 
According to administration officials, however, we have nothing 
to fear, quote: ``This is a voluntary program,'' close quote. 
They say that only serves to, quote, ``facilitate cooperation 
between communities and the Federal Government,'' close quote.
    We are all in favor of the benefits of facilitated 
cooperation; however, there is a cost involved that I do not 
believe the American public is willing to pay. I do not 
understand how adding another agency to the Federal bureaucracy 
makes anything easier for local communities. Why, in an age 
where we talk about re-inventing government do we turn around 
and create more of the same? What communities really need are 
for current Federal agencies to live up to their existing 
duties and are more accountable to their stewardship.
    Madam Chair, and members, over the last couple of months I 
have continually heard from the citizens of my rural northern 
California district regarding this issue. American Heritage 
Rivers had become one of the hottest topics in my area. I am 
here to relay my constituents' overwhelming sentiment opposing 
this initiative, and urge this Committee and this Congress on 
their behalf to make sure that not a penny is spent on its 
implementation.
    Again, I thank you for this opportunity to testify at your 
hearing.
    [The prepared statement of Mr. Herger follows:]

 Statement of Hon. Wally Herger, a Representative in Congress from the 
                          State of California

    Thank you Mr. Chairman and Members of the committee for 
this opportunity to share my concerns regarding the American 
Heritage Rivers Initiative.
    This initiative sets a terrible precedent for overriding 
local involvement in land use, planning, and zoning issues, and 
totally disregards authority of established community 
governments. It also poses a serious threat to the rights of 
private property owners across the nation. Seventy percent of 
the total land base in the United States is owned by private 
individuals. By implementing a program that requires increased 
Federal intervention in private property use and enjoyment, 
this initiative sets up a situation ripe with the potential for 
abuse. Traditionally, the Federal Government has allowed 
private property owners free use and maintenance of their land 
so long as their activities do not interfere with the use and 
enjoyment of surrounding property owners.
    This initiative, however, bypasses established procedures 
and interjects the Federal Government into the planning and 
zoning processes historically undertaken at local levels as a 
function of properly elected local government. Planning and 
zoning activities have developed along a finely balanced set of 
practices and principles that ensure each individual in the 
community first, has the right to be heard, and second, that he 
or she has the right to reasonably use his or her property. By 
allowing Federal intervention, the administration interjects 
the Federal Government in the local decision process and forces 
private landowners to subjugate their own land use interests to 
that of the Federal Government. How is this accomplished?
    To begin with, the executive order fails to define how much 
land and how many jurisdictions will make up the land base of 
the nominated rivers. Furthermore, the person in charge of 
administering the designated river, called a river navigator, 
will be appointed solely by the President. By disregarding 
existing political boundaries, and by appointing another 
Federal agent whose job is held only at the behest of the 
President, residents of the river community are left with no 
political recourse to address damages suffered as a result of 
the river designation.
    Through tradition and well-established legal principles, 
the supreme court has granted states and communities the 
authority to institute local planning and zoning commissions. 
Under this valid authority these commissions follow a well-
defined process to develop a master development plan for their 
communities. This master plan is shared with the public--proper 
notice is given, comments are submitted and hearings are 
held,--then the master plan is voted on and officially adopted. 
Unless this process is followed, and members of the public are 
given the opportunity to participate, comment and vote, the 
courts have held time and time again that any regulatory zoning 
ordinance instituted pursuant to the master plan is considered 
invalid.
    The American Heritage Rivers Initiative, on the other hand, 
completely disregards this process and unilaterally throws out 
more than 100 years of land use, planning and zoning laws. In 
addition, once an area is designated, there is no mechanism in 
place to allow the community to undesignate itself. Without 
this power in place, the President's designation of a river as 
an American Heritage River becomes permanent. In effect, this 
initiative therefore imposes an Escalante Monument on ten 
different rivers every year, and with 70 percent of this nation 
owned by private individuals it will do so in many areas where 
no Federal interest exists.
    According to administration officials, however, we have 
nothing to fear. ``This is a voluntary Program,'' they say, 
that only serves to ``facilitate cooperation between 
communities and the Federal Government.'' We are all in favor 
of the benefits of facilitated cooperation, however, there is a 
cost involved that I do not believe the American public is 
willing to pay. I do not understand how adding another agency 
to the Federal bureaucracy makes anything easier for local 
communities. Why, in an age where we talk about reinventing 
government, do we turn around and create more of the same?
    What communities really need are Federal agencies that live 
up to their existing duties and are more accountable for their 
stewardships.
    Mr. Chairman, and Members, over the last couple months I 
have continually heard from the people of my rural Northern 
California district regarding this issue. American Heritage 
Rivers has become one of the hottest issues in my district. I 
am here to relay my constituents' overwhelming sentiment 
opposing this initiative and urge this Committee and this 
Congress, on their behalf, to make sure that not a penny is 
spent on its implementation.
    Again thank you for this opportunity to testify at this 
hearing.

    Mrs. Chenoweth. Thank you, Mr. Herger. I appreciate your 
testimony.
    The Chair now recognizes the Honorable Cliff Stearns.

 STATEMENT OF THE HONORABLE CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Good morning, Madam Chairwoman, and let me 
just say I'm delighted to be here and have the opportunity to 
speak. As you know, and perhaps members of the staff know, that 
I am a co-sponsor of your bill to terminate the American 
Heritage Rivers Initiative.
    My colleague from Connecticut mentioned the good that this 
bill--that the intention of the American Heritage Rivers has 
with it. Let me point out that all of us--all of us--want to 
care about our national rivers and waterways, but the 
administration's plan does it without the participation of 
Members of Congress and the State legislatures.
    I pose this question for the Members of Congress: Would you 
like to have this country run by notices in the Federal 
Register? Wouldn't you like to have an opportunity for debate 
on the House floor and the Senate, and then we advise the 
President? Well, what the President did is notify the people 
that he was going to establish this program in the Federal 
Register. And as you'll recall, this proposal was only allowed 
a 3-week pubic comment instead of the required 3 months. But 
there was a lot of objection; a lot of people didn't 
understand, so it was extended from June 9, 1997 until August 
20, 1997.
    Clearly, many people in my State, in my congressional 
district in Florida, were very concerned. There was some talk 
about designating the St. John's River, which is in the State 
of Florida, and it is a beautiful river. But the question 
became, What about private property owners, people who are 
close and contiguous to the river? Who would decide if their 
property was going to be impacted? How would they have a say-
so?
    And, you know, when you looked at the recent Federal 
Register notice, there was one page offered of vague and 
nebulous language about water rights, land use, planning, and 
water quality standards. But it did not address the fundamental 
issue of how a private land owner can be excluded from a 
designation. You own the property, you don't want to be a part 
of it, you don't want to abide by this, quote, ``river 
navigator.''
    So the real question is, Are private property owners going 
to be impacted? And why won't the administration bring it 
through Congress and let us have a bill and debate it, instead 
of notifying all the people of this fine land that their going 
to do X-Y-Z in the Federal Register?
    Now as you know, the Senate had a vote yesterday--last 
week--concerning this, by Senator Tim Hutchinson, and he simply 
said, ``Let's require that all private land owners that abut 
the affected rivers be notified of this proposed designation.'' 
There was great debate on this; it did not pass.
    But I think it's incumbent upon us, who have been elected 
by the people, who represent the people, to say to ourselves, 
``Let's not let the Federal Register decide what we're going to 
do in this country. Don't let a water management within a State 
decide and apply for permanent Federal regulation and 
designation without the State representative, the State 
senator, the Governor, the Congressman, and the Senator having 
some say-so and debate it openly. If the administration wants 
to push this, come to Congress, ask for funding. Don't strip 
out funding from 13 different Federal agencies and use that 
money under clandestine operations to push the American 
Heritage Rivers program.''
    Because they continually say, ``Well, it's not going to 
cost any money. It's all voluntary.'' But they're taking money 
from all these different appropriations, and that's how they're 
doing it. So let's ask the administration to come back to 
Congress and propose their bill, and let's talk about it. The 
administration's claim continually to say that this is 
voluntary, and this is something that can be debated on a local 
level sort of sidesteps the issue that Congress should be 
involved, and the Governors, as well as the State senators and 
State representatives.
    So, obviously, Madam Chairman, I support H.R. 1842, and I 
think this is an attempt by the administration to sidestep 
Congress, just like they tried to do with Fast Track and some 
of these other agreements where there's not the participation. 
And, so, I hope your bill passes. I hope many of the people on 
my side will realize that they have a fiduciary responsibility 
to speak out and try and let Congress take an act and implement 
this before the administration does it without our vote. Thank 
you.
    Mrs. Chenoweth. Thank you, Mr. Stearns. It was good to hear 
your testimony.
    And the Chair now recognizes The Honorable Robert Scott. 
Mr. Scott.

 STATEMENT OF THE HONORABLE ROBERT SCOTT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF VIRGINIA

    Mr. Scott. Thank you Madam Chairman, members of the 
Committee. I appreciate the opportunity to appear before you 
today to speak about the importance of preserving the American 
Heritage Rivers Initiative set forth by the President in an 
Executive Order issued earlier this month.
    The preservation of the American Heritage Rivers Initiative 
is important, because just the designation of a river as an 
American Heritage River alone will serve as a catalyst to 
increase tourism, economic development, environmental 
protection, and preserve our heritage with virtually no 
additional resources, other than what's already been 
appropriated.
    This initiative builds on existing community efforts, both 
public and private, and provides coordination with Federal 
agencies to further enhance efforts for economic 
revitalization, environmental protection, and historic and 
cultural preservation.
    I'm sure that there are several excellent candidates for 
designation as American Heritage rivers, and one is the James 
River in Virginia. And in response to the gentleman from 
California's inquiry, that's in my district and one that we're 
very excited about. The communities surrounding the James 
River, including many of those in my district, are excited 
about this opportunity and are aggressively seeking designation 
as one of the first rivers in the Nation to be designated an 
American Heritage river, and fittingly so.
    The James River is America's first river. The first forts 
and farms and churches and villages, even the first hospital in 
the English-speaking colonies, were all built along its shores. 
From the first settlers at Jamestown, to the battlefields of 
the Revolutionary and Civil Wars, to the dry docks of the 
Newport News shipyard and other shipyards along the James 
River, the James has played an important role in the 
development of this country.
    The James River watershed, covering approximately 25 
percent of the State, has provided significant opportunities 
for river-related industries along its 340-mile course for 
centuries for its surrounding communities, including tourism, 
national defense, ship-building, commercial fishing, 
agriculture, and more recently, Virginia's growing industry, 
the wine industry. It is home for the world's largest natural 
harbor in Hampton Roads, a harbor which easily accommodates 
America's biggest ships, the 90,000-ton aircraft carriers.
    Communities surrounding the James have made a tremendous 
headway in restoring its grandeur. They have spent hundreds of 
millions of dollars on projects to improve the water quality in 
an effort to preserve the James and to promote a healthier 
Chesapeake Bay. Efforts include the Virginia History 
Initiative, a public-private partnership to develop the 
historical resources and tourism in Virginia, and the James 
River Days, held since 1995 for white-water races and clean-up 
days and historical re-enactments. So communities of Virginia 
are committed to preserving the James.
    While there are numerous initiatives on the State and local 
level to enhance the James, at present there is no collective 
plan of action with regard to river-related activities. The 
American Heritage River designation will serve as a catalyst to 
transform the current piecemeal approach of individual local 
programs into a program with a broader agenda, whose purpose is 
to assist in the historic preservation, the environmental 
protection, and economic revitalization along the entire James.
    The 30 localities along the length of the river, along with 
their respective planning district commissions, are actively 
involved in the planning and consideration of efforts to gain 
designation for the James as an American Heritage river. The 
effort is currently being led by the James River Heritage 
Partnership, a coalition of governmental, civic, and business 
leaders from 20 counties, nine cities, two towns, and two 
Indian tribes.
    I would, therefore, urge your skepticism of any efforts 
which would stand in the way of the effort to combine Federal, 
State, and local resources in the pursuit of a comprehensive 
approach in restoring America's rivers for current and future 
generations. Far from being a Federal take-over, this Executive 
Order sets forth coordination of existing Federal resources 
with those communities who voluntarily wish to apply to 
participate in the program.
    For those States or communities which have concerns about 
the program because of perceived interference from the Federal 
Government, I would offer this simple advice: Don't apply. I 
implore you not to prevent other communities from taking 
advantage of what others would want to pass up.
    America's first river, the James River, wants to and 
deserves to be designated as the first American Heritage river. 
Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Scott.
    And the Chair now recognizes Doc Hastings, from Washington. 
Mr. Hastings.

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you, Madam Chairman, for allowing me to 
testify before your Committee this morning in support of H.R. 
1842 and to tell you of my opposition to the American Heritage 
Rivers Initiative. I would like to express my strong support 
for the measure before you which would stop, I believe, all 
further development and implementation of the President's 
American Heritage Rivers Initiative.
    Let me emphasize this point, that this is simply not a new 
regulation; rather, it is an entirely new program that should 
be authorized, or at the very least debated, by this Congress. 
This is not only a new way of delivering Federal services, but 
it also provides for a new Federal service. Let me emphasize 
that point: It's not a new way to deliver Federal services, but 
it is, indeed, in my mind, a new Federal service. And if this 
program is truly a better way to deliver Federal services, why 
don't we just authorize this new delivery system government-
wide?
    How will this program help or hurt local residents and 
private property owners? How will this new program affect the 
funding of different agencies that are involved? These are 
questions that are normally answered during the thorough debate 
that Congress engages in when new programs are laid before us. 
However, this administration is attempting to circumvent the 
constitutional role of Congress--oversight and approval of new 
programs--and in my mind, to prevent an open and fair 
discussion regarding the American Heritage Rivers Initiative.
    In addition, this administration does not have a stellar 
record when it comes to protecting private property rights and 
ensuring local decisionmaking authority in important regional 
actions. For example, in central Washington, which is part of 
my legislative or congressional district, we have seen this 
administration attempt to control regional land use on a 
massive scale through the Columbia Basin Ecosystem management 
project. That proposal would, through new regulations, control 
over 70 million acres in the Northwest.
    Last year, the administration attempted to regulate eastern 
Washington by designating the entire region a sole-source 
aquifer. Well, since the sole-source aquifer designation hasn't 
taken hold and the ecosystem management project appears to have 
slowed down--and I might say mainly through the actions of the 
Congress in the funding area--this administration has found a 
new way to impose their bureaucratic regulations in the West--
the American Heritage Rivers Initiative.
    All new proposals of this scope should be debated by 
Congress, period. Without a fair and open debate, how can we 
know what the true intent is of the program? The simple answer 
is, is that we can't, and that is precisely the reason why I 
urge this Committee to favorably approve H.R. 1842. We must 
stop this new initiative before the administration finally 
succeeds in thwarting the will of Congress and the U.S. 
citizens, and usurping control of our land by passing countless 
new regulations.
    And Madam Chairman, I would like to submit for the record 
two articles, an editorial from the Tri-City Herald in my 
district, and a newspaper article from the Seattle Times 
talking about the problems that the tri-city area is having 
with the land transfer problem.
    [The information referred to may be found at end of 
hearing.]
    Mr. Hastings. And I bring it to your attention for this 
reason. In the last Congress we passed legislation to allow 
along the Columbia River, which is one of the great rivers in 
the country, transfer of Federal property--specific Corps of 
Engineers property--to the local entities, and there are five 
local entities that are involved in this.
    This article of August 17 and the editorial of August 17, 
point out the difficulties that these local communities are 
having in getting the Corps of Engineers simply to sit down and 
transfer the land. Now I bring this to your attention because, 
undoubtedly, somebody is going to come up here in favor of this 
initiative and say, ``This is precisely what the American 
Heritage Rivers Initiative is supposed to resolve.''
    Well, I would conclude this: Why is it that we have to have 
another government nanny, if you will, to oversee what 
government is supposed to do for people in the first place? So, 
if somebody were to come up here and say that this is precisely 
what this new initiative is all about, to take care of all of 
the problems in the tri-city area on the Columbia River, I hope 
one of you will ask the question of why we have to have this 
government nanny to oversee what government is supposed to do 
for people in that area.
    So with that, Madam Chairman, I want to thank you for this 
hearing, and thank you for the opportunity to allow me to 
testify this morning.
    [The prepared statement of Mr. Hastings follows:]

 Statement of Hon. Doc Hastings, a Representative in Congress from the 
                          State of Washington

    Mr. Chairman: Thank you for allowing me to testify before 
your Committee this morning in support of H.R. 1842. I know you 
have several more witnesses and I'll keep this as short as 
possible.
    Mr. Chairman, as you know, H.R. 1842 would stop all further 
development and implementation of the President's new program, 
the ``American Heritage Rivers Initiative.'' And let me 
emphasize that point. This is a new way of delivering Federal 
services but it also provides a new Federal service. And if 
this program is a better way to deliver Federal services, why 
don't we authorize this new delivery system government wide?
    How will this new program help or hinder the local 
residents and private property owners? How will this new 
program affect the funding of the different agencies involved?
    These are questions that are normally answered during the 
thorough debate that Congress engages in when new programs are 
laid before us. However, the Administration is attempting to 
circumvent the Constitutional role of Congress--oversight and 
approval of new Federal programs--and prevent an open and fair 
discussion regarding the American Heritage Rivers Initiative.
    Furthermore, the Administration does not have a stellar 
record when it comes to protecting private property rights and 
ensuring local decision-making authority in important regional 
actions. In Central Washington alone, we have seen this 
Administration attempt to control regional land use on a 
massive scale through the Interior Columbia Basin Ecosystem 
Management Project. This proposal would, through regulation, 
control over 70 million acres in the Northwest. Last year, the 
Administration attempted to regulate Eastern Washington by 
designating the entire region a ``sole source aquifer.''
    Since the Sole-Source Aquifer didn't work, and the 
Ecosystem Management Project appears doomed, the Administration 
has found a new way to impose their bureaucratic regulations in 
the West--the American Heritage Rivers Initiative. All new 
proposals of this scope should be debated by Congress, period. 
Without a fair and open debate, how can we know the true intent 
of the program? The simple answer is, we can't. And that is 
precisely the reason I would urge you to approve H.R. 1842. We 
must stop this new initiative before the Administration finally 
succeeds in thwarting the will of the citizens and usurping 
control of our land by passing countless new regulations.
    Thank you Mr. Chairman, for having this hearing and 
allowing me to testify.

    Mrs. Chenoweth. Thank you, Mr. Hastings, and without 
objections, we will accept into the record the documents that 
you suggested.
    I would love to hear from Mr. Reyes, but it looks like 
we're just going to be able to run and make the vote. We have 
three votes coming up, and Mr. Reyes, I think it will take 
about a half-hour; there are three procedural votes. We will 
recess temporarily, and then be back in 30 minutes; we look 
forward to hearing from you then.
    [Recess.]
    Mrs. Chenoweth. The Committee will come to order. The Chair 
now recognizes The Honorable Jo Ann Emerson, from the State of 
Missouri. Ms. Emerson.

STATEMENT OF THE HONORABLE JO ANN EMERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MISSOURI

    Mrs. Emerson. Madam Chairman, and members of the Committee, 
I want to first thank you for holding this hearing on an 
important subject that is of great interest to many, many of my 
constituents in southern Missouri, and for allowing me to 
testify.
    As you certainly know, there is great concern among the 
public about exactly what this initiative entails and many yet 
unanswered questions about exactly what is being proposed.
    I'll get right to the point, because I know you have other 
witnesses that you would like to hear. In my opinion, the 
Executive Order signed by the President on September 11 of this 
year, while well-intentioned, I'm sure, has the potential to 
seriously erode one of our most fundamental rights--the right 
of property ownership.
    While the broad goals as outlined by the President and the 
Council on Environmental Quality to ``help communities protect 
their river resources in a way that integrates natural resource 
protection, economic development, and the preservation of 
historic and cultural values'' are laudable and things we all 
support, there are still many questions to be raised about 
exactly what is being proposed.
    The problem, as I see it, is that we have an Executive 
Order that, originating from the executive branch, has not gone 
through the committee process and has lacked any congressional 
review. Had it not been for the strong interest of this 
Committee and other Members, including myself, to request that 
the ridiculously abbreviated comment period be extended, I have 
no doubt that this proposal would have moved forward quietly 
within the walls of the White House with few, if any, Members 
of Congress aware of it. So I applaud you for being out in 
front and really paying very close intention.
    Second, this proposal is far-reaching and broad in its 
mandate. It's my understanding, from what I have read, that 
funding for this initiative would come from nine Cabinet 
departments, and, in addition to that, there is proposed 
funding from a number of agencies, including the EPA, the NEA, 
the NEH, and the Advisory Council of Historic Preservation. I 
think that in these times of making our government smaller and 
more efficient, I can hardly see how a proposal that includes 
nine Cabinets and numerous other agencies is in step with our 
efforts to streamline government.
    In addition, it is my contention that, from the outset, 
this proposal has been controlled by environmental groups that 
have tried on many occasions to stop economic development, 
navigation, flood control, and any other activities on our 
Nation's inland water system that may be contrary to their 
agenda.
    I know that most of the meetings held by the CEQ were 
dominated by the input of what I call preservationist-type 
environmental groups, and while I was not invited to 
participate in one of these meetings, a very close friend of 
mine, but who is an extreme environmental activist, I might 
say, did attend and warned that this could, in fact, be a black 
hole.
    I know that none of my constituents were invited to attend, 
as well, and while I applaud being able to have public 
hearings--people notified through the Federal Register via 
Heritage Rivers web site--most of the people in my district 
don't have computers, and I dare say that they wouldn't know to 
look in the Federal Register, as I'm sure few people in the 
country would know to do.
    Madam Chairperson, the entire eastern boundary of my 
congressional district borders the Mississippi River, and the 
Missouri River runs through the middle of the Show-Me State 
just to our north. Both of these rivers have proved vital for 
our State, our region, and our country's commerce and 
productivity. Citizens of Missouri have fought many, many 
battles over the years, most recently the Midwest floods of 
1993 and 1995.
    We have battled many, many proposals to let our network of 
levees and flood control structures give way to ill-conceived 
ideas of allowing our rivers to run their natural course along 
their original flood plains. So, quite naturally, you can 
understand why we're a little leery, to say the least, of 
proposals that claim to, quote, ``enhance,'' end-quote, our 
rivers. Enhancing can take on a variety of meanings, depending 
on who is leading the enhancement.
    I've heard from literally hundreds of constituents 
throughout southern Missouri who are adamantly opposed to the 
creation of this new bureaucracy. I'm also very pleased, Madam 
Chairman, that you have introduced legislation to prohibit any 
Federal funding to be used to implement the American Heritage 
Rivers Initiative, and the hundreds of constituents who have 
contacted me have asked me to support your legislation, which I 
have proudly done.
    It's also my understanding that Senator Hutchinson offered 
an amendment to the Interior Appropriations during floor 
consideration in the Senate that called for land owner 
consultation and input, a clear definition of a river 
community, and to make the initiative subject to the existing 
provisions of the Clean Water and Safe Drinking Water Acts. 
Unfortunately, it failed by a few votes, and I must say that I 
thought that the Senator's amendment was certainly very 
responsible, and I'm very sad that it did, in fact, fail.
    In closing, I'd like to state for the record that most 
citizens in my congressional district are not necessarily 
opposed to most of the concepts in this initiative. Everyone 
wants to revitalize communities, bring in economic development, 
and make our cities and towns more productive places in which 
to live and work. But, as you may know, Missouri is the Show-Me 
State, and we feel like we have yet to know and to be shown 
exactly how this plan is supposed to work. Until my 
constituents have a clear understanding of how this may or may 
not directly impact them, they're going to remain naturally 
skeptical and largely opposed to this initiative.
    So I thank you again, Madam Chairman, for allowing me to 
testify on this important issue, and I stand ready to help in 
any way and would be glad to answer any questions you might 
have.
    [The prepared statement of Mrs. Emerson follows:]

Statement of Hon. Jo Ann Emerson, a Representative in Congress from the 
                           State of Missouri

Mr. Chairman and Members of the Committee:
    I want to first thank you for holding this hearing on an 
important subject that is of great interest to many, many of my 
constituents in Southern Missouri and for allowing me to 
testify. As you certainly know, there is great concern among 
the public about exactly what this initiative entails and many 
yet unanswered questions about exactly what is being proposed.
    I'll get right to the point because I know you have other 
witnesses that you would like to hear. In my opinion, the 
Executive Order signed by the President on September 11th of 
this year, while well-intentioned--I'm sure--has the potential 
to seriously erode one of our most fundamental rights--the 
right of property ownership. While the broad goals as outlined 
by the President and the Council on Environmental Quality to 
``help communities protect their river resources in a way that 
integrates natural resource protection, economic development 
and the preservation of historic and cultural values'' are 
laudable and things we all support, there are still many 
questions to be raised about exactly what is being proposed.
    The problem, as I see it, is that we have an Executive 
Order that, originating from the Executive branch, has not gone 
through the committee process and has lacked any congressional 
review. Had it not been for the strong interest of this 
Committee and other Members, myself included, to request that 
the ridiculously abbreviated comment period be extended, I have 
no doubt that this proposal would have moved forward quietly 
within the walls of the White House with very few, if any, 
Members of Congress aware of it.
    Second, this proposal is far-reaching and broad in its 
mandate. It is my understanding that funding for this 
initiative would come from 8 Cabinet departments including the 
Departments of Defense, Justice, Transportation, Agriculture, 
Commerce, Housing and Urban Development, Interior and Energy. 
In addition, there is proposed funding from a number of 
agencies as well: EPA, NEA, NEH and the Advisory Council of 
Historic Preservation. In these times of making our government 
smaller and more efficient, I can hardly see how a proposal 
that includes 8 cabinets and numerous other agencies is in step 
with our efforts to streamline government.
    In addition, it is my contention that from the outset, this 
proposal has been controlled by environmental groups that have 
tried on many occasions to stop economic development, 
navigation, flood control, and any other activities on our 
nation's inland waterway system that may be contrary to their 
agenda. I know that most of the meetings held by the CEQ were 
dominated by the input of what I call preservationist-type 
environmental groups.
    Mr. Chairman, the entire eastern boundary of my 
congressional district borders the Mississippi River, and the 
Missouri River runs through the middle of the Show-Me state 
just to our north. Both of these rivers have proved vital for 
our state, our region, and our country's commerce and 
productivity. The citizens of Missouri have fought many battles 
over the past few years due to the Midwest floods of 1993 and 
1995. We have battled proposals to let our network of levees 
and flood control structures give way to ill-conceived ideas of 
allowing our rivers to run their natural course along their 
original flood plains. So quite naturally, we are a little 
leery, to say the least, of proposals that claim to ``enhance'' 
our rivers. Enhancing can take on a variety of meanings 
depending on who is leading the enhancement.
    I have heard from literally hundreds of constituents 
throughout Southern Missouri who are adamantly opposed to the 
creation of this new bureaucracy. Mr. Chairman, our colleague 
and a valued member of your Committee, Mrs. Chenoweth, has 
introduced legislation, H.R. 1842, to prohibit any Federal 
funding to be used to implement the American Heritage Rivers 
Initiative. Congress should act upon this bill soon and without 
delay. It is my understanding that Senator Hutchinson offered 
an amendment to the Interior Appropriations bill during floor 
consideration that called for landowner consultation and input, 
a clear definition of a river community, and to make the 
initiative subject to the existing provisions of the Clean 
Water and Safe Drinking Water Acts. Unfortunately, it failed by 
just a few votes.
    In closing, I would like to state for the record that most 
citizens in my congressional district are not necessarily 
opposed to most of the concepts in this initiative. Everybody 
wants to revitalize communities, bring in economic development, 
and make our cities and towns more productive places to live 
and work. But as you may know, Missouri is the Show-Me state 
and we feel like we have yet to be shown exactly how this plan 
is supposed to work. Until my constituents have a clear 
understanding of how this may or may not directly impact them, 
they will remain naturally skeptical and largely opposed to 
this initiative. Thank you, again, Mr. Chairman, for allowing 
me to testify on this important issue and I stand ready to help 
in any way that I can.

    Mrs. Chenoweth. Thank you, Mrs. Emerson. I appreciate your 
testimony, and we will certainly stay in touch.
    Mrs. Emerson. Thank you.
    Mrs. Chenoweth. Thank you.
    The Chair recognizes The Honorable Mr. Kanjorski. Thank you 
for being here.
    Mr. Kanjorski. Thank you very much, Mrs. Chairman.
    Mrs. Chenoweth. Please proceed.

STATEMENT OF THE HONORABLE PAUL KANJORSKI, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Kanjorski. Madam Chairman, I appreciate the hearings 
today, and I look at this as an opportunity to really analyze 
what the American Heritage Rivers Initiative is all about.
    First, if I may say, to be facetious, I had suggested that 
maybe we do an amendment to the President's order and 
disqualify everyone west of the Mississippi River and south of 
the Mason-Dixon line, with the exception of the James River of 
Virginia.
    I understand the fierce individuality of the West and the 
South, and I think since we're all one Union we have to take 
that into consideration. But the effort and the openness 
expressed by the administration in putting together the 
American Heritage Rivers Initiative, I think, is to be 
responded to in a remarkable way and not in a conflicting way.
    I look at this whole approach as intelligently, for the 
first time, analyzing what should be done with our waterways. 
And let me say that I come to it as a resident of one of the 
major old rivers of Pennsylvania, the Susquehanna River. It has 
suffered through both feast and famine, if you will. It 
provided the mechanism for travel that sparked the coal and the 
wood of the Industrial Revolution of America. And it has been 
badly misused and abused to the point now that it is, in my 
area of Wyoming Valley in northeastern Pennsylvania, the major 
industrial polluter of the Chesapeake Bay because of the old 
mine operations and the leakage therefrom of acid mine water 
and the various spoilings that occurred as a result of bad 
mining practices of 150 and 100 years ago.
    I look at the opportunity of the Heritage Rivers to 
rekindle and refocus the spirit of local communities and local 
people to solve a problem that has been long there and ignored. 
Now, I look back at Europe and I compare it to America, and I 
say, ``That's why the challenge.''--that I would like to 
congratulate the administration about.
    We have a window of opportunity here. It's a very short 
period of time, perhaps a decade or two, and after that, the 
land masses along our rivers will be exposed to private 
ownership to the extent that any attempt to use some natural 
methods and methodologies of cleaning the water, such as re-
manufacture of wetlands, will be lost.
    All a Member of Congress has to do to understand this is 
travel through Europe, and particularly the great Rhine River 
of Germany. There is absolutely no way that the river can be 
reconstituted into clean water in any other way but a manual 
and very expensive cleaning process, simply because, through 
density and population expansion, there are no lands along the 
river available any longer to natural uses for water 
cleanliness.
    So I urge that we support what it's doing, and I think as 
Mr. Scott said, those Members of Congress, those States and 
those communities that either fear black helicopters or fear 
some conspiratorial intention of the U.S. Government, let them 
wait for the second or the third round. There's nothing wrong 
with that.
    Those of us in the industrial Northeast and Midwest, that 
understand that we have a limited time of opportunity to solve 
the problems along our rivers or forever lose their benefits, 
should be given the opportunity to act now.
    The major compliment, I think, toward the entire endeavor 
is, it isn't re-instilling government; it isn't a new program. 
It's reinventing government in its finest way. There isn't a 
Member of this Congress that can't appreciate the fact that 
regardless of all of the projects and all of the programs that 
we fund and put into place, sometimes we suffer from Catch-22 
results. They just don't get done, or they don't get done 
properly.
    This whole concept of a navigator is not something to be 
feared. It's something to be taken into consideration in terms 
of, ``It's government at its best.'' It's going to use the 
programs and the projects that are out there, but they're going 
to be used in a more efficient and a more effective way and a 
more focused way. I only wish that we could take this example, 
study it for several years, and perhaps apply the navigator 
approach to economic development.
    You know, I sit on the Banking Committee, and I've been 
heavily involved in economic development programs in this 
country for the last 13 years. And the one thing I can tell you 
that is lacking in all of these programs is the inability to 
have the money focused and placed and targeted in those areas 
that most need it, and the reason being is those areas usually 
lack the grantsmanship and the talent and the focused ability 
to know what programs are out there, how they can be used, and 
how they can be utilized for economic development. And the same 
thing is very true about the natural resources of this country.
    In Pennsylvania, so unlike other States in the Union, we 
have 2,400 municipalities in Pennsylvania. Along the 
Susquehanna River, there's got to be, in Pennsylvania alone, 
more than 700 municipalities and probably 18 counties.
    There's absolutely no way in the world that they can come 
together and have an impact on that river unless they are 
coordinated and focused by the intentions of the Federal 
Government, the State government--and then, with all the tools 
possible--and then the navigator. It is a hope for us that this 
will be an opportunity to re-focus people and to take us out of 
the political structure of the 19th Century and, indeed, lead 
us to the 21st Century so that we can be competitive.
    And if we can take a natural resource, such as a river, and 
accomplish that end, we will accomplish two things. We will 
have saved our natural resources, the beauty of our river, and 
the healthfulness of our river, but also it will be a great 
tool for economic development, and it will be a great tool for 
reinventing government, even at the local level, which, quite 
frankly, contrary to most of my colleagues in Congress, I sort 
of fear the concept of devolution.
    We devolve power to where? To the States? To local 
government?--that at this point in Pennsylvania, 95 percent of 
our municipal governments have a population of less than 3,500 
people and no professionalism at all at the local level. At the 
State level, where they refuse to take the responsibility of 
the administration of programs and projects that are presently 
in existence in the Federal Government, and lose the 
wherewithall and the support of the moneys that are available?
    All anyone has to do to understand and appreciate the 
benefits of the American Heritage Rivers concept is to come to 
Pennsylvania, and you don't have to come to my district in 
Pennsylvania. You can go to any river in any district in 
Pennsylvania, and you'll fast appreciate that this concept of 
reinventing government, that this administration is instilling 
through this program, will provide an efficient and effective 
way to use existing programs that really accomplish an end and 
will have objectives that can be tested.
    I urge this Committee to put aside partisanship, put aside 
ideology, put aside philosophies that may be held because of 
the particular regions or areas of the countries or 
propensities we have when we come. And if you in the West, if 
those in the South, that cannot see the benefit of this 
program, let them stand aside. Let us show the way in the 
Northeast, as we did for independence and liberty in this 
country, once again, that we have a window of opportunity to 
save our resources. Let us do it, and do not pass the pending 
legislation to inhibit that program.
    Thank you very much.
    Mrs. Chenoweth. Thank you, Mr. Kanjorski. I really 
appreciated your comments. By the way, how would you like some 
wolves in Pennsylvania?
    Mr. Kanjorski. Some----
    Mrs. Chenoweth. Wolves.
    Mr. Kanjorski. Wolves?
    Mrs. Chenoweth. Or grizzly bears.
    Mr. Kanjorski. I think, Madam Chairman, that we have some 
wolves in Pennsylvania, but they have two legs.
    [Laughter.]
    Mrs. Chenoweth. By the way, I really did appreciate your 
comments. I'm not sure how black helicopters fall into the 
logic of this whole thing, but I guess that remains to be seen.
    Mr. Kanjorski. I hope the Chairman will appreciate that's 
all facetious, Madam Chairman.
    Mrs. Chenoweth. Thank you very much, sir.
    [The prepared statement of Mr. Kanjorski follows:]
    Mrs. Chenoweth. I do want to let you know that we do have 
another vote. This is a day when it seems we're being called on 
a lot of votes. We just have one up, and it's on agreeing to 
the legislative branch appropriations conference report. So, we 
will temporarily adjourn the Committee, and be back in just a 
little bit, probably about 15 minutes.
    I appreciate your patience. We may have this pattern evolve 
for the rest of the afternoon, but we will continue. Thank you 
very much.
    [Recess.]
    Mrs. Chenoweth. The meeting will come to order. I'll now 
introduce our next panel, which consists of Ms. Katie McGinty, 
Chair of the Council on Environmental Quality.
    But before we continue, I would like to explain that I 
intend to place all witnesses under oath, and this is a 
formality of the Committee that is meant to assure open and 
honest discussions and should not affect the witness or the 
testimony given. I believe that all of the witnesses were 
informed of this before appearing here today, and they have 
each been provided a copy of the Committee Rules.
    Ms. McGinty, if you would stand, please.
    [Witness sworn.]
    Mrs. Chenoweth. Ms. McGinty, would you please proceed with 
your testimony?

STATEMENT OF KATHLEEN McGINTY, CHAIR, COUNCIL ON ENVIRONMENTAL 
   QUALITY, EXECUTIVE OFFICE OF THE PRESIDENT, WASHINGTON, DC

    Ms. McGinty. Thank you, Congressman.
    Madam Chairman, and members of the Committee, thank you for 
the opportunity to testify today on the important American 
Heritage Rivers Initiative, and concomitantly, to express the 
administration's strong and unequivocal opposition to H.R. 
1842, that kills the initiative, and in our mind deprives 
communities of the important support that they would otherwise 
be entitled to.
    Madam Chairman, the American Heritage Rivers Initiative 
represents a historic opportunity for all of us to support our 
citizens' efforts to revitalize their communities. American 
Heritage Rivers focuses on the powerful link between healthy 
rivers and healthy communities. As prescribed by the National 
Environmental Policy Act, the initiative is built on the fact 
that environmental, cultural, historical, and economic goals 
are inextricably linked, and that citizens' voices must be 
heard and must be the drivers in Federal action.
    Why, rivers? Because, Madam Chair, as Mayor Richard Reardon 
said of Los Angeles River, ``Rivers often represent the heart 
of our city's spirit or our community's spirit. Rivers, with 
their beauty, their history, their lore, their central economic 
force, provide a centerpiece and organizing principle around 
which disparate elements of a community can and do come 
together to work toward the economic, cultural, and 
environmental revitalization of their place, their home.''
    Madam, I've had the privilege and opportunity to see this 
happen in every part of our country. My own home town is 
Philadelphia, and I will tell you 20 years ago the Delaware 
River, the waterfront there, was not a place that you 
particularly wanted to be--crime and drugs, trash and decay.
    But as our Nation's bicentennial approached, that river, 
the Delaware, captured our imaginations. It had a story to 
tell, we realized: Penn's landing, George Washington's 
crossing. It was part of what made our country, our city, great 
indeed. Philadelphians, then, were determined to take that 
waterfront back, push the pushers out, and restore the historic 
buildings. Revitalizing that waterfront then compelled action 
to take back Front Street and then Second Street and Third, 
until now, the entire downtown area is thriving and is very 
much alive.
    Chattanooga, Tennessee: In 1969, Chattanooga was voted 
America's dirtiest city. Today, Chattanooga is hailed as a 
miracle city and one of America's most livable. And where did 
that whole renaissance start? Well, it started with one high 
school student who said, ``The Tennessee River is a special and 
valuable resource. Why don't we celebrate it by putting a 
first-of-its-kind fresh water aquarium on its banks?'' They 
did, and now that aquarium and, indeed, the entire city is 
world-renowned.
    St. Paul, Minnesota: I visited there recently with Mayor 
Norm Coleman and some 20 other mayors from the upper 
Mississippi region. They gathered because of their tremendous 
enthusiasm about this program. Mayor Coleman has taken to 
calling renaming St. Paul, ``St. Paul on the Mississippi,'' and 
he will tell you in no uncertain terms that re-connecting the 
city with this wonderful river and this wonderful resource was 
recently the single most important factor in his effort to 
convince a major software manufacturer to locate back in the 
city, bringing jobs back to that city. The river, restored, 
makes that city an attractive, exciting, unique, and extremely 
compelling place to be.
    Members of the Committee, this spirit is alive all over our 
country. We are blessed because it gives us the opportunity to 
grow and thrive together. We should be celebrating this spirit. 
You've heard from Members of Congress today who are 
spearheading efforts around the country, and you will hear from 
citizens from Texas, from Montana, from North Carolina, from 
Pennsylvania. We should celebrate their spirit, as the American 
Heritage Rivers program does. It would be a tragedy, indeed, if 
H.R. 1842 were enacted, and this Committee were to vote to 
crush the work of those citizens.
    Madam Chairman, I would like to offer some declarative 
statements about this program, because it's helpful to clarify, 
I think, in simple terms what this is and what it is not. What 
it is, it is 100 percent voluntary. Communities don't have to 
participate, and after participating, at any time, a community 
can opt out. It is 100 percent locally driven. This is purely a 
bottoms-up process. Whether to participate and the plan for 
participation are completely under the control and in the hands 
of local citizens.
    It's 100 percent non-regulatory. There are absolutely no 
new regulatory requirements or restrictions of any kind that 
will be imposed on an individual or State or local government 
through this initiative. It is 100 percent in compliance with, 
and, indeed, it is compelled by the National Environmental 
Policy Act which charges us with stopping these false choices 
between the economy and the environment and, instead, 
integrating all of those considerations in every action we 
undertake.
    And, finally, it is 100 percent directed by the President's 
and Vice President's effort to reinvent government. This 
initiative is a directive to Federal agencies to serve citizens 
better than they have, to do more with less, to cut red tape 
and bureaucracy so citizens can access resources that they have 
paid for in an efficient and effective way. The Federal 
agencies are eager to serve citizens in this manner, and to us 
in the administration it is incomprehensible that we would want 
to tell them that they should not do so.
    What this program is not: It is not an attempt by Federal 
agencies to take on new authorities or responsibilities; 
rather, it is an effort to execute current authorities, as 
agencies should, in a coherent and coordinated way. It is not 
an attempt to take anyone's private property. Private property 
rights will in no way be adversely affected in this effort. And 
to dispel any notion to the contrary, in conversations with 
various Members of Congress, the final program incorporates 
language on this matter penned by President Ronald Reagan.
    Finally, the American Heritage Rivers Initiative is not a 
program of the United Nations, and no foreign governments will 
be involved in this in any way.
    Madam Chairman, this is a positive initiative. It is based 
on principles that this Committee has espoused. It is locally 
driven; it cuts bureaucracy and red tape; it brings economic 
and social concerns into the environmental picture. Purely and 
simply, it is government at the service of citizens.
    It is, indeed, incomprehensible to us in the administration 
why we would want to crush this effort and with it the work of 
thousands of citizens across this country. That's what H.R. 
1842 would do, and that why, respectfully, Madam Chairman, the 
administration does strongly oppose the legislation.
    Thank you very much.
    [The prepared statement of Ms. McGinty may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Ms. McGinty.
    The Chair now recognizes my colleague, Mr. Reyes. I'm glad 
you could join us.
    And Ms. McGinty, if you don't mind, I would like to call on 
the Congressman to give his statement now. Thank you.

STATEMENT OF THE HONORABLE SILVESTRE REYES, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Reyes. Thank you, Madam Chairman. It's been kind of an 
interesting day here on the Hill. I appreciate this 
opportunity.
    Madam Chairman, and members of the Committee, I am here 
today to oppose H.R. 1842, which would terminate the American 
Heritage Rivers Initiative announced by President Clinton in 
his State of the Union speech earlier this year.
    Madam Chairman, I'll get right to the point. Communities 
that don't want to participate should not. People who do not 
want to support this initiative should not. But Members of 
Congress who would prevent communities like El Paso in the 16th 
district, which I represent, from participating, should not, as 
well.
    Maybe the rivers in your district are as clean as they need 
to be. Maybe everyone in your district has running water. Maybe 
the cities in your district have all the tourists they want, 
and maybe your economy is thriving and the unemployment is low. 
Maybe you don't need anyone to coordinate efforts to make the 
best use of existing Federal programs. That's nice for those 
that can afford that, but it doesn't help my district or the 
Texas border region, which spans more than 1,250 miles and is 
marked the entire length by the Rio Grande River.
    According to a report issued this year by the Texas Water 
Development Board and the Texas Natural Resource Conservation 
Commission, the Texas border region needs about $2.5 billion--
that's $2.5 billion--for improvements to water and waste water 
systems. More than 47,000 people in this region have no water 
service at all. Four counties in this region need 80 percent of 
the necessary improvements. One of those is El Paso, the most 
populous county in the Texas border region and the county which 
I represent.
    I am a very strong supporter of the American Heritage 
Rivers Initiative for the following reasons. No. 1, it is 
voluntary and locally driven. No. 2, it creates no new 
regulatory requirements, and No. 3, it uses existing Federal 
resources to assist communities like ours.
    I am satisfied that the concerns of the opponents of this 
initiative have been addressed, and that I am working very 
closely with my colleagues in Texas to submit a proposal to 
designate the Rio Grande River as one of the first 10 rivers to 
be designated through this initiative. Working through the 
Council of Governments, we have developed a statement of 
principles and a memorandum of agreement for this proposal for 
the communities who choose--again, I say who choose--to 
participate.
    We believe this designation will accomplish three basic 
things. One, it is using existing Federal resources, which will 
help each community to estimate its water resources and its 
needs for the next 50 years by providing technical assistance. 
No. 2, it is using existing Federal resources which will help 
each community in their efforts to seek Federal support for 
local projects that preserve the region's history, culture, and 
recreational resources. And, finally, No. 3, using existing 
Federal resources, it will help each community create and 
enhance its potential for increased tourism.
    Finally, I want to point out that earlier this year the 
Texas legislature passed a major overhaul of our State's water 
law. Communities and regions need help as they work together to 
meet the water needs for our future. Under the law signed by 
Governor Bush, the Rio Grande River was cited as a special 
case, and State agencies were instructed to seek Federal 
assistance to help communities along the Rio Grande River. To 
quote Winston Churchill, I will leave you with this one 
thought: ``Give us the tools and we can finish the job.''
    Madam Chairman, El Paso needs the tools that the American 
Heritage Rivers Initiative has to offer. I urge you and this 
Committee to allow us to have these tools, and, therefore, I 
strongly oppose H.R. 1842, and I appreciate this opportunity to 
testify before your committee. Thank you.
    [The prepared statement of Mr. Reyes follows:]
    Mrs. Chenoweth. Thank you, Mr. Reyes. I know that your time 
has been fragmented, and I very much appreciate your being here 
and appreciate your testimony.
    Mr. Reyes. Thank you.
    Mrs. Chenoweth. I wanted to ask you, how many miles of the 
River does your district cover?
    Mr. Reyes. Our district?
    Mrs. Chenoweth. Yes.
    Mr. Reyes. Our district probably encompasses about--I'm 
going to guess--about 80 miles; I think it's 84, but it's about 
80 miles. One of the--just to elaborate a little on your 
question--one of the important aspects of this initiative that 
I think it will provide for El Paso, and really, the El Paso-
Juarez region, is it will allow us to utilize existing 
resources to clean up our water and our watershed area along 
the Rio Grande River.
    This is an opportunity that I think is unique, because 
since we share an international boundary--a city of 700,000 on 
our side of the border with a city of 2 million people--it will 
provide us an opportunity to work together to make the best 
possible usage of something that, historically, has been used 
to designate our differences. It brings together our region and 
our community to utilize it to the best of both of our 
abilities, both on the Mexican side and the United States side.
    I have had an opportunity to discuss it with leaders on the 
Mexican side of the river, and they're excited about an 
opportunity that finally would give us an initiative where we 
could clean up the water, would promote tourism, and finally 
participate in the long-range process that impacts not just El 
Paso-Juarez, but also all of the communities that the river 
serves until it empties into the Gulf of Mexico.
    So, 1,250 miles ultimately would be affected by just our 
initiative in the El Paso-Juarez region.
    Mrs. Chenoweth. I just wondered--I was just handed by 
Congressman Bonilla his news release stating that he was in 
support of my bill, and he represents 800 miles of the river. 
And so, there are certainly a lot of different opinions coming 
out of Texas.
    Mr. Reyes. Well--and you know, just to clear up that, 
because I have had a number of conversations with our 
colleague, Congressman Bonilla. The Laredo area supports the 
initiative. They're facing essentially the same situation the 
El Paso-Juarez region faces, because they've got Laredo on one 
side of the international boundary and Nuevo Laredo on the 
Mexican side. They're very excited about this opportunity to 
get this designation to be able to consolidate efforts, not 
just federally on our side, but internationally with Mexico for 
the benefit of that whole region.
    So, there is, I guess--everybody knows this is not an issue 
that's unanimously agreed to or opposed. It depends on what the 
local perspective and what the local possibilities may be. So, 
with all due respect to my colleague, Congressman Bonilla, 
there are areas within his district that are in support of this 
initiative.
    Mrs. Chenoweth. Thank you.
    Mr. Cannon.
    Mr. Cannon. Thank you. I did have just one quick question 
for the Congressman. If the Rio Grande was designated, or part 
of it was designated as an American Heritage river, how many 
congressional districts would touch on to the area that would 
be designated that way?
    Mr. Reyes. In Texas, there would be five. It would be 
Congressman Ortiz, Congressman Hinojosa, Congressman Rodriguez, 
Congressman Bonilla, and myself, in Texas.
    Mrs. Chenoweth. Again, Mr. Reyes, thank you very much for 
your testimony and for being here with us.
    Mr. Reyes. Thank you, Madam Chairman.
    Mrs. Chenoweth. The Chair will now recognize the members 
for questions with Mrs. McGinty, and the Chair first recognizes 
Mr. Cannon.
    Mr. Cannon. Thank you, Madam Chair. I appreciate that.
    The last time you were here, Ms. McGinty, we talked about 
politics and the political implications of this kind of 
program. You are aware, I believe, that my concern is that 
having a river navigator who is tied to the administration--
this, or whatever following administration we have--would have 
the ability to pressure or punish or reward certain areas of 
the country or certain congressional districts, depending upon 
whether you're looking at it as a Presidential election or a 
congressional election.
    Since we had that discussion, have you had a chance to 
think about the potential implications of the use of this 
program? What we're doing here is we're creating a system, as 
you say, to cut red tape. That means focusing resources out of 
a broad program run by people who respond to Congress into a 
narrow process, which may well have significant political clout 
behind it. Have you considered the implications of that? And 
how would you expect to avoid having that happen?
    Ms. McGinty. Well, the point very definitely is to have 
those agencies working at the behest of local citizens, that 
citizens would be in the driver's seat. Since our earlier 
hearing here, we have also worked on the concept of the river 
navigator and have added in the final program a provision which 
states that the local community will put together the job 
description, if you will, for the river navigator. That 
person's role and responsibility will be, again, driven by the 
local community. So we have added that.
    Mr. Cannon. Pardon me, but every community is going to want 
the maximum number of dollars, and, therefore, the description 
is going to be exactly what an administration--this or a 
Republican or any other administration--would want. And to the 
degree that a President has the ability to look over the 
country and strategically plan how to affect districts, if he's 
willing to ally the power of his office with the particular 
river navigator, the navigator is going to be doing what the 
city wants. That's why it would be an effective tool.
    Ms. McGinty. Well, I'd also, though, remind us that a 
community, any community, is not going to be a part of this 
program at all in order for that scenario to eventuate, unless 
they have elected to become a part of this program. So that, 
for example, if you have in mind that this is a political tool 
and places will be chosen around the country for political 
favor, that is, I think, pretty well precluded by the notion 
that it's not top down. Communities participate bottom up.
    Mr. Cannon. But many communities will want to participate 
in a program where they can cut the red tape----
    Ms. McGinty. Yes.
    Mr. Cannon. [continuing] and shake money out of current 
programs. So you're going to have--even though, I think, that 
if you listen to the testimony and who's interested, we have a 
very different problem on the Rio Grande River, as Mr. Reyes 
just talked about, from what we have in most of the rest of the 
West. We have a very different problem in the Northeast, where 
mining has been terrifically destructive, where we have brown 
sites. So we have very different problems around the country.
    Nevertheless, virtually every city is going to want to be 
able to shake some of that cash loose, and in the end I don't 
see--I don't think you're being responsive to the question. How 
is it that you're going to create a context for the river 
navigator to operate that doesn't allow him to also reward or 
punish people or regions politically.
    And let's take, for example, over the next three years or 
so, before the next Presidential election, I suspect that 
you're going to go through two or three iterations of awarding 
these initiatives. That would mean 10 in 1998, 10 in 1999, and 
probably 10 in the year 2000.
    Ms. McGinty. Unless this program kills us first.
    Mr. Cannon. Pardon me? Well, that's what we hope--that's 
what some of us hope, of course--with some reason, I think.
    [Laughter.]
    Mr. Cannon. But Mr. Reyes has just testified that five 
districts, five congressional districts, would be affected in 
Texas alone.
    Ms. McGinty. Yes.
    Mr. Cannon. My guess is you're going to average three 
districts. If you have 30 rivers or systems named as an 
American Heritage Rivers under the initiative, that would be in 
the ball park of 90 or 100 congressional seats. That is a 
terrific amount of narrow particular contact. Every President, 
as I said before, Republican or Democrat, has tried to boost 
the economy appropriately to enhance his likelihood of getting 
re-elected. That is such a tempting temptation, and I think 
that this administration has shown that it is willing to submit 
to those temptations in the past.
    How on earth could we look at this program and say that we 
can protect that from happening?
    Ms. McGinty. Well, I just can, I guess, itemize the things 
we've tried to do to insulate this from politics. One, again, 
is that it is bottom-up; it's not top-down. That's one.
    Two, what the river navigator him or herself will be able 
to do will be described and prescribed by the local community.
    Three, we have also added the notion of a blue ribbon FACA 
panel will be brought together to help in the selection of 
these things. So it won't just be the administration making 
this----
    Mr. Cannon. Will that panel have oversight or just be part 
of the selection process?
    Ms. McGinty. We will have out for comment what the role of 
the FACA should be. Certainly, it will have a major role in the 
selection.
    Mr. Cannon. OK. Could I ask unanimous consent for another 
couple of minutes, please?
    Mrs. Chenoweth. Yes.
    Mr. Cannon. So what you're saying is what you said before, 
but I don't think it responds to what I believe is the fact. 
Every city, every community, every river basin community is 
going to want money.
    Ms. McGinty. Sure.
    Mr. Cannon. And, therefore, they are not the people to 
control how the goodies are passed out by a river navigator who 
can easily have highest-level access in this administration or 
any other administration. Where is the safeguard that will keep 
the integrity of the programs that are going to be rated for 
these narrow communities which will want the money? They will 
want the rating to have because they get a disproportionate 
particular benefit.
    Ms. McGinty. Well, let me respond in this way, because I 
think it relates to questions that have also been asked 
previously by this Committee, and that is, that to the extent 
you're envisioning a scenario where programs can be channeled 
toward a certain community as opposed to another one, there is 
nothing in this initiative that can touch the criteria that are 
written in law and regulation for every program that's 
authorized and appropriated by this Committee or others in the 
Congress.
    Mr. Cannon. Pardon me, Ms. McGinty, because my time is 
limited, but what you're doing, what you have said, your stated 
objective is to cut red tape?
    Ms. McGinty. Yes.
    Mr. Cannon. Now the red tape is the process that protects 
the integrity of how we dish out money in America. What you're 
suggesting is that we're going to cut the red tape on the one 
hand, but it won't be cut in such a way as to give a 
disproportionate benefit that has a political ring to it, and I 
don't understand. Those are inconsistent positions. In other 
words, you want to do with this bill what seems to me to open 
the Pandora's box of political favoritism--a wharf goes here, 
not there; this is a Democrat or that's a Republican; he gets 
the benefit; the district doesn't. It seems to me that you're 
creating my case for me by the way you're answering the 
question.
    Ms. McGinty. Well, I mean, I would assume that there is 
plenty of red tape that can be cut before we get to the 
essentials of a program. Indeed, I think this Congress has 
stated many times that there is at least a little bit of 
inefficiency out there that maybe we could work on eliminating, 
and we're trying to do that.
    Mr. Cannon. And, frankly, the inefficiency is significant, 
but it doesn't go to what I think may create a much greater 
inefficiency by cutting out the safeguards. And what I haven't 
heard yet--and of course we've talked about this before, but I 
have not yet heard--anything, any part of the program, any 
context that will protect this program from the whims or 
desires of a powerful President in an election year, and that 
concerns me greatly. There are many other concerns that I have; 
we don't have time to go into those.
    But how could I support a program that is tailormade to 
slit the purse and drop money where it will have the most 
political impact? I think that's improper, and that's why I 
oppose your program and support this bill.
    Ms. McGinty. The last thing I'd just say is the oversight 
role of this Committee, and every other committee on Capitol 
Hill, will certainly be there and retained, in order to oversee 
how the various programs are being----
    Mr. Cannon. That oversight would be dramatically different 
if the Congress was controlled by the same party as the 
administration. This Democratic administration or a Republican 
administration--the intensity of the desire to oversee is not 
there, and this is not a little thing; this is a huge political 
impact.
    And I apologize, Madam Chairman, for going overtime here. 
Thank you.
    Mrs. Chenoweth. Thank you very much.
    The Chair recognizes Mr. Radanovich.
    Mr. Radanovich. Thank you, Madam Chair.
    And welcome, Ms. McGinty, to the panel. I am also vice 
chairman of the Western Caucus, and would like to extend an 
invitation to you to visit with our Western Caucus at some time 
in the future----
    Ms. McGinty. Thank you.
    Mr. Radanovich. [continuing] if you'd like.
    Ms. McGinty. Yes. Thank you.
    Mr. Radanovich. Previously to coming to Washington, I was a 
Mariposa County supervisor in California, a small county of 
about 15,000 people. Mariposa has about 1,500 people in it. And 
through my work on the planning commission and also the county 
board of supervisors, we were able to bring into the county 
general plan a small creek called Mariposa Creek, which drains 
into the San Joaquin River, which eventually drains into San 
Francisco Bay, and did it without Federal participation. I have 
to tell you that I object strongly to this initiative.
    And I wanted to bring that up along with the other examples 
that you had brought up that were originated without Federal 
participation. And I'm afraid that something like this 
initiative is a bit like what happened in the crime bill a few 
years ago with midnight basketball, that was brought up in one 
community in an urban area; it was a great idea for a school 
district somewhere to open up the gyms to people all night. It 
ended up being an idea that somebody got a hold of, made a 
Federal program out of it, and we realized that a one-size-
fits-all-type approach to some of this stuff was just foolish.
    And I have to admit that I feel the same way about this 
initiative. I would rather, if the administration is concerned 
about the rivers in this country, that they would realize that 
you actually get better environmental protection by encouraging 
private property incentives and local control, and not through 
Federal programs.
    And, you know, most of the people that testified in favor 
of the Heritage Rivers--in fact, I've got the list of those 
States, the people that testified for it, and how much Federal 
ownership is involved in their States. I come from California; 
44 million acres are owned by the Federal Government, which 
is--California is a big State, but that totals 48 percent of 
our land mass. And we had a gentleman from Pennsylvania 
testifying about the fact that maybe some people in the West 
are fearful of black helicopters and all these other things, 
but Pennsylvania is less than 5 percent owned by the Federal 
Government; New York is .5 percent; Virginia is a little bit 
more, somewhere between 5 and 20 percent. Connecticut--my 
friend Nancy Johnson was testifying for it--less than 1 percent 
of Connecticut is in Federal ownership. Texas--my good friend 
from Texas comes from a State where about 5 percent or less is 
owned by the Federal Government.
    And my advice to any of them is that, if you want to take 
care of an issue, the last person you want involved in it is 
the Federal Government, and it's almost a smack in the face to 
your citizens to not understand why you can't come up with 
these solutions on your own, as evidenced by your examples that 
you pointed out prior to going into the development of the 
Heritage Rivers.
    So what I would like to see, in my view, the administration 
do is encourage--for example, in California there was an air 
quality issue for the San Joaquin Basin. As you know, it's 
ringed by the coast range and the Sierra Nevadas. In order to 
address the problem, the counties got together and formed a 
joint powers agreement to deal with the problem. So this was 
intrastate, which may be a little bit different than the 
gentleman from the Rio Grande, who has an international border 
to deal with, but it was an issue where the counties took care 
of their own problems through a joint powers agreement. I would 
venture to guess that would be probably the same solution for 
Nancy Johnson in Connecticut, and most of the other people that 
are in there.
    And rather than developing a new program like this, and 
having a river navigator and some of these things, you're more 
better off, I think, encouraging communities to begin to 
realize what are the assets in their own communities--these 
rivers and these things.
    I come from a State, again, that's 48 percent federally 
owned. The tiny river that I--or the tiny creek that I had a 
hand in helping out is connected by about 3 hours' drive to the 
San Francisco Bay. People that are in and around the San 
Francisco Bay are not necessarily conducive, nor are they very 
well-informed as to what's best for the riparian nature in my 
own area. Those rivers in between, too, also drain through the 
San Joaquin Valley, which is some of the richest farm ground in 
the United States, which, by current Federal policy, is going 
to lead to the urbanization of that valley and the degradation 
of that environment, simply because we have got a community 
that is not close to the resource, and which I feel is the 
future of environmentalism, and that's why its nexus should be 
around local control and private property rights, because those 
people that are so closely attached to the environment know how 
to take care of the environment better than those that are far 
away.
    Conversely, those people that are farther away from the 
environment and live in urban areas are less subject to flighty 
ideas of nature and environmental protection, promoted by 
people that are really out of touch with good environmental 
protection. And so to develop another Federal program, rather 
than encouraging what's going on in the first place, I think is 
counterproductive. And that's why I object to--actually in 
support of Ms. Chenoweth's bill, but also object strongly to--I 
think it's a novel approach on the part of the administration 
to deal with a serious issue. And I think if you want to be 
really serious, you need to begin to deal with ways to 
encourage people to do what they're doing already.
    Ms. McGinty. Madam Chair, if I might respond? I see the 
light's on.
    Mrs. Chenoweth. Yes.
    Ms. McGinty. Thank you.
    There's much in what you said, which is what we are at 
least endeavoring to do here, and I would very much welcome the 
opportunity to visit with you to discuss it in more detail, but 
let me just hit on a couple of the points that I think you so 
well-articulated.
    The effort here is to have local people connected with 
their environment, their economic resources, identify what they 
consider to be their challenging, and to plan the vision for 
their own future. But the only point is that, in response to 
that, shouldn't those communities have access to the resources 
that they are paying for, whether it is, as you suggest: Can 
they get information on what are their economic assets? Are 
there data bases that can help them to analyze that? What about 
the qualities of their river and the watershed area?
    The fact is that there are technical resources, financial 
resources, that are deposited in these various Federal 
agencies, but it is hard for local communities, struggling with 
their own issues and problems, to be able to go to the myriad 
of agencies and demand those resources.
    Mr. Radanovich. If I can respond just briefly and have a 
little more time, Madam Chair--I wouldn't--let me comment on 
that, and that is to say that it is not the issue of access to 
information; it is the inspiring of local citizens to see that 
happen with their own local communities. You can't develop a 
Federal program that accomplishes that.
    Ms. McGinty. Agreed, but this program will not take that to 
a community. Again, it's a community inspired to come together 
that comes to us and submits an application. This is locally 
driven. And, in fact, since the President announced this 
initiative, many communities have become inspired to pull 
together themselves and to say, hey, we're proud of our place; 
we can compete for this. And they are coming bottoms-up to us; 
we're not going top-down to them. It is their initiative.
    Mr. Radanovich. Well, all I can say is that I don't want 
the people of the Bay Area coming to my small community in 
Mariposa telling me how to run a river.
    Ms. McGinty. And under this program, they will not be able 
to. They will not be able to submit an application under this 
program.
    Mrs. Chenoweth. Thank you. Thank you very much.
    The Chair now recognizes Mr. Farr.
    Mr. Farr. Thank you very much. I'm very interested in this 
issue, and I think I'm very surprised at what I'm hearing in 
this hearing today, statements that people have made, including 
some of my colleagues from California. I, like you, served in 
county government and went on to serve in the legislature and 
chaired the local government committee, which had jurisdiction 
over 6,000 governments in California, and formed the Tourism 
Caucus in the California legislature. And when I've been back 
here, I've formed the National Scenic Byways and All American 
Roads Caucus, which is made up of Republicans and Democrats 
from around the country.
    And I just notice, looking down the list, that all the 
people that oppose this legislation, none of them have a Scenic 
Byway or All American Road in their district. So I guess you 
have--like Winston Churchill said: the greatest thing to fear 
is fear itself--by people who haven't realized what benefits 
can be derived.
    And let me understand this. This is a bottoms-up process. 
It doesn't exist without people coming and petitioning and 
wanting a Heritage River, isn't that correct?
    Ms. McGinty. Yes, it is correct.
    Mr. Farr. And if you come to the government right now and 
try to petition for anything, you have all different 
departments you have to go to, and what you're trying to do is 
consolidate in one stop? I mean, it's interesting that the same 
people who support fast track oppose this kind of position of 
trying to have fast track in the government bureaucracy, so 
that you can get a decision.
    So what you're trying to do is two-part. One is initiate 
from the bottoms-up an application for a Heritage River, and if 
that application is approved, then consolidate the 
decisionmaking process so that they can get answers to 
questions quickly without having to say that you've got to go 
to 13 different doors and different departments to get a 
response; is that correct? That's all it really does?
    Ms. McGinty. That's pretty much it, yes, sir.
    Mr. Farr. Well, then, where is all this fear? I mean, 
everybody I know is trying to get more help to try to promote 
our outdoors. I mean, the last time I checked, tourism in 
America, I never found a tourist that went out to look at oil 
wells and real estate signs. Mega-Trend says that the biggest 
economy in this country in the outdoors is watchable wildlife, 
and that more people are looking at wildlife than all the 
national professional sports in this country. I mean, it's a 
big, big economy.
    Mr. Radanovich, who opposes this Federal idea, comes out 
and lobbies for Federal water supports for his crops, lobbies 
for Federal money to promote wine sales overseas, lobbies for 
cotton subsidies, lobbies for help for the famous Federal 
Yosemite National Park in his district, lobbies for moneys for 
the road to get to Yosemite, and has I think stated very well 
that he was able on a county board of supervisors to protect 
the riparian corridor of a creek. And, therefore, you don't 
need the Federal Government to protect creeks----
    Mrs. Chenoweth. I'd remind the gentleman from California 
that the issue is American Heritage Rivers----
    Mr. Farr. And I'm getting to that. This is exactly--you've 
made my point, that this is not called the American Heritage 
Creek; it's called the American Heritage River because the 
river runs through it. It runs through a lot of stuff, 
sometimes even more than one State. So you need a Federal role 
in order to protect the river.
    And I guess what I'm worried about is that the legislation 
suggests that we've got to go out and fear something that the 
community has to start in the first place. I thought we were 
the ones that supported local government and local control. Why 
are we trying to tell our communities that they can't come to 
Washington and ask for help with trying to do something that's 
a lineal in effect.
    Ms. McGinty. Yes, and I do want to just underscore that 
this is completely at the initiative of communities. I have to 
echo what Congressman Scott said before me, which is if a 
community does not want to participate, they simply should not 
apply. There is enough interest in this program that there will 
be plenty of communities who do need the resources, as 
Congressman Reyes has said, to be able to revitalize their 
economy and bring life back into their communities.
    Mr. Farr. Well, I am very--we are very involved in the 
National Scenic Byway and All American Roads, and it's gotten 
so much popularity because of the fact that if you protect the 
right, the scenic viewshed of these highways, and you keep them 
rural and you keep them in their natural state, people can see 
the great America experience, and then Congress Members from 
those districts lobby like mad in ISTEA to protect it, in a 
caucus we've formed to do it. Because why? It's jobs; it's not 
just pretty scenery. It's more employment; it's more 
visitation; it's more opportunity. And I would just hope that 
people who think that there's some kind of--that this is a 
siege of local control, this is a threat of local control, are 
just upside-down in that attitude. You know, they're the same 
people that will come here--I see there's a lot of city and 
county folks that come here; they come here and lobby for all 
kinds of Federal help, for community block grants, for highway 
money, for housing money, for all kinds of stuff, and the Farm 
Bureau's included. I sit on the Agriculture Committee; I watch 
it all. And then they turn around and think that this is going 
to be some kind of threat.
    I can guarantee you, I represent the central coast of 
California. We get no Federal subsidies in agriculture, and we 
do a better job of agriculture than anybody. We also have the 
California coast of Big Sur and Monterey and Carmel, and these 
towns are towns that would support this in a quick minute, 
because it's going to be more jobs and more opportunity and 
better for the local economy. I think the President's doing a 
great job, and I'm really proud of the work you're doing for 
the President.
    Thank you, Madam Chairman.
    Mrs. Chenoweth. I want to thank the gentleman from 
California. I do want to remind the gentleman from California, 
with regard to the fast track comment, the President is in 
favor of fast track and the President is in favor of the 
American Heritage Rivers, and I won't yield----
    Mr. Farr. And there is fast track in this bill.
    Mrs. Chenoweth. Excuse me. And, also, I wanted to let you 
know that Congress did crate a Pennsylvania oil field heritage 
area, so apparently the politicians believe that people still 
go look at oil fields.
    Mr. Radanovich. Well, if the Chair would yield, too--if you 
don't mind, the only statement that I want to make is it's not 
an issue of fear; it's an issue of how--what is the best way to 
take care our environment? And a program coming from 
Washington, in my view, does not encourage what I think the 
future of environmentalism is, and that is local control and 
private property incentive.
    Mr. Farr. And that's why we created national flood plain 
insurance, because local control could not deal with flooding 
rivers.
    Mr. Radanovich. This is with regard to rivers, and I'd let 
my statement stand.
    Mrs. Chenoweth. Thank you very much. These are the times 
that try men's souls with regards to votes on procedure about 
every 15 minutes, and I know your souls are being tried; the 
soles of my feet are being tried. I wore the wrong shoes today.
    But, anyway, I am very sorry; we are called for another 
vote. This vote is on a motion to adjourn, and as far as I 
know, unlike last time, it will only be one vote, and as such, 
we'll probably be back in 15 minutes, and we will then resume 
with questions from Mr. Schaefer. Thank you.
    [Recess.]
    Mrs. Chenoweth. The Committee will resume with questioning 
from Mr. Bob Schaefer from Colorado.
    Mr. Schaffer. Thank you, Madam Chairman. Ms. McGinty, 
welcome to the Committee.
    Ms. McGinty. Thank you.
    Mr. Schaffer. I wanted to just say I was encouraged 
actually by the comment you made, I believe it was, to Mr. 
Cannon about the--or maybe it was Mr. Radanovich; I don't 
recall at the moment--about accountability with respect to the 
Congress----
    Ms. McGinty. Yes.
    Mr. Schaffer. [continuing] and our involvement in the 
Heritage Rivers Initiative, and so on; that our role as 
overseers or the oversight capacity this Committee has does, in 
fact, give us a certain amount of leverage. And so I would like 
you to expound on that a little bit more, if you would, about 
how you envision that taking place at some other point in time, 
if maybe a year from now we find some irregularities to which 
we might object, and how you would envision our interaction 
taking place in a way that would result in meaningful progress.
    Ms. McGinty. Yes. Well, just as an example, there may be a 
community that, as part of their plan, for example, would like 
help in accessing brown fields grants. That would be one part 
of their plan. They've got an abandoned industrial site on a 
riverfront; they would like grant money to help revitalize 
that. They go to the river navigator and they say, ``This is 
something we're interested in. How can you help us to pursue 
that objective?'' And the river navigator's job would be to 
facilitate their work with the Environmental Protection Agency 
to secure a brown fields grant.
    Now this Committee or the appropriate committee on Capitol 
Hill that has oversight on EPA's budget, and the brown fields 
program in particular, would retain that oversight if the 
Committee felt that that particular community was not the 
proper recipient of a browns field grant. And that all is 
intact.
    Mr. Schaffer. We're actually moving in a little bit 
different direction. I mean specifically with respect to the 
Council on Environmental Quality----
    Ms. McGinty. Yes.
    Mr. Schaffer. [continuing] and the implementation of this 
Act. Because what this question and this bill is all about is 
just the cash, frankly, at this point and whether the Congress 
has any recognizable role, at least on the administration's 
viewpoint, in the dollars associated with implementing the 
plan.
    Let me just direct my comments that way. How much is the 
program going to cost?
    Ms. McGinty. Well, there are no new or additional funds 
that are involved in this program at all because the program is 
only about coordinating programs that are otherwise authorized 
and appropriated by Congress.
    Mr. Schaffer. We're talking about 10 new, potentially 10 
employees, new employees a year? I don't know what all other 
additional costs that are associated with just the 
organization, and so on, but there must be some sense of what 
the expenditures involving this initiative amount to. Can you 
tell us what that might be?
    Ms. McGinty. Well, the staff that have been involved in 
this initiative to date, and the ones that will continue to be 
involved, are already Federal employees charged with programs 
and responsibilities that bear on river revitalization. That's 
what they do. They are now doing it in a coordinated fashion. 
That's the difference.
    Mr. Schaffer. So the program is free to the American 
taxpayers; is that what I'm hearing?
    Ms. McGinty. No, it is not free, because there are endless 
numbers of programs authorized and appropriated by the Congress 
that exist and that will be coordinated through this 
initiative.
    Mr. Schaffer. For 10 river coordinators or 10 navigators, 
as they are called, which will be--they may be employed in some 
other agency or department presently. When you bring these 
resources through the coordination of the Heritage River 
Initiative, do you have any estimate on what the cost of the 
initiative would be, of that consolidation would be? How much 
money are we----
    Ms. McGinty. No, I understand. We do not expect there would 
be any additive cost, because the persons involved in this 
initiative are already Federal employees charged with these 
responsibilities. We will be asking those employees to do more, 
but that's part of the reinventing government initiative; it's 
do more with less, and we've had success in asking employees to 
do more with less.
    Mr. Schaffer. Mrs. Johnson from Connecticut, when she spoke 
earlier, mentioned that one of the projects in Hartford, 
Connecticut was held up for a considerable amount of time 
because it took 18 months to get Federal permit.
    Ms. McGinty. Yes.
    Mr. Schaffer. When it comes to asking Federal employees to 
do more, wouldn't one example be speeding up the time it takes 
to get a permit from the Federal Government were they are 
currently and without the need for a new program?
    Ms. McGinty. Absolutely, and that's why this isn't a new 
program; it is expediting, making more efficient, the programs 
that are out there and existing.
    Mr. Schaffer. If in a year from now this Committee may have 
questions about the budgeting, the funding, associated with the 
initiative, how would you propose that the Congress deal with 
the costs associated with the initiative?
    Ms. McGinty. Well, I am certainly, and will be, responsive 
to the Committee at any time. And in addition, again, each of 
the agencies that will be participating are certainly obliged 
to be, and will be, responsive to members of the Committee and 
to the Congress in general.
    Mr. Schaffer. I appreciate the commitment for 
responsiveness. Back on June 4, this Committee sent a letter to 
you asking for a comprehensive review of all budgetary 
reprogramming required in fiscal year 1998 be provided to the 
Committee. As of today, we have not received any kind of 
response. Are you aware of any response that you have given us 
with respect to that letter?
    Ms. McGinty. The response given at the hearing--and I'll 
reiterate it here today--is that there will be no need for 
reprogramming. We have not reprogrammed in 1997. We will not 
request any reprogramming in 1998, but we will submit that to 
you formally in writing as well.
    Mr. Schaffer. Have you submitted anything to us so far?
    Ms. McGinty. Not in writing, no.
    Mr. Schaffer. On July 3, this Committee requested to 
provide detailed accounting of all travel costs, per diem, and 
meeting costs for the Federal agency personnel involved in the 
American River--Heritage River stakeholders' meetings that have 
already been held throughout the United States during April and 
May. We have not received any response to that inquiry. Are you 
aware of any response that you might have made that we may not 
have received?
    Ms. McGinty. I'm sorry, I'm not aware of the inquiry, but I 
certainly will look into it.
    Mr. Schaffer. Do you think it's possible that there were 
travel costs, per diem, and other meeting costs associated with 
those stakeholder meetings?
    Ms. McGinty. I would assume so, yes. I mean, we were 
immediately responsive to any invitation from any person in any 
part of the country to come and hear concerns and/or to provide 
further information for those who want to participate in the 
program.
    Mr. Schaffer. Back on July 31 of this year, this Committee 
requested that you provide detailed answers to questions for 
the record on the Committee with respect to the American 
Heritage Rivers Program, and that, the meeting that we had on 
July 15, and those questions were directed at the Council on 
Environmental Quality, the Department of the Interior, and the 
Department of Agriculture. Your agency was requested to 
coordinate the responses to those questions. As of today, we 
have not received any response from the Council on 
Environmental Quality. Do you know if that's----
    Ms. McGinty. Yes, that's what I was originally referring 
to. We responded orally. We will respond in writing very soon.
    Mr. Schaffer. What has occurred in the interim between 
those previous meetings and today, unfortunately, is that the 
administration has gone ahead with an Executive Order and that 
rules have been suggested in The Federal Register--all outside 
of the acknowledgment of these three written inquiries on 
behalf of a congressional committee. So I really go back to my 
original question on accountability and oversight. When you 
reassure this Committee that there will be an opportunity for 
exchange and that this kind of exchange is the way that we 
exercise accountability on behalf of the American taxpayers, 
I'd just merely point out that it is--that my confidence that 
that will occur is eroded somewhat because of the several 
efforts that this Committee has made just to get simple and 
basic information that we have not received; the cooperation 
and coordination has not occurred on a Committee basis, and the 
administration has gone forward anyway with an Executive Order 
and with rules in the Federal record, and has essentially 
ignored the House of Representatives and the Resources 
Committee.
    Ms. McGinty. Well, I would say, sir, with all due respect, 
we, ourselves, visited on this issue, and you raised several 
issues--all of which were addressed in coordination with your 
office immediately by my office, and they are reflected in the 
final program. Whether it was your questions concerning water 
rights or your questions concerning local land use decisions--
all of those we immediately responded to. The program details 
that are in the final program here are very responsive to 
issues that were raised by Members of Congress.
    In addition to what I had referred to before, Congressman 
Skeen had raised a question about property rights, and in 
coordination with him, the program now has language penned by 
President Reagan that he agreed to and that is now here. So 
when it comes to the substantive programmatic details, we have 
been very responsive, and the program reflects the very 
valuable input of this Committee and other committees.
    Mr. Schaffer. Well, I'm more than willing to acknowledge 
and commend you for the communications you've had with 
individual members of the Committee. I don't want to detract 
from that because I believe that to be also important. But with 
respect to accountability and oversight, you specifically 
mentioned this Committee, and this is the Committee that deals 
with resource-related topics. My status as a Member of Congress 
is not--is nowhere near the status of a sitting committee with 
a chairman and members that are appointed and formally 
appointed, and so on. That is the context with which I think 
you raised your assurances of accountability and the questions 
that I asked regarding the specific inquiries, written 
inquiries, that were made through this Committee that were 
ignored.
    So why is it, do you believe, the American public should 
place any confidence in this oversight and accountability 
relationship that the Congress has with the administration, 
when the three documented examples of requests for information 
have gone unanswered, and in the meantime the administration 
moves far ahead anyway with Executive Orders and rulemaking 
within the Federal Register?
    Ms. McGinty. Well, I would say, sir, that today's 
proceedings are strong evidence of the vigorous oversight role 
and the tenacity of this Committee to be very much involved in 
this program, and to make sure that oversight is being 
conducted.
    Mr. Schaffer. Lacking other members, Madam Chairman, may I 
ask unanimous consent for a little more time?
    Mrs. Chenoweth. Absolutely.
    Mr. Schaffer. Let me ask about the 90-day comment period. 
The comment period ran from May 19 to August 20, as I recall. 
There was a request from--I don't know; it seems 20--from 55 
Members of Congress to extend that comment period further. That 
request was rejected, and I'd like to ask you why that request 
was not honored.
    Ms. McGinty. Yes, there were equal requests not to extend 
the comment period, both from the House and the Senate, many 
Members saying that their communities were anxiously awaiting 
this program, wanting to participate and asking us, in light of 
the fact that we had had more outreach and communication and 
public comment on this initiative than almost any initiative 
that one can think of, that it was time to move on and not to 
delay and frustrate communities who were waiting to 
participate.
    Mr. Schaffer. Well, notwithstanding the opinions or the 
differences of opinions by Members of Congress, the decision 
was made, nonetheless, to not extend----
    Ms. McGinty. Yes, with this----
    Mr. Schaffer. [continuing] the comment period, and that's 
the decision that I'd like you to defend.
    Ms. McGinty. And that's what I am trying to do. There were 
two requests to extend the comment period. We responded 
positively to the first request, and we did extend the comment 
period for more than 60 days. When the second request came, at 
that point after we had had more than 90 days of public 
comment, when the second request came, there were equal 
requests saying, ``Please don't frustrate the citizens in my 
community any longer. They have been waiting since the 
President's State-of-the-Union Address in January of the year. 
It's time for the delay to stop and let's move on.''
    And we thought that the proper balance was, having 
respected those who wanted delay in the first instance, that 
respect was due to those who were vigorously opposed to further 
delay in the second instance, and that was a fair way to move 
forward.
    Mr. Schaffer. So in the second instance, the requests for 
additional extension of the--or extension of the comment period 
were, in your opinion, just not as persuasive as those to close 
the comment period at the 90 days? Is that accurate?
    Ms. McGinty. Especially given the fact that we had 90 days 
of comments; we had visits with more than 100 Members of 
Congress; we traveled to every region in this country where 
there were public hearings. I personally had traveled to every 
place I was invited to come and hear from communities who are 
interested in this. The outreach on this is extensive, which is 
why I answered your earlier question about whether or not there 
were expenditures in travel on this program: There certainly 
have been, because we have been enormously responsive to those 
who have wanted to comment and to be heard on the program.
    Mr. Schaffer. During the comment period, the report that 
you published suggested there were approximately 1,700 comments 
received, and throughout the course of the appendix of that as 
well--I think it's appendix 2--it gives a summary of what some 
of those comments were, and kind of categorizes them. But 
nowhere in this report does it suggest how many were for, how 
many were against, how many comments were negative or positive, 
and so on. Is there any kind of recording or tally of those for 
or those against, of the 1,700 comments that you received 
during that 90-day period?
    Ms. McGinty. I do believe we have that analysis, and I can 
provide it. I don't have it--the numbers--off the top of my 
head.
    [The information referred to may be found at end of 
hearing.]
    Mr. Schaffer. Well, can you tell us generally? Was it 
evenly split, overwhelmingly in favor, or overwhelmingly 
opposed?
    Ms. McGinty. I can't give an estimation of it. There were 
communities who were strongly in support of it; there were 
individuals who were vigorously opposed, and I think we heard 
from some of that representation today, as well as those who 
were in favor.
    Mr. Schaffer. I just find it somewhat remarkable that you 
don't even have a sense of whether the respondents were 
somewhat favorable, mixed, opposed. Even if it seems to be a 
close call, that would seem certainly an indicator for the need 
for caution.
    Ms. McGinty. No, there's definitely difference of opinion 
with regard to this initiative, and I think this hearing has 
been very instructive in elucidating where there is difference 
of opinion. So I would not--let me be clear. The comments were 
not 100 percent positive. The only thing I am hesitating to do 
here is to put an exact number on how many were positive and 
how many were negative. There is definitely difference of 
opinion with regard to this initiative.
    Mr. Schaffer. The State constitution in my State suggests 
that--this speaks more to the substance of the program--the 
State constitution in my State, and I know many western States 
as well, is very clear that the allocation of water rights and 
the establishment of water rights and appropriations in my 
State--they're established in the Constitution. They're within 
the domain of States. My take on the whole concept of local 
control here is perhaps different than others might be. When I 
read the 10th Amendment, suggesting that powers not 
specifically enumerated to the Federal Government in the 
Constitution are reserved to the States or to the people, city 
government isn't mentioned in there for some reason, and 
neither is the counties, and so on.
    Now, as it turns out, in my State there is great deference 
to counties and local governments, but I guess the question is, 
the emphasis here seems to skip over the State level of 
government on the establishment of a Rivers Initiative in the 
designation, and relies upon communities and municipalities, 
neighborhoods, or whatever the case may be.
    In a semi-arid State like Colorado, there is wide 
disagreement, as you might imagine, even between communities 
within a State. Communities fight over water routinely under 
our State provisions. Now we manage to negotiate those and to 
arbitrate those very well as a State with several years of 
history as a State in developing those water laws.
    I guess my concern is the neglect of a statewide approach 
on the river process. You have given the veto authority, or 
suggested that it exists, for Members of Congress. What about a 
United States Senator----
    Ms. McGinty. Yes----
    Mr. Schaffer. [continuing] on a statewide basis or a 
Governor or a State legislator voting--legislature voting by 
resolution?
    Ms. McGinty. Well, let me say several things. First of all, 
in terms of the veto, a Senator will have the right to exercise 
that veto as well as the Member of Congress in whose district 
this river, or stretch of river, might run. In addition, The 
Federal Register notice makes clear the authorities of the 
State and also the necessity of having State support. It 
itemizes, for example, letters of endorsement from not just 
local governments, but State and tribal government. It also 
makes clear, as it says here, of course, any projects 
identified in the nomination packet must undergo applicable 
State review processes.
    After our conversations, it also makes clear that the 
American Heritage Rivers Initiative, for example, may not 
conflict with matters of State or local government 
jurisdiction, and then itemizes some of those things that you 
were helpful in elucidating. So there is a very strong emphasis 
on that throughout the program.
    Mr. Schaffer. And I appreciate those. That gesture, I 
assure you, is appreciated; that those comments were considered 
as a result of the individual meeting that you and I had.
    The thing about rules established in the Federal Register 
is that they're pretty easy to change, and how about opting-
out----
    Ms. McGinty. Yes.
    Mr. Schaffer. [continuing] after a program is established? 
Is it your intention that a Member of Congress can have a 
Heritage River delisted or removed from the program after the 
program is established, and has that been provided for? And any 
individual, for that matter, who might find their land or their 
farm or their water rights associated with the program, how do 
they go about opting-out and protecting themselves?
    Ms. McGinty. Well, the Member of Congress certainly, as I 
had previously articulated, is afforded in this program a veto 
right in terms of the existence or the participation in this 
program. In addition to that, in light of the comments----
    Mr. Schaffer. That's after the existence of the program?
    Ms. McGinty. It's a veto authority that the Member of 
Congress would retain throughout the existence of the program. 
In addition to that, we have provided that at the time of the 
nomination or selection of a particular river that the 
community also would dictate to us their procedures for opting 
out. Any community that becomes part of this program can opt 
out at any time, and moreover, the procedures through which 
that will be accomplished we will not dictate, but the 
community themselves will decide how that process would be 
effectuated.
    Mr. Schaffer. The community as a whole--so that does not 
include an individual farmer or rancher or water rights-holder; 
is that correct?
    Ms. McGinty. Unless a particular community said, well, the 
way we're going to opt out of this is that if any particular 
member of the community says they no longer want their 
community to participate, then we want to opt out; under those 
circumstances, we would say that's fine.
    Mr. Schaffer. You know, it happens every day in the West, 
and I suppose throughout the rest of the country, too, that a 
municipality or a county, unfortunately, intrudes upon the 
rights of an individual. Right now I think most local elected 
officials are very responsible. I mean, just be clear about 
that. But on occasion, there is a zoning issue or some water 
rights-related matter, where a municipality and an individual 
rights-holder come in conflict.
    What this seems to do here, as you described, is in fact 
gives a local government entity a certain amount of authority 
that they presently do not have over another rights-holder, 
whether it be property rights or water rights. Again, going 
back to how the Tenth Amendment reads and has been stated, that 
these rights belong to the States or to the people, and I'm 
concerned that the people part of that seem to have no recourse 
if they decide they want to opt out of a program that they do 
not wish to be a part of, which you've described as non-
regulatory.
    Ms. McGinty. Well, again, they do have every right to opt 
out, and they will prescribe the procedures through which 
they'll opt out. We will not tell them how they can or can't 
opt out. It will be purely up to----
    Mr. Schaffer. Let me just ask the other way, just to be 
sure: Is it possible, under the American Heritage Rivers 
Initiative, that a farmer or a rancher or a water rights-holder 
might find themselves within the boundaries of a Heritage River 
designation and be unable to opt out of the designation?
    Ms. McGinty. If they are able to--if the community says, 
here are the procedures through which we want to opt out of 
this program, and they're procedures A through Z; procedure M 
involves an individual landowner comes and petitions and says, 
``We don't want to be part of this anymore.'' That will govern 
the process.
    Mr. Schaffer. So if a community comes up with a 
recommendation that excludes the ability of a property rights-
holder to remove himself from the process, you will empower 
that community through the initiative, through this Executive 
Order; is that correct?
    Ms. McGinty. Well, again, we have to keep in mind what this 
initiative does. If there is any part of it that an individual 
landowner is not supportive of, to go back to this: Any protect 
needs to undergo applicable State and local review processing. 
So if that owner right now has a right under State or local law 
to say no to particular project, that right is still there, and 
there's nothing in this initiative that changes the rights of 
those local landowners in any way.
    Mr. Schaffer. I'm really hoping my questioning helps you 
understand the confusion you stated when you started out--that 
you don't understand why anybody would oppose this, because it 
seems so free and open and voluntary, and so on. What we are 
nailing down here in this one example a situation where a 
landowner or a water rights-holder might find themselves within 
the boundary of a Heritage River Initiative and be bound by 
rules that presently do not exist, by new authority that has 
been created by this Executive Order that empowers a local 
community in a way that they are not empowered presently.
    Now even though they follow local meetings and go through 
the routine process of public hearings, and so on, the fact 
remains that the communities today that we're speaking about do 
not have the authority to establish a Heritage Rivers 
designation in a way that compels the Federal--I'll finish--in 
a way that compels the Federal Government like we are here. 
That is the new authority that this represents and the real 
threat that landowners, ranchers, farmers, water rights-holders 
are very concerned about, and downstream or people with senior 
water rights in headwater States like mine.
    Thank you, Madam Chairman.
    Ms. McGinty. But there are no new rules that come with this 
program or new authorities. There's no new regulation or 
regulatory program of any kind that an individual is not 
subject today that they would be subject to tomorrow, if their 
particular--the place where they lived was designated an 
American Heritage River. There is nothing from a regulatory or 
a legal point of view that will be different tomorrow than it 
is today for that individual.
    Mrs. Chenoweth. Mr. Schaefer, I thank you for your 
questioning, and I do want to let you know that, should you 
wish to have another period of questioning, we will go for 
another round.
    Mr. Schaffer. I appreciate your tolerance on that, Madam 
Chairman.
    Mrs. Chenoweth. Ms. McGinty, when you were before the 
Committee before, you mentioned that--and, again, you 
reiterated the fact that anyone who wanted to opt out could. 
And along that line, I wanted to present to you a letter from 
our entire Idaho delegation, Senators and Congressmen, saying 
our whole State wants to opt out, and two letters from the 
Idaho Farm Bureau, and then a letter from the Awahee County 
commissioners. That's a county down in the southwest corner of 
Idaho, and so we would like to present those to you at this 
time. And we would like a written response to all of the 
letters, and most especially the delegation letter.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. What is your oral response to the 
delegation letter?
    Ms. McGinty. Thank you very much.
    [Laughter.]
    Ms. McGinty. I will respond immediately, but I assume that 
this is a statement that communities in Idaho will not be 
participating in this program, and you've exercised a veto, and 
I think that's just fine. This program isn't for every 
community, and if the communities of Idaho don't want to be 
part of it, that's their choice.
    Mrs. Chenoweth. So you will accept no nominations from 
Idaho; right?
    Ms. McGinty. Well, I guess I would return the question. I 
would assume that this represents a consultation with the 
people of Idaho, and you don't expect a nomination to come from 
the people of Idaho.
    Mrs. Chenoweth. That's not what your testimony indicated 
before. You did indicate, if a Congressman or anyone----
    Ms. McGinty. Absolutely. You will have the absolute right 
to veto----
    Mrs. Chenoweth. Veto power.
    Ms. McGinty. [continuing] any nomination that should come 
from people within your district to nominate a river in your 
district. And on top of that, Senators from the State would 
have the veto authority to reject the nomination of citizens 
from their entire State, yes.
    Mrs. Chenoweth. What our delegation has expressed by making 
this move is that no petition should even be entertained from 
Idaho.
    Ms. McGinty. That's fine, and that's the authority that you 
certainly have to nominate--I mean to veto any nomination that 
otherwise might be forthcoming.
    Mrs. Chenoweth. And will you respect that?
    Ms. McGinty. I will respect it. I will not make the choices 
of which communities are designated, but there's no question 
that you have the absolute authority to ensure that no 
community in your district, and the Senators from the State 
have the absolute authority to make sure that no community in 
the entire State, is a participant in this program. And that is 
fine and that will be respected.
    Mrs. Chenoweth. I do want to reiterate the fact that at the 
previous hearings you said--and it's on the record--that 
congressional opposition would stop the initiative in a 
congressional district, and in this case we've got all the 
Senators----
    Ms. McGinty. Yes.
    Mrs. Chenoweth. [continuing] and Congressmen lined up----
    Ms. McGinty. Yes.
    Mrs. Chenoweth. [continuing] and it will stop the process 
in Idaho?
    Ms. McGinty. Absolutely. Well, it will--it will result in a 
veto on any nomination that would be submitted. Now I have no 
way of knowing if there is a nomination forthcoming from Idaho, 
but it would be a veto, yes.
    Mrs. Chenoweth. Well, let me ask you again: Will any 
initiative petitions be entertained by you from Idaho?
    Ms. McGinty. I consider that there is now an absolute veto 
on any participation in this program by anyone in Idaho.
    Mrs. Chenoweth. OK. Thank you.
    Ms. McGinty, you are an attorney, aren't you?
    Ms. McGinty. I went to law school, Chairman.
    [Laughter.]
    Mrs. Chenoweth. And did you take the bar?
    Ms. McGinty. I never took the bar exam, no. I'm not 
licensed to practice in any State of the Union.
    Mrs. Chenoweth. You cited--let me back up and say that one 
of the biggest questions that I have is the authority under 
which this initiative has been put forth. And while I 
understand that agencies of the Executive have broad 
discretionary powers, especially with generally 2.5 percent of 
their budget for discretionary expenditure, that has normally 
been based on existing authorized programs.
    Ms. McGinty. Yes.
    Mrs. Chenoweth. Now this program has not been authorized by 
the Congress. It has not been--monies have not been 
appropriated for it, and you did cite your authority as coming 
from NEPA. Now you're not an officer of the court, I 
understand, because you haven't passed the bar, but you are an 
attorney.
    Ms. McGinty. I have not taken the bar exam.
    Mrs. Chenoweth. Oh, excuse me--have not taken the bar. 
There's a big difference there.
    [Laughter.]
    Mrs. Chenoweth. But you did cite NEPA. Could you give me 
the cite exactly in NEPA that authorizes this?
    Ms. McGinty. Certainly. I am charged and sworn to execute 
the National Environmental Policy Act. The National 
Environmental Policy Act requires every Federal agency in every 
major undertaking that they--in every major action that they 
undertake that has significant impact on the environment to 
coordinate environmental, economic, and social considerations 
into that decisionmaking first, and, second, to afford the 
citizens of the country, and including in particular local 
citizens, to participate in that decisionmaking. That's what is 
at the heart of what we are trying to do.
    Mrs. Chenoweth. Could you cite within----
    Ms. McGinty. Section 101 of the National Environmental 
Policy Act.
    Mrs. Chenoweth. Section 101 states the purposes of NEPA.
    Ms. McGinty. It's section 101(b)(4)--precisely requires the 
Federal agencies to do what I've just articulated.
    Mrs. Chenoweth. And that is coordinate?
    Ms. McGinty. It is to integrate environmental, economic, 
and social considerations into every major Federal action and 
to afford the public an opportunity to participate in 
decisionmaking.
    Mrs. Chenoweth. Now the purpose of NEPA, beginning as 
affirmed by the U.S. Supreme Court in a decision beginning with 
National Helium v. Morton, and then never overturned, was that 
the purpose of NEPA was to have the Federal Government produce 
not only studies, but a decision on government actions on man 
and his environment, and it took NEPA absolutely no further 
than the study process. And so, therefore, I still actively 
question that there has ever been authority to grant certain 
rivers under a certain designation and expend funds and appoint 
people. We may never agree on that, Ms. McGinty, but I do feel 
very strongly that the agencies of the Federal Government need 
to stay in absolute line with the authority given them by 
Congress.
    The Anti-Deficiency Act, in fact, that I cited in my 
opening statements, in Title 31, also very clearly states that 
an officer or an employee of the United States may not make 
appropriations outside that which has been authorized, and in 
some cases recently, such as the Endangered Species Act, the 
courts have adjudged that appropriating funds is in and of 
itself authorizing programs, but that, again, departs--this is 
a new departure from even those concepts.
    So I really think that we're moving out--you're an 
adventurous and very bright woman, but I think that we are 
embarking on a new form of law under this United States that 
may be a bit dangerous, and could amount to a very definite 
shift of power into the Office of the Executive.
    Ms. McGinty. Chairman, if I might, I absolutely understand 
and respect the requirements of the Anti-Deficiency Act, and I 
think you're absolutely right to raise that up among the 
various laws that this initiative and every initiative needs to 
be in accord with, but I do want to underscore again that there 
is no new expenditure of funds of any kind here. This is simply 
an effort to try to facilitate a coordination among the 
agencies and a more efficient execution of the responsibilities 
they are charged with under any number of statutes.
    Mrs. Chenoweth. In your earlier testimony, you were stating 
what the program would be--voluntary, locally driven, et 
cetera. You finished that cluster of items that it would be 
with a statement that I believe you said it would exert parent 
authority. Was that correct? Did I hear that correctly?
    Ms. McGinty. I wouldn't understand what that statement was 
referring to, no. It could be the Philadelphia accent. I don't 
know.
    [Laughter.]
    Mrs. Chenoweth. According to the Executive Order, it 
appears that you are the permanent co-chair of the Interagency 
Committee on the American Heritage Rivers, and will develop the 
procedures regarding the panel of experts that make 
recommendations to the President regarding the merit of 
particular river designations. Some would argue that this makes 
you the administration's rivers czar, which is a very, very 
powerful position in these United States. I just wondered, who, 
other than the President and his staff, and the Vice President, 
and maybe some members of his staff, but I would doubt that, 
oversee your work on this particular program?
    Ms. McGinty. I report directly to the President of the 
United States.
    Mrs. Chenoweth. OK. What was the sense of urgency that 
caused the President to issue the Executive Order rather than 
establishing this program through the more conventional means 
through the Congress--by having authority, statutory authority 
come through the Congress?
    Ms. McGinty. Let me address the first part of the question, 
which is the urgency--to recall for the Committee the history 
that the President announced his intention to launch this 
initiative in January of this year. It's been since January 
that we have engaged in extensive public outreach, public 
comment, participation, and development of the program. So it 
has been the better part of nine months that have been invested 
in putting this initiative together. So I don't--there's been a 
longer history here to this, and this has been a program that 
has involved extensive outreach and public participation.
    Mrs. Chenoweth. I just wish that our permitting process in 
every area could be as efficient as the White House has 
demonstrated their willingness to be in this particular issue. 
And I do want to bring back the testimony that Nancy Johnson 
had given the Committee and comments that you made about how 
the communities in Pennsylvania had actually gone about 
cleaning up the Delaware River, and that is the people's river. 
We all do feel very much a part of that effort and commend the 
people of that river basin for their fine work. But there are 
already-existing programs. Based on the good testimony that we 
have heard today, there is the National Rural Development 
Partnership Program that was initiated by President Bush, and 
generally, as far as the general overall ability to coordinate 
and try to help communities break rule the regulatory maze, 
President Bush had envisioned pulling this together to help 
communities.
    There are hundreds of examples where communities have been 
helped. The only problem is that this new American Heritage 
Rivers Initiative will have the Director of CEQ as pretty much 
the head kahoona, the head honcho in this whole thing. And we 
are reinventing that which seemed to have been working pretty 
well under President Bush.
    There are many programs and a lot of help that can be given 
to communities in the form of grants, and so forth, and I 
realize there are small communities who may not have the 
sophistication to know where to go, but I know that those of us 
who are responsive to our constituents are inundated with 
casework and are willing to respond.
    Did you wish to respond to that?
    Ms. McGinty. Just to affirm the point that there are any 
number of programs out there that communities turn in any 
direction they can, including their congressional 
representatives, including having sometimes to hire expensive 
experts to help them wade through and access the resources that 
are their resources and that should be more effectively and 
efficiently put at their disposal.
    Mrs. Chenoweth. Can you tell me, for the record, how do you 
define a river community for the purposes of this new program?
    Ms. McGinty. There is no one-size-fits-all definition or 
command and control of what a river community constitutes. 
Because this is 100 percent locally driven, the locality will 
self-select. A community will decide or not decide to 
participate and will define itself, both who's going to be and 
who's going to be out, and what are the programs that the 
community is interested in pursuing.
    Mrs. Chenoweth. Ms. McGinty, I want to return to the fact 
that our entire delegation asked to have the entire State of 
Idaho opted out of this program. What about a river nominated 
over its entire length of the water or the watershed, like the 
Columbia River, from a source outside of, say, my State? But 
some part of the river is within the boundaries of my State or 
the watershed impacts my State or my district. I want to get it 
on the record. Would that kind of nomination impact a 
nomination in Idaho, or will the veto that has been asserted 
here remain intact?
    Ms. McGinty. Chairman, if the example is that a nomination 
comes forward and proposes that a stretch of river be 
nominated, and some part of that river has been subject to a 
veto, the veto extends to the proposal. That proposal would be 
vetoed, and it would be up to those who still want to 
participate to go back and recraft their nomination proposal, 
so that the community that has opted out is no longer a part of 
it, yes.
    Mrs. Chenoweth. All right. Mr. Schaefer, do you have any 
other questions?
    Mr. Schaffer. Yes, I would like to visit the river 
navigator topic again. One of the items that I had raised in 
our private meeting, as well as in the last hearing that we 
had, was with respect to river navigators or other Federal 
employees involved in the Heritage River Initiative, whether 
they would be permitted or whether we should expect to see them 
testifying in a water court or before a board of county 
commissioners or a city council with respect to a zoning 
decision of some sort? Are these--my desire, as you know, is to 
have them precluded from participating in those kinds of 
hearings. Do you see any way to accommodate that desire on 
behalf of my constituents?
    Ms. McGinty. Well, as a result of our conversations, we 
have accommodated these issues in at least two places in the 
final Federal Register notice. For example, the American 
Heritage Rivers Initiative will not conflict with matters of 
State and local government jurisdiction, such as--and land use 
planning is mentioned there specifically in a separate item. It 
also reiterates that this initiative may not infringe on the 
existing authority of local governments to plan or control land 
use or to provide or transfer authority over such land use.
    So in at least two places, and maybe more, we have made 
sure that the sovereignty of local authority over land use 
planning is absolutely respected here.
    Mr. Schaffer. Respecting the sovereignty and authority of 
local land use planners is good, and I appreciate that. I'm 
speaking to something different, which is the river navigator 
showing up in a water court before a board of county 
commissioners, testifying against a landowner. Once again, what 
we're talking about here is this bill is about cash at the 
moment, about spending Federal funds on this particular 
project, and the question we have to resolve is whether this is 
inherently in the best interest of the public that will pay for 
them, If the bill--if you were to prevail and the bill would 
fail, and were rejected by this Committee or some other body 
along the process here, what would happen, essentially, is that 
landowners, property owners, income taxpayers throughout the 
country send their cash here to Washington, and we send it back 
to them in the form of somebody who will be employed now with 
those dollars to testify against them. That is the activity I 
would like to prevent.
    Ms. McGinty. Well, let me say two things, if I might, on 
that--well, three. First of all, I do want to reiterate again 
that there are no new Federal dollars involved in this program, 
but, second, specifically to the point of what the Federal 
employee, this river navigator, will be doing, the Federal 
Register notice makes clear that employees of the Federal 
Government may not, as a result of this initiative, infringe 
this authority of local governments, and then, further, the 
Federal Register notice specifies that the community, rather 
than the river navigator, will be responsible for the 
implementation of the community's plan. The river navigator 
will have no authority to, among other things, adjudicate and 
may not engage in the following: lobbying, leadership of 
community partnership, or any of its endeavors, et cetera. So 
there is a clear proscription on the river navigator becoming a 
lobbyist of any kind with regard to any element of this plan. 
The plan is the responsibility of the community.
    Mr. Schaffer. This is a new--this individual would 
represent a new level of Federal presence within a jurisdiction 
of some sort? It is a new----
    Ms. McGinty. This would be a person who is--this is not a 
new Federal presence. Again, these are existing programs. The 
people who have been involved in this initiative to date are 
all Federal employees already engaged in working in these areas 
under the various laws that govern these kinds of activities.
    Mr. Schaffer. If the South Platte River in Colorado were 
designated as a Heritage River Initiative or designated as a 
river within the initiative, a river navigator would be 
employed and appointed----
    Ms. McGinty. Yes. Well, a river navigator would be 
identified with a community having the right to participate in 
the selection of that person, but the anticipation is that that 
is a person who is already employed by the Federal Government 
for these purposes. We're just asking those people to take on 
another job, and that is to be an ombudsman for a local 
community.
    Mr. Schaffer. You have a person with a new title, with a 
new job description, with a new function, with a new 
designation for an existing river----
    Ms. McGinty. Which job description will be written by the 
community.
    Mr. Schaffer. OK, I guess we have a difference of opinion 
as to whether that constitutes a new level of Federal 
involvement. I think it's undeniable that it does--that it is a 
new level of Federal involvement, and that really is the 
question that is still not resolved. Protecting local zoning 
ordinances and authority, and so on, is fine, but all of a 
sudden this initiative has the potential of injecting a new 
Federal employee with a new job title, with a new set of 
responsibilities, and the question I want--let me just reverse 
the question again and see if I can answer it that way. Is it 
possible that a Federal river navigator under this initiative 
could testify against a landowner in a water court, before a 
zoning board, or in any local setting of that sort?
    Ms. McGinty. If it is possible for that Federal employee to 
do so today, there is nothing in this initiative that changes 
that in terms of what can happen----
    Mr. Schaffer. But there are no river navigators today. 
They're not there.
    Ms. McGinty. But there is no authority--to the point, this 
program is not a piece of legislation. That means it can 
neither cede nor abrogate current Federal responsibilities or 
authorities. There will be nothing different in terms of 
Federal responsibilities or authorities tomorrow than there are 
today.
    Mr. Schaffer. Is it possible that the person who is 
designated as the river navigator will testify in a water court 
or before a board of county commissioners in a zoning hearing 
or anything of that sort?
    Ms. McGinty. The answer is, if it is possible for that to 
happen today--and I have no information or understanding as to 
whether it is--if it's possible for that to happen today, there 
is nothing in this program that would change that possibility 
tomorrow.
    Mr. Schaffer. Well, let me ask--this is more difficult than 
it needs to be.
    Ms. McGinty. If--if----
    Mr. Schiff. Let me--OK, let's talk about today. Is it 
possible for one of these river navigators to go testify in a 
court today?
    Ms. McGinty. I would cede to others who have expertise on 
this. I do not know----
    Mr. Schaffer. Well, how--there are no river navigators 
today.
    [Laughter.]
    Mr. Schaffer. Why is this hard to answer?
    Ms. McGinty. The answer is that there are no new 
authorities, that someone who's name today is Joe Smith and 
tomorrow is Joe Smith, River Navigator, they will have no new 
authorities when they have comma ``River Navigator'' after 
their name than they have today. And so if Joe Smith doesn't 
have that authority today, he will not enjoy that authority 
tomorrow when he's Joe Smith, River Navigator.
    Mr. Schaffer. I'm just trying to get this answer--you know, 
the American public, who relies on these congressional records 
and the records and transcripts from these hearings, or a 
judge, who I assure you at some point in time is going to be 
reviewing this record to make a decision, wants to know what 
our intention is. And all I want to know is, is it possible 
that the river navigator, whether it's an existing person today 
or somebody that you hire out of the blue and put the job title 
and give them the business card, ``I am the River Navigator,'' 
is that person--is it possible that that person can walk into a 
water court or a zoning board and provide testimony under that 
title?
    Ms. McGinty. Sir, the only answer I can give you is, if, in 
the absence of this program, that person would have that 
authority, then the answer is yes. But if the answer is no, 
then the answer remains no.
    Mr. Schaffer. So you're suggesting there's somebody who is 
the equivalent of a river navigator today?
    Ms. McGinty. What I'm suggesting is that, assuming the 
title of river navigator affords a Federal employee no new 
rights or authority. And so if that Federal employee today--
there are no river navigators, but there are Federal 
employees--if those Federal employees do not have the authority 
that you're referring to, they will not have it as a 
consequence of this program.
    Mr. Schaffer. Is it impossible to get a yes-or-no answer to 
the previous question?
    [Laughter.]
    Ms. McGinty. I'm being as clear as I possibly can. If there 
is--if it currently is the case that Federal employees can 
testify as you are describing, then it still will be the case 
that Federal employees called ``river navigators'' will be able 
to do that, but I am not aware as to whether or not--if we've 
got an expert who can tell us whether today a Federal employee 
can testify before a water court, if the answer to that is yes, 
then a Federal employee tomorrow would be able to do that, too, 
after this program is in effect.
    But I don't know if we have----
    Mr. Schaffer. Madam Chairman, I'm just going to defer to 
the Chairman. I have stated that question--if there is some way 
to get a definitive answer on that, I would sure love to have 
it----
    Mrs. Chenoweth. Is the general counsel here? I understand 
she is. Would you like to ask the general counsel, so we can 
get it on the record?
    Mr. Schaffer. Oh, sure. Sure. Is there----
    Mrs. Chenoweth. Dinah, I wonder if you would stand and take 
the oath?
    [Witness sworn.]
    Mrs. Chenoweth. Please proceed.
    Mr. Schaffer. Thank you, Madam Chairman.
    Would you identify yourself? I don't know you.
    Ms. Bear. Yes, my name is Dinah Bear. I'm general counsel 
of the Council on Environmental Quality.
    Mr. Schaffer. Well, you've heard the question and the 
answer.
    [Laughter.]
    Mr. Schaffer. But I want to know--is it----
    Ms. Bear. OK, let me see if I can give this a try. But it 
is substantively the same answer that Ms. McGinty has been 
giving.
    There are a number of circumstances in which Federal 
employees can testify in Federal, State courts or local 
proceedings--obviously, in their individual capacities, not as 
a Federal employee, but as a U.S. citizen; as a Federal 
employee. Federal agencies occasionally, of course, are sued--
sometimes by State and local agencies. They may be called on as 
witnesses. They may be subpoenaed in different circumstances 
and obligated to give testimony.
    There is nothing about this program that would change any 
of those authorities or responsibilities. Similarly, or 
conversely, there is nothing about the designation of river 
navigator under the American Heritage Rivers Program that would 
give them any authority or responsibility, as I understand it, 
to appear in court or in any kind of special administrative or 
arbitrative proceeding as a river navigator.
    Mr. Schaffer. That's understood.
    Ms. Bear. If they are a lawyer for an agency or a biologist 
or an engineer, and they're called on to testify in that 
capacity in court, in some sort of litigation or proceeding, 
there's nothing that would bar them from doing so as a result 
of their appointment as a river navigator, but they would not 
be representing the Federal Government in their capacity as a 
river navigator.
    Mr. Schaffer. How about in the capacity of testifying 
against a landowner in a zoning hearing, before a zoning board, 
or a water rights-holder with respect to a water court?
    Ms. Bear. My understanding is that they would not be 
testifying in a capacity as a river navigator. I think where 
some of the confusion may be arising here is there's a 
reluctance to say they would not be able to testify, either 
voluntarily or as a result of a subpoena, in any kind of a 
proceeding in their other capacity as a Federal employee. I 
think Ms. McGinty has indicated that this would be in addition 
to the regular job, not necessarily a substitute for their job. 
And because the community would be developing the job 
description, it might or might not subsume the rest of the 
responsibilities.
    But I think the key here, I think what you're looking for 
is whether or not there would be testifying against a landowner 
in their capacity as a river navigator, and I believe the 
answer to that is no. You, of course--or the Committee, of 
course--could, I assume, ask river navigators to testify, if 
you wanted to do so, but that's the only exception that I can 
think of to that.
    Mr. Schaffer. I suppose that would be correct. But let me--
which raises up--which raises an old issue, at least as far as 
this issue has gone. In repeated questions as to whether 
anybody can envision a need or an occasion where the river 
navigator would testify against a landowner or a water rights-
holder in a Federal water court, the answer is no--from Ms. 
McGinty, from Bruce Babbitt, from Dan Glickman. Everyone says, 
no, we can't imagine when this would ever need to occur. My 
response was, well, it would make a lot of us feel better if we 
could just write that into the Executive Order or into the 
Federal Register or secure that guarantee some way or another. 
And it is the resistance from the Clinton Administration to 
providing that safeguard which causes the concern.
    And so it seems to me the question is--the question of, can 
a river navigator--is it possible that the river navigator 
could end up in front of a water court or a zoning board, 
testifying against a landowner, that the answer is yes, but we 
can't envision when that would be needed. Why would it be 
harmful----
    Ms. McGinty. The answer is----
    Mr. Schaffer. [continuing] to preclude the river navigator 
from testifying against a landowner or water rights-holder in a 
water court or before a zoning board?
    Ms. McGinty. The answer is yes--only to the extent that 
that employee currently has that authority. The answer is no in 
terms of whether this initiative grants that employee that 
authority. It does not.
    Mr. Schaffer. Well, Federal employees currently have the 
authority, is what I'm told. Is that not correct?
    Ms. McGinty. I have no expertise on whether or not Federal 
employees have the authority to testify against local 
landowners in either land use or water use courts. To the 
extent that they do, there's nothing in this program that 
changes that equation. To the extent that they don't, there's 
also nothing in this program that changes that equation.
    Mrs. Chenoweth. Ms. Bear----
    Mr. Schaffer. Thank you, Madam Chairman. I'll stop asking 
questions.
    Mrs. Chenoweth. Ms. McGinty and Ms. Bear, I want to thank 
you very much for your testimony. It's been a long day. It's 
going to be suppertime before too long. And you can be excused 
now.
    I would ask, if it's at all possible, for either you or 
your staff to remain and listen to the rest of the testimony, 
if that's possible, but you are excused now from the witness 
table, and thank you very much.
    Ms. McGinty. Thank you, Chairman. Thank you, Mr. Schaffer.
    Mrs. Chenoweth. And the Chairman now recognizes our first 
panel. We have been at this for 5 hours almost, and I want to 
recognize Mr. William Perry Pendley from the Mountain States 
Legal Foundation in Denver, Colorado; Mr. Robert Lynch, Central 
Arizona Project Association, Phoenix, Arizona; Ms. Lois Van 
Hoover, Idaho Multiple Land Use Coalition, Yellow Pine, Idaho; 
Mr. Desmond K. Smith, Trans Texas Heritage Association, Alpine, 
Texas, and Ms. Mary A. Yturria, Brownsville, Texas.
    We welcome you all.
    And while our panelists are taking their place at the 
witness table, I want to acknowledge two very special friends 
of mine who are present in the room, who came all the way from 
Idaho. Pat Barkley, who is president of the Idaho Multiple Land 
Use Coalition--her office is in Boise, Idaho. I know she spends 
as much time in Yellow Pine, Idaho as she can. I'd like that, 
too, Pat. I'm awful glad you're here.
    And representative and a chairman of one of our more 
prominent committees in the Idaho legislature, Sylvia McHeath.
    Thank you both for traveling across the country to be 
present and join us today.
    So with that, I wonder if you might all stand and take the 
oath, please. Raise your right hand.
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Pendley?

   STATEMENT OF WILLIAM PERRY PENDLEY, MOUNTAIN STATES LEGAL 
                  FOUNDATION, DENVER, COLORADO

    Mr. Pendley. Thank you, Madam Chairman. You have my 
prepared testimony for the record.
    I will just say to answer the question Congressman Schaffer 
asked--Federal officials will testify, and they have testified. 
You need only look at the example of the New World Mine and the 
way the superintendent of Yellowstone National Park tried to 
prevent the opening of that mine. The water adjudications now 
going on in the State of Idaho have Federal witness after 
Federal witness. So the answer to the question is yes.
    Just as Oliver Wendell Holmes once said, ``Regardless of 
the good you're trying to achieve, there's no excuse for doing 
it any other way than the constitutional way.'' And that's what 
we're dealing with here. We've got the cart before the horse. 
We're talking about essentially what is legislation, and I 
sense the frustration that the Committee has in trying to 
figure out, to paraphrase a famous example, ``Where's the beef? 
Where's the pork?''--because you are buying essentially a pig 
in a poke here. You don't know. The ball is constantly in 
motion, as you heard the testimony here today, and anyone who 
puts any confidence at all in where it will be in the end is, I 
think, foolish.
    I come from that part of the world, as you know, where the 
rubber hits the road. We are where all these good ideas and 
well-intended remarks are implemented by bureaucrats and their 
win-at-all-costs attorneys. We are out there where the caveats 
and the compromises and the concessions that have been made to 
protect us end up in the ditch, while the rights and the 
privileges and the economic opportunities of the people that 
are going to testify today wind up as roadkill in the middle of 
the highway.
    And those who have the wherewithal of paying attorneys--
those that don't, maybe they can get the attention of Mountain 
States Legal Foundation, and we can get in the litigation--come 
back here and say: What about all the agreements that were 
made? What about the compromises that were made to protect our 
rights? And we are told it's in litigation; Congress can't get 
involved.
    Let me give a couple of examples. They're from testimony 
I've given before. They're situations that this body knows of 
well. We are told there's a self-defense exception in the 
Endangered Species Act, and yet the only man ever to kill a 
grizzly bear in his own yard is in his seventh year of 
litigation to try to use that self-defense claim, because the 
Fish and Wildlife Service doesn't like it and doesn't want it 
to be used.
    We are told that the Wilderness Act prohibition against 
motorized vehicles will be implemented sensibly, will use 
common law, and will allow for emergencies and dangerous 
situations and accidents and necessity. But, as you know from 
the famous Bobby Unser case, the Forest Service took the 
position that being in a wilderness in a snowmobile 
accidentally, out of necessity, or out of emergency is 
irrelevant; being there alone is a violation of Federal law.
    And, finally, you know as well, when you pass a Wilderness 
Act, despite the valid existing rights protections that are put 
in, we have the Forest Service taking the official position 
that when Congress adopted the valid existing rights provision, 
it did not know what the phrase meant and so Forest Service can 
implement it any way it wants.
    We remain optimistic. Hope springs, it seems, eternal. I 
think we are forever like Charlie Brown, thinking that Lucy 
this time--this time--will leave the ball on the ground, and 
that we're on the same page, if not maybe the same team, and 
that she won't pull the ball away from us, and everything will 
be OK. And it never is, and we just keeping hoping that this 
time it will be all right.
    It strikes me as quite incredible that we have created this 
oppressive, monstrous bureaucracy that doesn't work, that can't 
deliver services efficiently, and we're told, ``Oh, but only if 
we had one more layer of bureaucracy, then we could assure the 
efficient delivery of services.''--Oops, but only for 10 
rivers, not for anybody else in America.
    I point the Committee to the experience of the Natural 
Historic Landmarks (NHL), what happened under that oppressive 
program, how the National Park Service admitted that it 
violated property rights, and how eventually the NHL was used 
by neighbors to nominate lands for designation to prevent 
neighbors from using their property.
    Listening to this, reading the Federal Register, we're left 
with only questions--questions after questions of who, when, 
where, what, why. Who's going to be on the panel? Who's going 
to decide the terms? What is a vision? All unanswered.
    And the point that Congressman Schaffer made with regard 
to--I'm sorry, Chairman, you made--with regard to NEPA is a 
valid one. NEPA does not compel what Ms. McGinty is doing or 
what this President is doing. NEPA, in fact, compels that this 
administration do what it has refused to do, which is to comply 
with NEPA, publish this, go through an EA, go through a FONSI, 
go through an EIS, and allow the American people to comment on 
it.
    The fact of the matter is there is absolutely no statutory 
authority for what the administration is doing here. There are 
so many questions undecided.
    When I came here somebody cynically suggested to me--I 
thought it was cynically--that people will do this because of 
pork. I thought that was cynical until I got here and listened 
to the testimony, and it strikes me as maybe it is pork, and I 
say, geez, what a low price for which to sell one's liberty.
    We have a Constitution that guarantee how our government 
should do business. The Bill of Rights is not the source of our 
protection exclusively. It is the way our government is 
structured that is that source. Read, for example, Justice 
Scalia's opinion in the Brady case earlier this year, where he 
lays it out very thoughtfully that source of the guarantee of 
our rights comes from the way the government is structured, the 
vision of our government, and the fact that this is the body 
that adopts legislation, and the executive branch is the body 
that implements it.
    I know my time expired, but let me just add one 
parenthetical. What will be the ``balance'' implemented out 
there in the field? Pick up this morning's copy of The 
Washington Post and look at the balance this administration 
takes with regard to western resources, where the 
administration, in balancing the needs of the Nation for 
energy, in the most potentially productive area of the lower 
48, Overthrust Belt of Montana, has said, no, we're not going 
to allow oil and gas activities there; we're going to set it 
all aside for environmental purposes. And so anybody who thinks 
that this Federal Register notice, where it talks about 
economic activity, will answer some recognition of that 
activity, I think, again, is foolish.
    Finally, let me just say that I don't think these people 
are going to wait until they are roadkill, until their rights 
are roadkill, in this particular program. I don't think we're 
going to have to wait until the rights are violated for a 
lawsuit to go forward. I think this whole program will be 
challenged, and we'll have the opportunity to have a Federal 
judge asked some of the questions that the gentleman from 
Colorado and you, Madam Chairman, are asking, and maybe we'll 
get some better answers.
    Thank you.
    [The prepared statement of Mr. Pendley may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Pendley.
    And the Chair now recognizes Mr. Lynch for his testimony.

     STATEMENT OF ROBERT S. LYNCH, CENTRAL ARIZONA PROJECT 
                 ASSOCIATION, PHOENIX, ARIZONA

    Mr. Lynch. Thank you, Madam Chairman and Mr. Schaffer, for 
the opportunity to appear here today and testify on the 
American Heritage Rivers Initiative and the Chairman's bill, 
H.R. 1842, which I might note with some pleasure will be co-
sponsored by my Congressman, Mr. Shadegg, who I believe 
notified you of that earlier this afternoon. I have submitted 
copies of my written testimony to the Committee, and I'll try 
not to repeat that.
    The primary focus of the Central Arizona Project 
Association is, of course, the Central Arizona Project itself, 
formed in 1946 to promote the project, its authorization, its 
construction, and its operation. And I'm pleased to report that 
this year CAP will deliver approximately 1.5 million acre feet 
of Colorado River water through a 336-mile canal system through 
the metropolitan areas of central Arizona. It supplies about 
two-thirds of our population.
    We are not, however, without problems, and those are all, 
you might imagine, environmental, and they affect the main stem 
of the Colorado River. Our interest in this initiative stems 
from our activities in Arizona to solve problems and our fear 
that this initiative may add a layer of bureaucracy that 
interferes with the problem-solving that is ongoing in Arizona.
    I might note that I have heard a great deal about this 
initiative today from Ms. McGinty that isn't in the Federal 
Register notice, and it sounds a lot like the beginnings of a 
second set of regulations and detail. And we were concerned 
before we heard that detail; we're even more concerned now 
because we can't figure out where CAP fits into this scheme.
    Unfortunately, the beneficiaries of the Central Arizona 
Project and the Colorado River don't live on the Colorado River 
and they don't work on the Colorado River. They live in central 
Arizona. Phoenix is 190 miles from the Colorado River. Tucson's 
another 120 miles southeast of us. And yet the beneficiaries of 
the Central Arizona Project have as much concern about the 
Colorado River as do our residents and citizens who live on the 
river. Yet this initiative pays only lip service to those 
beneficiaries and doesn't involve them either in the nomination 
process or anything other than a tangential sort of reference 
to a plan.
    Frankly, we don't need a plan. We've got a plan. In the 
Lower Colorado River Basin, it's called a multi-species 
conservation plan. It is supported by a Memorandum of 
Understanding with the United States involving all three lower 
basin States, major environmental groups, and other interests. 
We don't need interference with that plan. What we need is for 
the employees of the Federal Government who are already 
committed to that plan, to our plan, not to be diverted from 
that by having to pay attention to this initiative.
    And one of our great concerns is that, with all the cost-
cutting that's going on and the paring-down of Federal 
agencies, you're getting down somewhere close to essential 
numbers of personnel doing tasks who have certain skills. And 
if those skills are diverted, and if those people are diverted 
to this, we're afraid that we won't be able to get our problem-
solving done under the Endangered Species Act in this plan, or 
in the upper basin's conservation plan, a recovery plan for 
four endangered fish. So we're very concerned about what's 
going to happen to the people we need to continue our problem-
solving if they get, because of their expertise, their 
understanding of rivers, and their scientific backgrounds, 
diverted into this whole new program.
    We're also concerned about the process. I have to disagree 
with Ms. McGinty; I think they have, in fact, created new 
regulations, because there's a consultation mechanism in the 
Executive Order. I don't know why people aren't paying 
attention to it, but I consider that some real problem in terms 
of figuring out the process, the consultation requirements that 
Congress has legislated in several other areas.
    And let me speak about reprogramming. Ms. McGinty said no 
reprogramming. There's got to be reprogramming. The 
beneficiaries of CAP pay, through water and power charges, for 
Federal employees to do work that's considered reimbursable 
expense. If they are then diverted to this, they're going to 
pay for this, too. This certainly ought not to be a 
reimbursable expense to the beneficiaries of local projects who 
agreed in contract what they were going to be obligated to. Now 
this is being laid on top of it.
    I know I'm out of time, and there are many more witnesses, 
but I just want to say I agreed fully with what Mr. Pendley 
said. The National Environmental Policy Act does not authorize 
this program and it's not a legal foundation for it.
    [The prepared statement of Mr. Lynch may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Lynch, I want to thank you for your 
testimony, and Mr. Pendley.
    We have been called to another vote, and we will look 
forward to hearing from Lois Van Hoover when we get back. And I 
can see some of you back there who have sat all day long 
waiting for your chance to respond to our request, to hear from 
you, and I thank you very much for your patience. It is beyond 
my control, though, and my responsibility is to make sure that 
Mr. Schaffer and I can get over there and vote and do our job 
like our constituents expect of us and cast the vote.
    So there will be two votes probably, and we'll hit the 
tail-end of this vote, and the next vote will be a 5-minute 
vote. Hopefully, we'll be back in 15 to 20 minutes. So bear 
with us. Thank you.
    [Recess.]
    Mrs. Chenoweth. This hearing will come to order. We will 
resume testimony by hearing from Lois Van Hoover from Yellow 
Pine, Idaho.

     STATEMENT OF LOIS VAN HOOVER, IDAHO MULTIPLE LAND USE 
                 COALITION, YELLOW PINE, IDAHO

    Ms. Van Hoover. Good afternoon, Madam Chair. As you said, 
I'm Lois Van Hoover, and I represent the Idaho Multiple Plan 
Use Coalition. Additionally, I sit on the boards of the Idaho 
Council on Industry and the Environment, the Independent 
Miners, and the Alliance of Independent Miners. I am a co-
founder of a new group that is forming called the Natural 
Resource Advocacy Center, and I live in Yellow Pine, Idaho with 
my husband, Leo.
    I just want to speak briefly, encapsulate my written 
statement. When I first reviewed the American Heritage Rivers 
Initiative, I think my first response to that was that it was 
harmless--even though it wouldn't do anything, it wouldn't be 
effective. With a little further review, I had some real 
concerns about private property rights and State rights. I need 
to say that I reviewed this with Katie McGinty's office, and 
they did put some verbiage in to try to appease those fears. I 
have to say that I'm still not totally satisfied, obviously, 
with what I was told.
    Ms. McGinty, at the Western States Coalition meeting last 
July in Spokane, and again today, stated that her inspiration 
for this program was the Philadelphia waterfront 
revitalization. However, the Philadelphia projects have been 
done through a partnership of private and public entities 
without the benefit of this program, and it didn't add--there 
was no added bureaucracy from the American Heritage Rivers 
Initiative. Many cities and communities in my home State of 
Idaho have done similar projects without the American Heritage 
Rivers Initiative, and have not required an additional tax 
burden on the American people.
    Further research indicated that the American Heritage 
Rivers Program is practically a carbon copy of the Canadian 
Heritage Rivers Program. Amazingly enough, one could exchange 
the verbiage from one program to the other. The St. Corry 
River, on the border of Maine, is part of the Canadian Heritage 
Rivers Program and is administered by a joint international 
committee.
    I want to thank you and the rest of the delegation for 
opting out of this program. I think that that is one of the 
best things that could happen to the State of Idaho.
    In June when I was in Ms. McGinty's office, I asked them to 
define--I did not; somebody in the party did, actually--to 
define what a river community was. The definitions varied--
everything from a river basin to a watershed. And if we're 
talking about a river community being a watershed, Idaho is a 
watershed and the headwaters for a lot of different States. And 
I did hear Ms. McGinty's answer today to your question, Madam 
Chair, but I still have a question over the jurisdiction of 
those headwaters, as the example you used, being the Columbia--
for the headwaters that would originate in the State of Idaho, 
and who would have jurisdiction over those waters. That also 
raises a question of the State's primacy over its water, and as 
you know, the Supreme Court has held that up many times--that 
the State does have primacy over its water.
    Is it possible that the American Heritage Rivers Initiative 
could include efforts such as zoning that typically come under 
county government? I suppose that question is a NEPA question. 
If we are designating rivers and we're going through a NEPA 
process, and we have county plans or community plans for the 
river community, will those plans come under NEPA? And if they 
come under NEPA, that takes away local control. And I have some 
questions about that, and I believe those are all the 
jurisdictional questions. That does not take into consideration 
the--again, I would like to state--the international borders.
    And as a voting, tax-paying American citizen, I take 
offense to programs that are being initiated by Executive 
Order, when they should have gone through the legislative 
process. One of the strengths the Founding Fathers built into 
our form of government was the separation of powers between the 
President and the Congress.
    Cities and counties are perfectly capable of deciding how 
to manage their land. Local control with input from local 
consensus groups will provide the best results.
    It seems to me that the Federal Government has a fiduciary 
responsibility to the taxpayers of the United States of 
America. This initiative duplicates an existing program: the 
Rural Development Partnership established by the Bush 
Administration in 1991. It is already operating in 38 States. 
You do not reinvent government by duplicating and adding a 
layer of Federal bureaucracy, nor do you satisfy your 
responsibility to the taxpayers.
    And one of the major differences between what was put in by 
the Bush Administration and this initiative is that it is 
headed in each State, and the Governor of each State puts out 
who is going to nominate the director for the Rural 
Partnership.
    One of the selling points of the initiative is that it will 
make use of existing Federal personnel. In Idaho, we already do 
that. For example, the head of our EPA office is working on the 
Rural Development Partnership. Will he be able to do both? Or 
would another Federal employee be pulled away from his present 
duties to be assigned to this program? In any case, who will do 
the task that these Federal employees are doing now? In fact, 
who is paying the current 12 members of the American Heritage 
Rivers Working Group and who is doing their job while they are 
working on this initiative?
    The additional Federal initiative is proposed at a time 
when we are supposed to be downsizing Federal Government and 
giving more control to the States. This is the exact opposite.
    We do not need a river czar. We do need to have Federal 
employees who simply do their jobs. We do not need the American 
Heritage Rivers Program, even though Ms. McGinty said in 
Spokane last July that she was doing this program because she 
could not trust State and local government and the private 
sector to do the job.
    If one of the major reasons for the American Heritage 
Rivers Initiative is to recognize outstanding efforts by 
communities on behalf of our river heritage in this country, I 
would suggest that the local communities could be recognized 
with a plaque that can be placed at the city limits noting 
their achievement, or you could even include a description of 
the community's unique efforts in the Congressional Record. But 
I strongly believe that anything to do within the boundary of 
the State and the State waters is best left at the State and 
local level.
    Thank you.
    [The prepared statement of Ms. Van Hoover may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mrs. Van Hoover.
    The Chair now recognizes Mr. Desmond Smith, and I 
understand that you have twice canceled your flight, and will 
be departing right after your testimony. So we will excuse you.

      STATEMENT OF DESMOND K. SMITH, TRANS TEXAS HERITAGE 
                   ASSOCIATION, ALPINE, TEXAS

    Mr. Desmond Smith. Thank you for inviting me to testify. My 
name is Desmond Smith. I'm a rancher from Lampastas, Texas, 
where me and my wife operate a ranch that's been in her family 
for 147 years. I'm president of the Trans Texas Heritage 
Association. I'm here today representing our members who own 
15.5 million acres of private property in Texas, and 1 million 
acres in New Mexico.
    Over the past few years, landowners have been trying to 
make Congress and the public understand the concept of the 
regulatory taking of private property, but we have not been 
very successful. We understand that Federal designations can 
bring with them limitations of the use of private property. 
This is why we are concerned about the American Heritage River 
Initiative.
    We found that Garry Mauro, the Commissioner of the Texas 
Land Office, was pushing for local officials along the Rio 
Grande to petition the river for designation as an American 
Heritage River. A friend of ours in the Governor's office told 
us about a meeting that was going to take place in Laredo on 
the 28th of April of this year. My wife and one other director 
of our organization decided to go.
    When we walked in, the people at the desk started looking 
for our name tags, but I told them they wouldn't find them. It 
turned out that the meeting was by invitation only. There were 
people from all levels of government, also from the Nature 
Conservancy the Audubon Society. If we had not shown up, there 
wouldn't have been any representation from any property rights 
group.
    Garry Mauro breezed into the meeting for a few minutes, and 
there was a lot of back-slapping and glad-handing. It was 
suggested that he should be made the river navigator during the 
process of the meeting.
    Since then, we've learned that this is supposed to a 
bottoms-up initiative, but what was obvious that day was that 
the Texas General Land Office and Commissioner Mauro were 
really backing this. At this meeting people talked about AHRI 
in terms of clean water, cultural heritage, economical 
development. I stood up and asked the question if this would 
include our friends in Mexico. The fellow from the Council of 
Environmental Quality said it wouldn't. Then I asked him how 
they expected to clean up the Rio Grande when Mexico pollutes 
the river, and he didn't answer.
    Right after that the moderator asked everyone to stand and 
state their name and organization affiliations. Everyone there 
except us was either from the government or the Nature 
Conservancy or the Audubon Society. It was clear that the 
meeting was anything but grassroots and bottoms-up.
    Now I've lived in Texas all in my life, and my organization 
has members who are property owners along the Rio Grande. The 
people who were invited to the meeting do not speak or 
represent all the people along the Rio Grande. The landowners I 
represent do not want their land designated as an American 
Heritage River--not now, not ever.
    Ever since that meeting, we've been trying to figure out 
what AHRI is all really about, and nothing we have been told 
makes any sense. The CEQ assured us there would be no Federal 
dollars and no new regulations.
    When Mr. Ray Clark with the CEQ came to Austin on July the 
9th, we asked him if the AHRI was about improving water 
quality; if so, given the fact that we already have the Clean 
Water Act, and especially since Mexico dumps raw sewage and 
industrial waste into the Rio Grande, how would the AHRI, with 
no new regulations, improve water quality? If not water 
quality, then how about restoring water quantity? Mr. Clark 
told us the AHRI would have nothing to do with removing dams 
and improve impoundments along the river.
    If there are no new Federal regulations and no Federal 
dollars, what can we accomplish with AHRI that can't be 
accomplished now? Nothing. If we private property owners hadn't 
done such a good job caring for our land, I doubt if the 
Federal Government and the environmentalists would be so 
interested in it. Public ownership and access to land does not 
offer the same protection as the loving care it receives at the 
hands of private property owners. If resource protection is a 
problem, private property--not public ownership--is, and always 
has been, the best solution.
    I understand Congressman Reyes and the people of El Paso 
want a river walk. Well, San Antonio has a river walk, and have 
had it for years, and they didn't have to get a Federal 
designation to accomplish that. What is really going on here?
    The thinking people of this Nation were shocked and 
sickened by Clinton's arrogant designation of the Grand 
Staircase-Escalante National Monument. Now he has given us the 
American Heritage River Incentive. There are two things that I 
find very unsettling about this incident. The first is that the 
administration thinks the American people are so stupid we 
would fall for this. The second is the negative property rights 
implication inherent in the Federal designation of anything.
    I'm asking you folks to please do the American people a 
great service and pass H.R. 1842--not just out of this 
Committee, but out of the full Congress. I thank you for your 
time. God bless each of you and our Nation, and thank you for 
having me.
    Now may I be excused?
    [The prepared statement of Mr. Desmond Smith may be found 
at end of hearing.]
    Mrs. Chenoweth. You are a real trooper. I do want to let 
you know that--and I wanted to announce--that I have just 
received, and will place into the record a letter from eight 
members of the Texas delegation to President Clinton asking to 
have their districts exempted from the American Heritage Rivers 
Initiative.
    And now you may be excused.
    Mr. Desmond Smith. Thank you.
    Mrs. Chenoweth. Thank you very much.
    Mrs. Yturria, you have been patient all day, and we welcome 
your testimony.

        STATEMENT OF MARY A. YTURRIA, BROWNSVILLE, TEXAS

    Ms. Yturria. Thank you very much, Madam Chairman, for being 
kind enough to ask me to appear here today.
    After explaining a little bit about who I am and where I 
came from, I want to make two points about why some of us who 
live on the Texas/Mexico border are working so hard to secure 
an American Heritage River designation for the Rio Grande. One 
concerns what border communities will face if we do not get 
more engaged in dealing with the degradation of our river. The 
other concerns the opportunity we have to celebrate and share 
with America our very unique history and culture. I will then 
give you a thumbnail sketch of how we hope to take advantage of 
the initiative and share my concern over the legislation you 
are considering.
    The Rio Grande flows 1,800 miles, making it our Nation's 
second-longest river. In my State it serves as our border with 
Mexico, and I am one of over million Texans who live and work 
in communities along its banks. My home is in Brownsville, 
Texas, a city near the mouth of the Rio Grande. We are property 
owners, working ranches that have been in my husband's family 
for over 140 years.
    Fifty years ago, when I married Frank Yturria and came to 
the Rio Grande Valley, I quickly learned that the quality of 
our lives, our health, and our well-being are linked to the 
river and its waters. I soon learned that there is a special 
Rio Grande heritage that is very complex and sometimes almost 
magical. It's a fine place to live. I knew immediately I would 
never leave.
    The Rio Grande is the principal source of water for our 
towns and cities. Its water irrigate our farmland, sustain our 
industry, and nourishes vital ecosystems and wildlife habitat. 
They support a tourist industry that ranges from hunting and 
fishing to birding and whitewater rafting. When the border 
economy is seen from a business perspective, it is clear the 
river is our most important asset.
    Congress has had ample opportunity to examine the 
conditions of his river and the plight of communities along its 
banks. Some say it is America's most polluted river. I say 
let's get to work and clean it up. Some say border growth will 
cause water demand to outstrip what the river can offer. I say 
let's make better use of what we have.
    If our communities along the Rio Grande are to survive, we 
all must work to build the economy in concert with the wise use 
of our river. We who live and work along the Rio Grande must be 
allowed to create partnerships, plan for the future, and get 
meaningfully engaged. If we are prevented from doing so by H.R. 
1842, we will all lose--rich, poor, Democrat, Republican, 
colonias dweller, property owner, even the Federal Government.
    Madam Chairman, I want to make another point. The river is 
something more than an economic asset at risk; it symbolizes 
the heart of a treasured heritage. In Texas the Rio Grande is 
both a dividing line between two nations and the place where 
two cultures have joined to produce a unique borderlands 
heritage. We treasure our history and our unique mixture of 
language and custom--our food, our architecture, our music. 
Along the Rio Grande you will find people from all stations in 
life working to preserve and celebrate that heritage. Some are 
Anglos; some are Hispanics. Some have wealth; some do not. Like 
the waters of the river, our Rio Grande culture is a precious 
asset, a key facet of America's frontier heritage. Those 
working to preserve that history and celebrate our heritage 
deserve recognition, encouragement, and sometimes a helping 
hand. They, too, want to build partnerships. They want to bring 
to the Rio Grande the private foundations, great public 
institutions, and our own hands that built so many American 
communities.
    When I first heard of the American Heritage Rivers idea, I 
was thrilled. The idea of looking at all the dimensions of our 
rivers--physical, historical, cultural--made a lot of sense to 
me, but what really excited me was the emphasis on local 
initiative to identify needs and plan responses. Let me repeat 
that: What really excited me was the emphasis on local 
initiative to identify needs and plan responses. I thought 
someone in Washington has finally gotten it.
    Better than anyone, we who live and work here know our 
river, what needs to be done, what we can do on our own, and 
when we need help. I hoped our local leaders would seize the 
opportunity, seek the designation, and build a partnership with 
the Federal Government in which the local authorities and 
managing partners are partners. I was not disappointed. Within 
a few weeks, all along the Rio Grande, mayors and county 
officials were looking into the President's proposal, assisted 
by our representatives and State officials. Civic groups came 
forward, as well as private citizens and landowners like me. 
When private property concerns were expressed, the White House 
made a special effort to brief the Texas Farm Bureau in Waco, 
agricultural interests in Austin, Governor Bush's office, and 
other State agencies. Throughout the 90-day comment period, 
people came forward with suggestions on how to shape this 
initiative. Some came with ideas about what to do and what not 
to do. There were, of course, those who suggested we do nothing 
with the Federal Government.
    To fan the flames of anti-government sentiment is not fair 
to communities around the country, and those who do so will 
lose. That also is an impractical solution when dealing with 
the Rio Grande River. We don't want an absence of government; 
we want the presence of better government. Fortunately, 
positive thinking is prevailing, encouraged by leaders like 
Congressman Silvestre Reyes from El Paso, Mayor Saul Ramirez, 
Jr., and Judge Mercurio Martines from Laredo. My own mayor, 
Henry Gonzales from Brownsville, and his colleagues in city and 
county government throughout the Lower Rio Grande Valley have 
supported----
    Mrs. Chenoweth. Mrs. Yturria, will you be able to wrap it 
up?
    Ms. Yturria. I know, it's--oh, this is very hard to do. I 
would like to say that the Rio Grande River is in a class all 
by itself because it is the river that separates two nations. 
We have Federal problems there, as you can well imagine. NAFTA 
was pushed through. We were promised all kinds of help. We've 
not gotten it. We're sitting down there desperate. Austin has 
neglected that valley and Washington almost pretends that we do 
not exist, and this is not acceptable.
    Thank you very much, Madam Chairman.
    [The prepared statement of Ms. Yturria may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you very much.
    And the Chair recognizes Mr. Schaffer for questions.
    Mr. Schaffer. Thank you, Madam Chairman. Before I'd ask any 
questions, I'd note that Mr. Pendley's written testimony 
contains a number of very useful and very well-researched 
commentary on legal opinion with respect to the legal questions 
surrounding the propriety, I guess, of the whole American 
Heritage Rivers Initiative in the first place.
    What I would suggest, Madam Chairman, and ask it to be part 
of the Committee's deliberations, is to send another letter to 
the Council on Environmental Quality stating specifically these 
concerns that Mr. Pendley has outlined and request, as part of 
our consideration of the legislation before us, answers to 
these particular challenges and questions and request, in 
providing it, a suitable deadline at the Chairman's discretion 
as to when we would like to have those questions answered. But 
I think that would provide for the Committee's deliberations a 
pretty good picture about the legal basis for the American 
Heritage Rivers Initiative and, again, shed some light on the 
propriety of the program and the necessity of your legislation.
    Mrs. Chenoweth. Without objection, so ordered, and we will 
set a deadline of 30 days.
    Mr. Schaffer. Thank you, Madam Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mr. Schaffer. I'd like to ask Mr. Pendley--you mentioned 
the Brady Act briefly. I'd like you to speak a little bit more 
to that, the relationship between the Brady Act and the Prince 
v. United States case, and the American Heritage Rivers 
Initiative.
    Mr. Pendley. Yes, I should give the lawyer disclosure 
comment. I am admitted to the practice of law in Wyoming, 
Colorado, Virginia and the District of Columbia.
    I think it's instructive to reflect on the Brady Act case, 
simply because of what happened here in the House. Congressman 
Joe Skeen, when the Brady Act was coming up on the floor, he 
said, ``We cannot order sheriffs to do this work. This is not a 
role of Congress. Sheriffs don't work for Congress. We can't do 
this.'' Others said, ``No, no, it's very, very important; we've 
got to save lives. The objective is the key thing; the way we 
do it is unimportant, and we have to do this.''
    And it got to the Supreme Court, fortunately, and the U.S. 
Supreme Court said, ``No, there's certain ways you do things 
under the Constitution.'' In Justice Scalia's opinion, he lays 
out very carefully how our Founding Fathers put together our 
system of government; that it's a system of dual sovereignty; 
that we have the Federal Government does; the Federal 
Government has certain things the Federal Government, and we 
have the State governments and there are certain things the 
State government does.
    What the Supreme Court opinion finally concluded was that 
in earlier decisions the Supreme Court had said Congress cannot 
order States to do certain things on pain of receipt of Federal 
funds, certain things that fall within the responsibility of a 
State. What we are saying in this opinion, said Justice Scalia, 
is that Congress cannot circumvent States and order employees 
of the State--in other words, sheriffs--to do what the Congress 
could not order the States to do.
    So what the opinion stands for, once again, is this 
fundamental principle that we heard in the Supreme Court 
decision in Lopez with regard to the Safe School Yard Act. Once 
again, it was something everybody agreed on: we certainly can't 
have people bringing guns into school yards. But thirty-five 
States have laws that prohibit guns on school yards, so we 
don't need a Federal law to do that. The Supreme Court said, 
furthermore, it's a violation of the Tenth Amendment and the 
Commerce Clause to do so.
    So I think that's an effective summary of what the Supreme 
Court decided in that case. But I would also say that Scalia 
pointed out in his opinion that every generation meets new 
emergencies, and there are emergencies of the day that we hear 
about and we're told, ``Gee, we've got to bypass these 
technicalities in our Constitution in order to solve this 
emergency, this crisis.'' The fact of the matter is these 
provisions are adopted for our protection to ensure that we 
don't do that.
    Mr. Schaffer. I'd like to ask Mrs. Yturria, if I could, for 
a moment--you mentioned that the Texas Farm Bureau was part of 
the meeting with the Council on Environmental Quality when they 
came and explained their posture on some of the property rights 
issues, and so forth. Does the Texas Farm Bureau support the 
initiative as it stands?
    Ms. Yturria. Oh, well, I am told that they did. I was not 
at that meeting, so----
    Mr. Schaffer. The other question that I have in the time 
remaining--you mentioned--you stated that this bill in front of 
us would prevent communities from working together on projects 
regarding the Rio Grande River. Earlier, I don't know if you 
were here or not, but Congressman Reyes was here speaking about 
his desire to see the river preserved and protected, and 
communities come together and work together. I would just point 
out, by way of example, my State in Colorado has had a number 
of projects over the years where we have had similar concerns 
and managed to provide various protections and have communities 
come together through the work of a congressional office of a 
United States Senator's office or other elected officials. Do 
you believe there's something that prevents your Congressman or 
your mayor--you mentioned Mayor Gonzales in Brownsville--or 
other elected officials from using the resources and the 
experience that they have in their offices to accomplish these 
goals?
    Ms. Yturria. That is a very complex question. Brownsville 
is--about 3 years ago, it was noted that it was the poorest 
city in the United States. Now it's true, Congressmen and 
Senators come down, and what do they do? They go to a meeting 
place, and they are there for perhaps 20 or 30 minutes. They 
never see the colonias; they never see the horror stories that 
exist in my area.
    We need someone to come to that border and see for 
themselves what really exists. I think people know more--the 
people in Washington seem to know more about Bosnia than they 
know about Brownsville, Texas. Really, you can't believe what 
kind of a condition that border is in and how few people come 
and really take the time to go out and look at what the reality 
is.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    Mrs. Yturria, the Resources Committee disclosure form that 
you completed says that you're representing the General Land 
Office in the State of Texas. What is you relationship with the 
General Land Office, for the record?
    Ms. Yturria. I hold no position in the Texas Land Office. 
Over the years since I have been very involved in environmental 
issues, naturally that would be the office that I would have 
worked through over the years, and that is my contact with the 
Land Office.
    Mrs. Chenoweth. Was your testimony approved by the General 
Land Office in the State of Texas?
    Ms. Yturria. Yes, it was.
    Mrs. Chenoweth. OK. Thank you.
    Ms. Yturria. You're welcome.
    Mrs. Chenoweth. Mr. Pendley, could you cite for the record 
the similarities between the President's use of the Antiquities 
Act in Utah and this program, the American Heritage Rivers 
Initiative?
    Mr. Pendley. I don't think we want to go on that long, do 
we, Madam Chairman? There are a lot of similarities, obviously. 
Congress was very clear with regard to the Antiquities Act and 
what the President could do. The President could set aside 
areas that are ``scientific,'' areas that are ``historic.'' He 
had to limit it to ``the smallest area'' necessary compatible 
with the resource. I don't think there's any way in the world 
that you can say 1.7 million acres of scenic land, largely 
scenic land, meets that requirement. So, No. 1, you have this 
situation where there is no statutory authority for the 
President's action.
    Let's look now at the American Heritage Rivers Initiative. 
Ms. McGinty, as you pointed out, Madam Chairman, the only thing 
she cites to for authority is the purposes section of NEPA, 
which is all the feel good language about what Congress is 
trying to achieve. The instructive language, the mandatory 
language, follows, and the mandatory language is: Do a study 
once you propose an action that ``significantly affects the 
quality of the human environment,'' that is, if it's a ``major 
Federal action.'' So on both issues I think there is no 
statutory authority for the President to act.
    With regard to the Utah situation, what became clear 
afterwards was that nobody in Utah had ever been notified. This 
was an initiative that went forward because environmental 
groups inside Utah that were not effective in electing 
congressional representatives that represented their point of 
view, and people from outside--for example, Robert Redford who 
was consulted prior to the designation--demanded it. The 
President did not consult with anybody locally. He ignored what 
the Governor wanted, basically left the Governor sitting 
outside the Oval Office awaiting a meeting with the President. 
In fact, as I understand it, there was a phone call made to the 
Governor of Utah. He was told that: We have no plans to do 
this, and then at 2 a.m. another call went in: We're about to 
announce it; in 5 hours we will announce it. So there was no 
consultation, no recognition of the unique role that the 
delegation plays.
    And here, of course, all we have is this representation you 
received this afternoon that, yes, we'll consult; yes, we'll 
make sure that the locals are taken care of. In addition, of 
course, you have this balance issue. We're told in the Federal 
Register documents that they're going to take recognition of 
economic activities; that they're going to ensure economic 
activities are taken care of. In Utah the President had the 
unique opportunity to permit a trillion dollar coal deposit 
that represents $2 billion to the school children of the State 
of Utah to go forward, and he choose not to. He choose to set 
it all aside. And so no wonder we have great fears with regard 
to a river initiative where we're concerned about economic 
activities. I think any concerns on that issue are justified.
    Mrs. Chenoweth. Mr. Pendley, does your foundation intend on 
suing the Federal Government over this particular point?
    Mr. Pendley. Well, certainly we're looking at it. As I lay 
out in my statement, I think there's a lot of violations here. 
We have this unique situation. I don't think I've ever seen a 
situation like this before where we have a program announced by 
the President for which there is absolutely no statutory 
authority. The only thing that Ms. McGinty can cite to is the 
purposes section of NEPA, and she says, that's our authority; 
that's why we're forced to do this, compelled to this. Gee, I 
just think it's a no-brainer: they can't do this.
    And when you add the uncertainty, the indistinctness of all 
of this, the arbitrary and capriciousness of it is even more 
questionable. If we are significantly affecting the human 
environment--and, of course, Ms. McGinty says we are--we're 
going to make it all better; we're going to improve the 
environment, then NEPA requires preparation of these documents. 
They are required not just when you improve the environment, 
but when you adversely affect the environment, both when you 
adversely affect it and when you improve it. Any--any impact on 
the environment requires a NEPA compliance. So she says we're 
going to make it all better. I think she's got a major Federal 
action that significantly affects the quality of the human 
environment. At the very least, that's an issue as well. I 
think the issue you brought up of the Anti-Deficiency Act--we 
got this reprogramming--raises serious questions. Also does it 
violate the Reorganization Act? I think there's a lot of issues 
yet to be decided there, and at bottom Congress is the entity 
that has the authority under the Commerce Clause to take action 
with regard to our navigable streams and our rivers. I think 
Congress has to start it.
    And this idea that, well, we announced this initiative and 
then we came up and talked to you, so it's OK now, and you'll 
do oversight--I mean, where's your hammer? I don't see where 
the hammer is. I don't see how you rein them in--the very point 
the Congressman from Colorado made.
    So the bottom line is our board of directors has to approve 
all the cases that we undertake. Our board of directors has not 
yet approved a case like this, but whenever we see this kind of 
mischief, we are interested.
    Mrs. Chenoweth. The Chair yields back to Mr. Schaffer for 
any further questions.
    Mr. Schaffer. No, Madam Chairman.
    Mrs. Chenoweth. I have some more. I have a question for 
Lois Van Hoover. Thank you, Mr. Pendley.
    Why do you not believe that this program will be voluntary, 
nonregulatory, as its promoters claim? Why are you suspicious 
about it?
    Ms. Van Hoover. Any time you put another layer of 
bureaucracy, there has to be some guiding mechanism, and 
guiding mechanism ends up being regulation, either in guidance 
or in actual regulation, as we see it today.
    There is nothing out there--they're talking about an 
initiative that requires no funding and no additional programs. 
So why do we need it? So the only purpose to have it is so that 
the Federal Government can hold our hand because we're not 
smart enough to do it ourselves and lead us down the road they 
want us to go. And there has to be some kind of regulation or 
they change the word and call it ``guidance,'' but it is the 
same thing.

EVENING SESSION

    Mrs. Chenoweth. Thank you.
    I also wanted to ask Mr. Lynch if you would further 
elaborate about the possible impacts of the consultation 
language in the Executive Order to various resource users?
    Mr. Lynch. Yes, Madam Chairman. I'll give you two specifics 
that are in statute. The consultation requirement under the 
1968 Colorado River Basin Project Act: the seven basin States 
must be consulted with by the Secretary of the Interior for 
plans for operating the dams constructed on the Colorado River. 
That's done through an annual operating plan process and 
through periodic review of long-range operating criteria that 
were established pursuant to that Act.
    There is also another Act that pertains to the Colorado 
River, as an example, the 1992 Grand Canyon Protection Act, in 
which there are, I believe, three provisions that directly 
order the Secretary to consult with affected interests that are 
named in that Act. I look at--and I think in my written 
testimony I pointed out that consultation with affected 
interests does not occur under section 7 of the Endangered 
Species Act. The Fish and Wildlife Service takes the position 
that that is a one-on-one debate between the consulting agency 
and the Service, and the rest of us are left out of the 
process.
    I wouldn't be so worried about this if it were in the CEQ 
program, but it's in the Executive Order. The President says 
you will consult with these entities that constitute whatever 
this river community is, if there's been a designation. That's 
a direct command, and if he does have the authority, then he is 
making an Executive command to the Federal agencies. He is, in 
fact, setting up a consultation program, and he has that--if he 
has the basic authority for the program at all, he clearly has 
the Executive authority to issue those kinds of directions.
    Now I agree with Mr. Pendley that there is no foundational 
authority for this program, but there clearly, if this goes 
forward, is Executive authority for him to order the agencies 
around, and that is exactly what he's done. And I don't see how 
you square with the specifically mandated congressional 
consultation programs where you've made these designations and 
how you square it with the lack of consultation that we suffer 
with some of these other programs. It seems to me that we're 
just asking for trouble, and I think it was a serious mistake 
for the Executive Order to make that provision in sort of a 
casual way, either without elaboration or some specificity. I 
think it's going to cause us a lot of problems trying to go 
forward with the kind of problem-solving we're doing in the 
Colorado River Basin now and the changes we need.
    Mrs. Chenoweth. Thank you, Mr. Lynch. I want to thank the 
panelists for their very outstanding testimony, and excuse you 
now, and welcome the second panel.
    The Honorable Gordon Ross, Coos County Commissioner, Coos 
County, Oregon; the Honorable David Young, Buncombe County 
Commissioner, Asheville, North Carolina; Mr. Bill DeVeny, Idaho 
Farm Bureau Federation, Boise, Idaho; Mr. David Allan Ealy, 
Perrysville, Indiana, and Ms. Carol LaGrasse, Property Rights 
Foundation of America, Stony Creek, New York.
    If you would all please take your place at the witness 
table--would you please stand and raise your right hand?
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Young has a plane to catch, and he's 
asked if we might go out of order, and we will. I'll call on 
Mr. Young first to deliver his testimony.

    STATEMENT OF DAVID YOUNG, BUNCOMBE COUNTY COMMISSIONER, 
                   ASHEVILLE, NORTH CAROLINA

    Mr. Young. Thank you, Madam Chairman. My name is David 
Young. I'm a resident of Asheville, located in western North 
Carolina. I'm here today to speak to you as a citizen, small 
business owner, local elected official, and chairman of the 
Riverlake Task Force, spearheading the nomination of the French 
Broad River as an American Heritage River. French Broad--
interesting name for a river--it was the broad point in a 
French territory.
    In all of these capacities, I fully support the American 
Heritage River Initiative. Our task force has been following 
the American Heritage River Initiative since the President 
announced the program on February the 4th. Our task force is 
comprised of interested citizens, chamber of commerce 
executives, elected officials from throughout the river basin, 
riverfront property owners, recreational enthusiasts, artists, 
craftsmen, tourists, development experts, and nonprofit 
agencies. And I'm not going to read from my text; I'm just 
going to summarize a few points for you, Madam Chairman.
    In forming our task force to nominate the French Broad 
River, we have made a conscious effort to not make this a 
partisan effort. In fact, we have had tremendous bipartisan 
support. We have had over 2,000 endorsements similar to the 
ones in your packet. We have letters from the Governor of North 
Carolina, Jim Hunt, a Democrat; the Governor of Tennessee, Don 
Seques, a Republican; resolutions from the Henderson County 
commissioners, who are all Republicans, and the Buncombe County 
commissioners, who are all Democrats--all in support of this 
effort to nominate the French Broad as an American Heritage 
River.
    This issue is bigger than politics in our area. We must 
look beyond politics to the people side of this issue and 
improving the quality of life for the citizens who reside in 
our area.
    In our efforts to name the French Broad River as an 
American Heritage River, we realize that we have already won 
the prize. We have come together in a whole new way, formed new 
partnerships and alliances, and discovered are neighbors 
again--not just nearby cities and counties, but our sister 
State, Tennessee. These are things that perhaps we should have 
done, but we didn't.
    On May 1, we hosted a public input session in Nashville. 
Many of the suggestions from that meeting have been 
incorporated into the permanent criteria for the American 
Heritage River Initiative. During our May 1st meeting, public 
comments were heard from residents from two States, along with 
elected officials, property owners, business men/women. We 
basically came together, discussed plans for our future, and 
excitement has grown from that initial meeting.
    What we discovered is we need the American Heritage River 
Initiative. We know that alone no one entity, no one government 
agency, no foundation, no one person can accomplish all that we 
have planned for the French Broad. The American Heritage River 
Initiative gives us the umbrella under which we can continue to 
build our plans and development of the French Broad River. It 
helps us unravel the maze of Federal grants and technical 
assistance opportunities and will give us access to programs 
that we now don't even know exists.
    The Federal Government is big, and often finding the right 
assistance is difficult. The idea of our own river navigator is 
exciting to us. It would help us develop and sustain our great 
river, which brings me to my final point.
    We, as our committee, have passed a resolution supporting 
the American Heritage River Initiative because it is 
nonregulatory and will not cause an increase in the Federal 
budget. Rather, it will focus resources on our plan of action. 
It would give an umbrella under which to work. The initiative 
will force the Federal Government to be responsive to our plan 
of action for our river. We have taken this promise to a new 
level, and I want to read that. We passed a resolution.
    ``We are pursuing the nomination''--this is our committee's 
resolution; we have passed this unanimously at our last 
meeting. ``We are pursuing the nomination of the French Broad 
River as an American Heritage River. Our initial plan with 
other aspects calls for a greenway along the entire length of 
the French Broad River corridor through Transylvania County, 
North Carolina, to Knox County, Tennessee, which would be 
interpreted with public historic markers.''
    In pursuit of this greenway and the American Heritage River 
status, we pledge individually and collectively that no 
property will be condemned, no property owner will be coerced, 
and that all participation in the greenway voluntary, with all 
due regard for individual property rights. We understand our 
statement and code of conduct is in complete compliance with 
the stated objectives, goals, and the American Heritage River 
Initiative Program, as outlined in the Federal Register.
    I ask your help for our region to continue to grow and 
prosper by allowing the American Heritage River Initiative to 
continue and to vote against the bill H.R. 1842. I also ask 
that you rethink the timing of this legislation. It might be 
best to allow this initiative to continue and to look at the 
results in a year. I think Mr. Schaffer made that suggestion 
also, to come back in a year.
    In fact, if our river is named, I would like to personally 
invite each of the Committee to visit the French Broad in 
January 1999, after we have had Federal assistance for one 
year, and let's look together at the results. I'm convinced 
that this will be a good program for our river and other rivers 
chosen throughout the country.
    Thank you.
    [The prepared statement of Mr. Young may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Commissioner, and before you 
leave----
    Mr. Young. Yes, ma'am.
    Mrs. Chenoweth. [continuing] I do have a couple of 
questions.
    Mr. Young. Please go ahead.
    Mrs. Chenoweth. In your statement you note the strong 
support for the French Broad designation, but the Committee has 
received letters of opposition to this designation from State 
Senator Bob Carpenter of Franklin, North Carolina; from the 
Southern Appalachian Multiple Use Council; and the TS 
Hardwoods, Inc. Were you aware of this opposition?
    Mr. Young. Well, Bob Carpenter's district is not in our 
river basin, but that would not--he's not a senator for any of 
the counties that are involved in this, and I had not heard of 
the others.
    Mrs. Chenoweth. All right. I wanted to further elaborate on 
your testimony by asking you, because this program is described 
as voluntary, and many property owners believe they should only 
be included in a particular river heritage designation, if they 
give written permission to do so, would you support such a 
provision to this, too?
    Mr. Young. That they would not be included unless there 
was----
    Mrs. Chenoweth. Unless there was written permission to do 
so.
    Mr. Young. You know, that's an interesting question, in 
that the idea of them agreeing to be a part of it, I think if 
we're going to do a greenway, which is one of the things we've 
talked about for what our plan is, and they don't want to be a 
part of that greenway or have the greenway on their property, 
they ought to be able to opt out of that.
    Mrs. Chenoweth. So you will support the provision, then, 
that anyone who doesn't mind being included in it would give 
written permission to be included?
    Mr. Young. Well, when you start talking about trying to get 
written permission from every property owner, I think that 
adds--it makes it very difficult. But, you know, you cannot--if 
our plan is to do a greenway, we cannot do it without the 
property owner's consent to do that.
    Mrs. Chenoweth. So, then, you would agree that----
    Mr. Young. Well, if you're asking, will I agree that before 
we get the designation, we get all the property owners to 
agree, no, I don't think that would be fair. If you say that--
--
    Mrs. Chenoweth. Oh, no, that's not my question. I'm not 
asking they agree with each other. I'm only asking if you would 
agree that they should give written permission to be included 
in a river designation.
    Mr. Young. Before we get the designation?
    Mrs. Chenoweth. Before?
    Mr. Young. I don't know. I could not agree to that.
    Mrs. Chenoweth. OK, then, as it's proposed?
    Mr. Young. As what's proposed?
    Mrs. Chenoweth. The designation.
    Mr. Young. I'm sorry, say that one more time.
    Mrs. Chenoweth. As it's proposed, which it seems to be--it 
seems to be proposed in Asheville and around that area.
    Mr. Young. Right.
    Mrs. Chenoweth. So at this point in time, would you agree, 
then, that there should be written permission from the property 
owners to be included?
    Mr. Young. Well, like I said, I don't think before--we have 
a December deadline. I think it would be impossible for us to 
get written permission from every property owner before we got 
after the designation. If, in fact, we do a greenway, we have 
to have their consent and know--I've stated our committee 
passed a resolution saying that we would not look at anybody--
we would not do a taking of anybody's land or coerce anybody to 
give up their land. So, in effect, they would have to agree to 
be a part of the greenway.
    Mrs. Chenoweth. OK. All right, with that, we'll let you 
catch your plane----
    Mr. Young. Thank you.
    Mrs. Chenoweth. [continuing] and thank you for your 
patience in this long day.
    Mr. Young. Yes.
    Mrs. Chenoweth. The Chair now recognizes Mr. Ross.

   STATEMENT OF GORDON ROSS, COOS COUNTY COMMISSIONER, COOS 
                         COUNTY, OREGON

    Mr. Ross. Chairman Chenoweth, Coos County is protective of 
all its rivers and streams, just as we're protective of all our 
constituents--our landowners and those who farm along those 
rivers, and those who have timber holdings in those watersheds. 
What we've done in Coos County is quite unique, although it 
should not be, because how we started with our watershed 
associations--and, incidentally, I've made copies of pictorials 
in a blue binder that you have before you of before and after. 
Sometimes it's hard to visualize why before and after is 
better, but if you read what was happening, you can, I think, 
see that.
    We began on two of our streams in the Coos Bay area with a 
coordinated resource management plan, which is something's 
that's been available to anyone in the United States for over 
40 years. In fact, it was, I believe, clear back in the 
Roosevelt era that the Agricultural Adjustment Act include the 
conservation plans and the opportunity for coordinated resource 
management programs within your community. At the present time, 
at the Federal level there are Memorandums of Understanding 
between all resource agencies. At the State level of every 
State in the Nation there are also signed Memorandums of 
Understanding between the resource agencies at the State level 
and at the community level.
    So every community that has a soil and water conservation 
district made up of local landowners who are elected by the 
people, not just by landowners, but by all the people in the 
county, has this opportunity to go to the soil and water 
conservation district in that the technical expertise of the 
Soil Conservation Service, now called the Resource Conservation 
Service, for a coordinated resource management plan in their 
community. The landowners, whether it's a full watershed or 
just a short area, a small area, can get the assistance of all 
the agencies to improve their streams or to improve their 
watersheds, or whatever the need may be. And this voted on 
congressionally. This is something that's here and is available 
to every community in America.
    I want to say that Coos County is one of the most favored 
counties in America, I believe, and for some of the reasons I 
mentioned in my testimony here: Seventy percent of our land is 
privately owned. We have no Scenic River designations. We have 
no congressionally withdrawn Wilderness Areas in our county. We 
have consistently, since 1855, harvested more timber than any 
county in the State of Oregon, and that's because we're on the 
only deep-water port on the coast of Oregon, other than Astoria 
at the northern end.
    We built San Francisco from the days of the Forty-niners 
until she burned in 1906, and we rebuilt it after that up until 
1920. And this has been the largest lumber shipping port in the 
world for most of my lifetime and for decades before that, and 
yet we have more Coho salmon spotting per mile than any county 
on the coast, on the West Coast, and we also have more coho 
salmon than all the other counties in Oregon combined--and that 
during a period of time when we harvest more timber than any 
other county in Oregon.
    This seems to defy conventional wisdom, but we also have 
watershed associations partnering with up to 75 percent of the 
landowners in the Coos Basin and a good number in the Coquille 
River Basin. And the private landowners--this is a bottom-up, 
nonregulatory approach. We have heard that today quite a few 
times. I can tell you in Coos County it is.
    And I want to say that, with the exception of our Federal 
partners, this has worked very well. And I want to say also 
that, in defense of our Federal partners on the local level, it 
has worked very well with them also. It's been above that that 
things begin to bog down--I think maybe partly because people 
in the Federal Government don't understand the ecosystems that 
we have on the coast are the Douglas fir region, and our 
andramous streams are a result of disturbances--forest fire and 
flood, now logging and flood--and these disturbance-based 
ecosystems, we understand now, are the reason for our 
tremendous response in Coho salmon and in the timber industry.
    I see the light is coming on. I just want to say that we've 
had a lot of great cooperation with our landowners, but when it 
comes to our Federal partners, their interpretation of the Food 
and Security Act, the Clean Water Act, and wetland regulations 
have been a constant impediment to getting through the permit 
process in order to do Coho habitat enhancement with, for 
instance, projects ranging from side-rearing ponds to taking 
sediment out of the streams in order to allow for Coho 
enhancement have been viewed as wetland violations, and one of 
our best cooperators was even charged with discharging 
pollutants into the waters of the United States. He had taken 
sediment out of his ditch from a previous storm and placed it 
on his farmland, and that was the charge.
    In conclusion, I wish to say that the bottoms-up, 
nonregulatory, cooperative approach to enlist the efforts of 
every private landowner can and does accomplish far more than 
the Federal presence in our communities. I believe it was the 
Fiddler on the Roof--in the Fiddler on the Roof where someone 
asked the rabbi, ``Is there a proper blessing for the czar?'' 
And he said, ``Yes, God bless the czar and keep him far, far 
from us.''
    [Laughter.]
    Mr. Ross. Thank you, Madam Chair.
    [The prepared statement of Mr. Ross may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Ross, and Mr. Schaffer and I 
both have reviewed this. It's very, very good. Thank you for 
providing it to us.
    The Chair now recognizes my friend from Idaho, Mr. Bill 
DeVeny.

STATEMENT OF BILL DeVENY, IDAHO FARM BUREAU FEDERATION, BOISE, 
                             IDAHO

    Mr. DeVeny. Thank you, Madam Chairwoman, members of the 
Committee, and visitors. Thank you for the opportunity to 
present these comments.
    My name is Bill DeVeny. I am a rancher from Riggins in 
central Idaho--maybe I should say west central Idaho. I am 
speaking on behalf of the Idaho Farm Bureau Federation, 
representing 47,000 member families, and also on behalf of 
myself. My testimony is in support of H.R. 1842, to terminate 
further development and implication of the American Heritage 
Rivers Initiative.
    One contradiction follows another in the initiative. 
Creating another layer of government cannot possibly make 
existing government agencies function more efficiently. 
Allowing nongovernmental organizations to coordinate delivery 
of Federal services, as stated in the initiative, is a lot like 
having the fox guard the chicken house. These nongovernmental 
organizations, NGO's, as they are often called, have no respect 
for the heritage of the American West. Most of them are bound 
and determined to eliminate every aspect of the heritage of the 
West.
    Ours is a heritage for trappers of furs, then miners, 
followed by grazers and farmers; next, loggers, and more 
recently, recreationists. Trappers are virtually extinct, and 
the NGO's are the very ones attempting to send the rest of us 
the same way.
    The initiative usurps State powers and ignores 
constitutional provisions. Water is the lifeblood of Idaho, so 
the way it is managed and used is a concern to all of us in 
Idaho. This initiative circumvents the right of States to 
manage and control water, which is clearly a right of each of 
us in the State.
    Another concern I have is that there is no constitutional 
authority for the Federal Government to become involved in the 
issue of water. The Constitution enumerates the powers granted 
to the Federal Government and reserves to all others the States 
or to the individuals.
    This initiative is duplication of efforts between other 
Federal agencies--for example, the Rural Development Councils. 
In some cases, the initiative appears to be in violation of 
existing law such as NEPA.
    This initiative circumvents the authority of Congress and 
vests authority in yet another bureaucracy. It introduces 
another layer which we do not need. Agencies have become the 
fourth arm of government, and this is detrimental. We need less 
bureaucracy, not more.
    From personal experience, about two weeks before this 
hearing, I was contacted by two Federal employees wanting to 
come on my private property to make a stream-side survey to see 
what kind of fish and habitat are in a very small stream that 
crosses my private property. When questioned why they wanted to 
make the survey, the employees would not say, nor would they 
tell me by what authority they were coming on my property. And 
last of all, they were not willing to provide me with a copy of 
their survey data or any of the results.
    From experience, I am very certain that whatever they might 
do with the information would not be to my benefit and would be 
detrimental to my interest, as well as that as to the general 
public in the long run. This is just an example of the 
increased intrusiveness of the government that will be created 
by the American Heritage Rivers Initiative.
    Knowing Federal agencies like I do--and I have for 50 
years--their help does not have to be helpful or even be nice. 
When the prospect of grant money is added, local units of 
government have a hard time saying no. Several years ago, I was 
asked to testify at the Idaho Association of Counties 
concerning some of the heritage legislation that was being 
proposed by Congressman Udall. Earlier versions had been 
rejected or ignored, but when the counties were promised a 
share of the money, many county commissioners had a hard time 
saying no. They were not interested in the heritage areas. They 
knew very little about them in most cases, but they were 
definitely interested in the pork. They were willing to accept 
the money regardless of the consequences, but, fortunately, 
there was enough commissioners present who could see the down 
side that the group voted to reject the proposal.
    This country was founded on several important principles, 
not the least of which is the right to own private property. 
One of the primary reasons many immigrants come to this country 
is the right to own and control land outright. This initiative 
is just another chink in taking away private property rights 
and a step toward Federal land use control. I know of no 
instance where the government does a better job in the long run 
for managing property than property owners themselves. We need 
less government control, not more. So I encourage you to do 
whatever is in your power to curtail this initiative. 
Withholding funding is certainly a step in the right direction.
    In summary, we do not want another Federal designation, a 
greater Federal presence, enhanced Federal control over our 
waters, and we do not want the government to come up with yet 
another way to spend our taxpayer dollars. Additional detail is 
provided in my written testimony, and I thank you for the 
opportunity to present my comments.
    [The prepared statement of Mr. DeVeny may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. DeVeny. I appreciate your 
good testimony.
    Mr. Ealy, we'd like to hear from you.

      STATEMENT OF DAVID ALLAN EALY, PERRYSVILLE, INDIANA

    Mr. Ealy. Hello, Madam Chairman. I'm from Indiana, for 
those who don't know me here, and I live along the Wabash 
River. I am not a part of any group or organization. The 
grassroots kind of nominated me to come and speak to you 
because they felt I could answer your questions.
    I've heard a lot of comments today, and I'm going to direct 
my time at some of those. First off, in Indiana they talk about 
this thing being a bottom-up. The National Park Service is who 
is behind getting this initiative started in Indiana, and we 
have fought them all along. They took the proposal for the 
American Heritage River to a little environmental group called 
Banks of the Wabash, and when we found out about their meeting 
on June 30, about 40, 50 farmers showed up, and they realized 
it wasn't a good idea to take a vote at that point, they passed 
the initiative on to a non-elected State commission. We already 
have an Indiana State program that is more advanced and more 
aggressive than what they're proposing at the Federal level 
from the White House.
    Anyway, this Wabash Commission then had a meeting and 
decided that they really didn't have the authority to deal with 
this. So they decided to pass it back to the county 
commissioners and try to get their approval to move forward by 
July 16. That didn't happen. The county commissioners either 
said no or they were silent. So then what happened, the Wabash 
Commission decided to make themselves the river, and they 
scheduled three public meetings, and the advertised purpose of 
those meetings was to solicit public input. But no public input 
was allowed.
    What we were given was a 50-minute presentation by 
officials, including the Federal Government. It was a sales 
pitch, primarily, I think, for the media to absorb. And then if 
we wanted to, we could ask questions for 10 minutes about the 
presentation, but we were allowed no input. There was no give-
and-take; there was no opposing viewpoints allowed.
    They were very vague initially as to what was going to be 
involved in this as far as the amount of land. At the Lafayette 
meeting they were also very vague about these new regulations 
and things, again claiming, as we've heard today, that there 
would be no mandates, no new regulations. Finally, a farmer 
asked a question: ``You mean to tell me you're just going to 
hand us all this money with no strings attached?'' And the 
Federal official said, ``Well, of course there will be strings 
attached.'' Now that kind of tells us folks in Indiana that 
there's going to be some regulations. Incidentally, that 
statement's on this tape and I'll put that in as one of my 
exhibits.
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Ealy. Thank you. Down at Vincenze, the question had 
come up at Lafayette as to how much land would be involved, and 
they got very vague at Lafayette, but they were specific at 
Vincenze, and they decided that they would take all of the 
lands of these 19 counties, which is about 4 million acres in 
the initial application. Now this appointed commission has no 
authority over the lands or the Wabash River. They're there 
just to promote the historical, cultural, get people to work 
together, that type of thing.
    As a result of that, the county commissioners have realized 
that, hey, this thing is serious; these people are talking 
about extending their authority well beyond anything that was 
ever given to them by the Indiana legislature, and since that 
meeting 10 counties have issued letters telling their 
commissioners to vote against this thing, when it comes up on 
October 1; 7 counties have said we're withdrawing from the 
State designation, so that they cannot include our county in 
the Federal designation. We'll have three more by the end of 
the week.
    Where this is coming from is the original language that 
came out for this was they were going to restore and protect 
rivers. Well, restore to what and protect from what? And what 
are they going to measure this and how are they going to 
accomplish it?
    They talked about incorporating sustainable development. 
That raised a lot of eyebrows right away in our country, and 
then with the Federal official talking about there would be 
strings attached, people started getting real understanding 
that what they were talking about was creating out of thin air 
a new level of government, a regional planning authority that 
would be a Federal authority and it would consist of this 
Wabash Commission; it would consist of 12 or 13 or 14 Federal 
agencies. There would be a river navigator involved, and there 
would be at least one Federal board involved. And our county 
officials looked at this as an unfunded mandate that was going 
to potentially come down on them and on the State, and of 
course it affects the Congress as well.
    The newest stuff is calling for a clearly defined plan of 
action, and before a legislative services committee a couple of 
weeks ago, the Federal official held up this and said: ``You're 
a plum. The Wabash is a plum because you already this State 
designation, and you already have a clearly defined plan of 
action.''
    Well, this clearly defined plan of action is a warmed-over 
version of our wetlands bill which was rejected by our 
legislature. It has not been approved by our legislature or any 
county government. It includes things like creating a 510-mile-
long greenway, stopping all agricultural runoff into the Wabash 
watershed; transfer taxes; environmental courts--all of these 
types of things, which is a part of the more advanced 
environmental agenda, which of course is not going to get 
through our State legislature, but this could end up being 
implemented as the voluntary plan through our river community, 
this Wabash Commission, and we could end up in court trying to 
fight Federal officials from implementing this or helping them 
implement it. So that's why the counties are opting out. They 
don't want to be any part of that.
    When we got really pushy down at Vincenze and it looked 
like we brought this up, I explained to them that these 
counties could opt out. The Federal official said, well, if the 
commission doesn't vote for this, we'll see if we can get a 
nomination from a lions club or a church. So this idea of a 
community literally is anything; there's no definition of it.
    And it is only the community who can withdraw. I, as an 
individual, if I don't file the application and if the 
community doesn't write some kind of rules for me to get out of 
it, I'm stuck with it.
    Thank you. I support H.R. 1842.
    [The prepared statement of Mr. Ealy may be found at end of 
hearing.]
    Mr. DeVeny. I'm glad you made that clear.
    Mr. Ealy. Yes.
    [Laughter.]
    Mrs. Chenoweth. I am very glad to know that.
    Mr. Ealy, I also wonder if you might introduce your son. 
I've noticed that he's been sitting here through hours and 
hours of testimony.
    Mr. Ealy. Well, I have three sons.
    Mrs. Chenoweth. You have three sons? They have been 
remarkable in this hearing.
    Mr. Ealy. I have Brian over here. He's taking notes for his 
journalism class.
    Mrs. Chenoweth. Brian.
    Mr. Ealy. Benjamin is behind me, and Patrick is in front of 
him.
    Mrs. Chenoweth. That is great. They are very, very fine 
young men.
    [Applause.]
    Mrs. Chenoweth. And you are teaching them well.
    Mr. Schaffer. Madam Chairman, if I may?
    Mrs. Chenoweth. Mr. Schaffer?
    Mr. Schaffer. I was commenting to those youngsters back 
there a little earlier that their behavior during the hours 
they've sat here is far superior to that of Members of Congress 
on the House floor today.
    [Laughter.]
    Mr. Ealy. I have been impressed.
    Mrs. Chenoweth. And even here, Mr. Schaffer. They stuck it 
out, and it's just you and me, Tonto.
    [Laughter.]
    Mrs. Chenoweth. So you are to be commended, and your sons 
are to be commended.
    Carol LaGrasse, it is so good to see you again, and 
welcome. Please proceed.

  STATEMENT OF CAROL LaGRASSE, PROPERTY RIGHTS FOUNDATION OF 
                 AMERICA, STONY CREEK, NEW YORK

    Ms. LaGrasse. Thank you, Mrs. Chenoweth. Thank you for the 
honor of testifying today.
    My name is Carol LaGrasse. I'm the president of the 
Property Rights Foundation of America in Stony Creek, New York. 
That organization is a grassroots, nationwide organization 
dedicated to preserving, in all its fullness, the fundamental 
human right to own private property, as guaranteed in the U.S. 
Constitution.
    I'm a retired Stony Creek elected councilman and also a 
retired civil and environmental engineer. For the past 4 years, 
I have been studying the National, or American, Heritage Areas 
(or Corridors) and exposing the grandiose scope of this program 
and its implications for private property rights and local 
representative government. Now the President has pronounced the 
American Heritage Rivers program.
    Around the countryside where I live in upstate New York or 
down in New York City or on Long Island, where I originally 
hail from, no one has told me that they're looking for an 
American Rivers Heritage Program or for any element of the 
program, as defined in any of the written documents. And on the 
other side of the coin, many people have called the Property 
Rights Foundation of America from the States of Washington and 
California, to the midwestern States of Indiana and Minnesota, 
to the eastern States of Maine and Virginia, and many more, for 
help to block the program.
    The American Heritage Rivers program is of great national 
concern. Because of the widespread fear, I've been invited to 
speak numerous times about the American Heritage Rivers program 
on Radio and TV talk shows, and have in fact received more 
requests to speak about this topic than any other topic during 
the year.
    After 3 years of successful grassroots private property 
rights opposition to the National, or American, Heritage Areas 
program in Congress, the Clinton Administration has pronounced 
this, a very similar, but more ambitious, in my estimation, 
program unilaterally through the rulemaking or Executive Order 
process. Of course, everybody knew that, no matter how much the 
wording was watered down in the American Heritage Areas 
program, it was designed to bring the National Park Service 
into local zoning and to transfer land ownership to government. 
This is the mentality and future people are afraid of, and I am 
not ashamed to use the word ``fear.''
    Now I have to add some remarks about New York and get to 
the home territory because there were some statements which I 
think were misleading today. In New York's Hudson Valley, 
contrary to the impression left by Mr. Babbitt, Mr. Hinchey, 
and Mr. Miller at the July 15th congressional hearing, there is 
widespread opposition still remaining to the National Heritage 
Areas Program. People still don't like it in connection with 
the Hudson River Valley designation, however successfully it's 
been completed. And I've attached to the testimony two items 
that demonstrate the continuing opposition.
    The first is a statement by one of the active local 
citizens' groups, the Coxsackie Awareness Group, which was 
printed in the New York Property Rights Clearinghouse published 
by this organization, and explains that the local people oppose 
the program as another potential infringement on their private 
property rights.
    Now this group which authored the letter that we published 
had gotten started because it successfully defeated a local 
town zoning program that came down over a period of 25 years 
from the passage by Congress of the Federal Coastal Zone 
Management Act.
    The second item I'm enclosing is a recent letter to the 
editor by a Hyde Park resident in opposition to me personally 
and the Property Rights Foundation. The writer mentions a 
meeting that was a forum by the Columbia County Planning 
Department, where I was one of six speakers. The other five 
were government speakers in support of the Hudson Valley 
National Heritage Area being completed. You may recall that the 
Solomon portion was left out, and it was later added.
    There was $10 million in pork barrel that was concerning 
these speakers, as well as the environmentalists who were 
included in the six. The writer of this letter states that his 
group needs Federal funding because of the problem, as he calls 
it, to him, and now I quote, ``The majority of the standing-
room only audience appeared to be supportive of her'' [meaning 
Carol LaGrasse's] views.''
    Now, the Council on Environmental Quality has represented 
the American Heritage Rivers Program as an honor and ombudsman. 
I'd just like to make the statement that, at most, the honor is 
a very minor feature of the program. Neither is the ombudsman 
an adequate explanation, as Ms. McGinty has said repeatedly.
    There are no proposed rules applying to any of these 
agencies describing how they could possibly be expediting 
processes or relaxing enforcement. Those are to me the two 
elements of an ombudsman. Neither one is ever elucidated.
    Today there was some testimony from the Honorable 
Congressman from Pennsylvania that in the Northeast there is a 
need for this program because our rivers are deteriorating. 
Well, the truth of the matter is that in the State of New York 
the Hudson River, which will be considered, including the 
Champlain Valley all the way to the Montreal border (if you 
want to go into the Jeffords plan), the Hudson River Valley was 
once very heavily farmed and industrialized. The shores were 
punctuated by wharves and all sorts of industries, but now it's 
grown up in forests, and it certainly doesn't need to be 
restored to any kind of a natural heritage that's maybe pre-
colonial. It's really changed quite a lot in the recent 50 
years.
    Another remark was made that the myriad of local planning 
departments in states like Pennsylvania--and New York which is 
a very similar state in its governmental structure--aren't 
``professional''; local government isn't ``professional'' 
enough. Well, we have very professional planners in New York, 
and where we don't have them on staff as government-appointed 
officials, we're required to hire them as very expensive 
consultants. So we really are very adequately professionalized 
in our government, even dismayingly so.
    The heart of each application for designation is a very 
elaborately stated planning plan for the future of the entire 
river and the land along it. That's the point of concern. The 
confusing description of the program seems to denote some kind 
of a plan to coordinate a number of important, powerful Federal 
agencies under a new national commission established for the 
purposes of the program at each designated river, in order to 
meet a plan of action to protect the river, which is nebulously 
defined as a ``community'', and apparently this is being worked 
out in conjunction with the Federal Government to define this 
community and this plan.
    Now a federally appointed ``riverkeeper,'' as you know, for 
each American Heritage River coordinates with the community and 
all of these Federal agencies. It seems to me that a plan, 
judging by how planning takes place in this nation these days, 
a plan for each river is presumably one that will further 
restrict the use of land and water to protect nature and 
someone's idea of historical importance.
    Now this new body, the American Heritage Rivers Interagency 
Committee, includes the heads of 12 agencies, as you know, from 
the Defense Department to the National Endowment for the 
Humanities. The primary agencies--the Environmental Protection 
Agency, the U.S. Fish and Wildlife Service, the Corps of 
Engineers--are ones that are historically trampling on private 
property rights. So it seems to me that this program of more 
efficient coordination of Federal enforcement agencies sounds 
like a juggernaut--the opposite of an ombudsman.
    In my estimation, the practical meaning and future of the 
American Heritage Rivers program is to likely pan out something 
like this: The planning process will be led by Federal agencies 
and preservation groups which are hostile to private property 
rights and will be dominated by professionals, 
environmentalists, economic development types who are experts 
in the government gravy train who will go the rounds in each 
river area. Over the years, even 5 to 20 years, of quasi-
voluntary partnership programs and mandatory programs of 
varying nature around the U.S.----
    Mrs. Chenoweth. Mrs. LaGrasse, would you be able to----
    Ms. LaGrasse. Oh, I'm sorry, I should be done, and I am 
done.
    Anyway, it will pan out in that way, with all of these 
planning programs, and there will be stumbling blocks to local 
government as responsive to the local populations and problems 
for private property owners.
    I would just like to say that the Property Rights 
Foundation of America obviously supports your bill, and 
appreciates your bill, and appreciates the opportunity to 
testify today.
    Mrs. Chenoweth. And we appreciate your being here, too. 
Thank you very much.
    And the Chair recognizes Mr. Schaffer for questions.
    Mr. Schaffer. Thank you, Madam Chairman.
    Commissioner Ross, looking through the watershed projects 
in Coos County and some of the other projects that you 
mentioned, I just have a pretty simple question. In contrast to 
the statements by some who believe that the only way you can 
engage in water-related projects, river projects, is with the 
Heritage Rivers Initiative, I just want to know, how did you 
get all this done without the Federal Government and without 
the Heritage Rivers Initiative?
    [Laughter.]
    Mr. Ross. We would have gotten farther without them.
    [Laughter.]
    Mr. Ross. Excuse me. Mr. Schaffer, Madam Chair, I started 
with a small group of foresters and fishermen. We call 
ourselves the Coquille Forestry and Fishery Alliance, and we 
were looking at ways to solve the problems that some people 
felt were opposed to each other, and there are still people 
that try to drive wedges between our resource users in Coos 
County, but we brought these resource users together, and we 
did it years ago. Different programs that began in Coos County, 
the Salmon and Trout Enhancement Program, the Adopt-a-Stream--
these all started in Coos County with people that are 
interested in fisheries and the resource issues that are very 
near and dear to us there. And so we've been able to work with 
the farmers, with the loggers, and with the fishermen. Our 
loggers all fish, too. Our farmers fish. And our fishermen 
appreciate the efforts that the other industries, the resource 
industries, have come together to help what is their 
livelihood--our commercial fishing industry as well as our 
sport fisheries.
    So I guess we've just been lucky that people have enjoyed 
working together, and we've had some good leadership at 
different times. Different people in the community spearheaded 
these. It's hard to define where it started, but it started 
with individual people. It didn't start with a government 
person. It started with people in the community that saw a need 
and spearheaded something, and then got the resources together.
    Mr. Schaffer. You are not the reason the Federal Government 
believes we need to have a Federal agent coordinate these 
projects?
    Mr. Ross. Pardon?
    Mr. Schaffer. So you are not the reason, then, that the 
Federal Government believes that it needs a Federal employee to 
coordinate these projects?
    Mr. Ross. I hope I'm not the reason.
    Mr. Schaffer. OK.
    Mr. Ross. I'd get recalled at home.
    [Laughter.]
    Mr. Schaffer. Thank you, Madam Chair.
    Mrs. Chenoweth. Thank you, Mr. Schaffer.
    I wanted to ask Mr. DeVeny, did you let the Federal agents 
on your property----
    Mr. DeVeny. No.
    Mrs. Chenoweth. [continuing] to survey the stream?
    Mr. DeVeny. Yes, Madam Chairman, I did not--I had a little 
discussion with one of them the next morning, and when he was 
telling me what he was--or how he was going to use it, and so I 
said, no; I said, ``I just can't let you do it.'' So he said, 
``OK, we won't look at you, but we'll go up above you,'' which 
is Federal land. It is Forest Service, and it is a long, long, 
hard walk around on either side.
    [Laughter.]
    Mrs. Chenoweth. And could you also repeat for me, very 
quickly, what the response was in Louiston with regards to this 
designation?
    Mr. DeVeny. Which designation?
    Mrs. Chenoweth. The American Heritage Rivers Initiative. 
Was there an invitation?
    Mr. DeVeny. No, there was not. I was not present, Madam 
Chairman, but from what I hear from the locals, no, there was 
no sympathy whatsoever for it.
    Mrs. Chenoweth. Mr. Ross, in your written testimony you 
state that one of your cooperating landowners was charged with 
discharging pollutants into the waters of the United States. 
What exactly was that, and what was that it he supposedly 
discharged? What did he do? And how serious was this charge?
    Mr. Ross. Madam Chair, he was part of one of our 
coordinated resource management programs for Larson Inlet. He's 
a dairyman on Larson Inlet. He's a fellow that loves to fish 
and loves to do things for the fish, and part of the program 
had come up with the need to take the sediment out of Larson 
Inlet, and he had been waiting for 2 years to get through the 
permit system, and then we had a big storm and it just--he just 
finally concluded that he and fish, neither one, could wait for 
a permit from the Corps of Engineers, and he dug the whole 
thing out, and it was turned over to the EPA, and they charged 
him with discharging pollutants into the waters of the United 
States.
    Now we thought he took the pollutants out of the waters. 
This confused us. But the waters was his farmland, you see, 
because this might be jurisdictional wetland, and none of us 
qualify there for a prior converted farmland. So what we have 
is wetland pasture.
    And the pollutant was the material coming out. Now the 
interesting thing--and I explained it to the EPA before and we 
did get them to turn it back over to local resource people to 
work with him to mitigate this horrible offense, which did 
everything a world of good, the fish included. I explained to 
him it would be an interesting prospect to go before a Federal 
judge and have one of your people on the witness stand and come 
with two buckets of dirt, and have you identify which one of 
them is the waters of the United States and which one's the 
pollutant, because they'd be exactly alike. Both are erosion 
from the very same watershed. One formed the land over the 
years, and the other is what stuck in the creek that year and 
took out and put on the land.
    But this is a serious offense. This person in Meyersville, 
Pennsylvania a few years back that was an immigrant from 
Poland, he was charged with this same thing because, after 
years of working as a mechanic, he was able to realize the 
great American dream, and he bought a garage and a wrecking 
yard, and he got rid of all the wrecked automobiles, and in an 
EPA-approved manner, got rid of a whole stack of tires, and he 
went into the garage business for himself, and he put up a sign 
that said: ``Fill dirt wanted.'' Well, while the tires were 
there, they had plugged up a culvert and a couple of skunk 
cabbages had grown. So he was arrested also for polluting, for 
polluting the waters of the United States, and he served 3 
years in a Federal penitentiary, and was fined $206,000. And I 
met his daughter a few years ago on the steps of the Capitol in 
a fly in for freedom back here; she was trying to get her 
father out, and I had read about this in the Reader's Digest 
already. So I knew what----
    Mrs. Chenoweth. And what----
    Mr. Ross. This person had a very serious charge, and we 
worked to get that turned back to the local people and the 
local Corps of Engineers, to work with him on some side-rearing 
ponds and do some mitigation, and get out from under this, or 
I'd have had a neighbor in the Federal penitentiary probably by 
today.
    Mrs. Chenoweth. That was John Pasquis? Was that John 
Pasquis or was that----
    Mr. Ross. No, the person--oh, I think that's the name of 
the person from Meyersville. I believe that was his name.
    Mrs. Chenoweth. Yes, he was one of my clients, and he was a 
Hungarian immigrant, a freedom fighter who was--who had an 
admirable reputation as being a freedom fighter from Hungary, 
and escaped to America, the land of the free and the home of 
the brave, and this is how we treated him. I could spend all 
evening on this case, but, anyway, thank you very much.
    And, Mr. Ealy, I wanted to ask you, what has been the 
response of the Indiana State legislature in the designating of 
the Wabash River in the American Heritage Rivers Initiative?
    Mr. Ealy. Our legislature right now is out of session. So 
what we hear from them we hear over the telephone or in 
different meetings. Some of them are saying they've looked at 
the Kentucky resolution and they want to put something like 
that in Indiana law, which forbids anyone from seeking 
something like the American Heritage Rivers Initiative, because 
that properly is within the jurisdiction of the State 
legislature. If the Indiana people wish a designation like 
that, they should petition the State legislature.
    An interesting response was the original representative who 
actually wrote the bill that created this. He happens to be my 
representative. He's a Democrat. He went before the Legislative 
Services Committee a week or two ago and asked them to put out 
an immediate letter, even though they were out of session, 
telling the county commissioners to oppose it. He also 
lambasted, opposed, the American Heritage Rivers Initiative. He 
also lambasted the commissioners who where there, including the 
president of the commission, and explained to them that we had 
concerns when we established this State designation that it 
could impact property rights. We put protection within the law, 
within the code, to make sure that that never happened. We gave 
you no authority over land use or over the Wabash River. You 
are ignoring those protections. And when the legislature gets 
back in session, we're going to deal with that.
    So we have bipartisan opposition in Indiana to this idea of 
a Federal designation or this commission exceeding their 
authority. I had another senator who said, if they do this, 
we'll sue them all the way to the Supreme Court. I'm not sure 
how he could do that, but that's what his comment was.
    Mrs. Chenoweth. I also--I might suggest from the Chair that 
they might also, as Congressmen, opt out for their districts of 
the program, as we did today for Idaho.
    Mr. Ealy. Now are you talking about State or Federal?
    Mrs. Chenoweth. The Federal, the American Heritage----
    Mr. Ealy. OK. At the Federal level--I was speaking of the 
State--at the Federal level, we have two of our Congressmen who 
have come out vehemently opposed, and two who are somewhat 
opposed. So we need to work on them a little bit.
    Mrs. Chenoweth. Good, good. Mrs. LaGrasse, you heard Lois 
Van Hoover talk about the same American Heritage Rivers 
Initiative Program being used in Canada. Have you heard about 
this, the Laquois River?
    Ms. LaGrasse. No, I haven't heard about it, I'm sorry.
    Mrs. Chenoweth. OK.
    Ms. LaGrasse. I can't comment on that.
    Mrs. Chenoweth. All right. Well, I want to thank the panel 
very much for your fine testimony and for your great patience 
today, and the Committee may have further questions for you in 
writing and I would appreciate if you could have your answers 
back to us in 3 weeks. Thank you very much.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. The Chair now calls the final panel: Mr. 
David Bright, Sr., from Harrison, Arkansas; Mr. Peter Samuel 
from the Schuylkill River Greenway and Heritage Corridor in 
Wyomissing, Pennsylvania; Dan Blomquist, Montanans for Multiple 
Use, Kalispell, Montana; Linda Bourque Moss, Western Heritage 
Center, Billings, Montana, and Reginald William Nelson from 
Richmond, Virginia.
    Would you remain standing and raise your right arm, please?
    [Witnesses sworn.]
    Mrs. Chenoweth. Mr. Bright, I wonder if you can open with 
testimony.

     STATEMENT OF DAVID L. BRIGHT, SR., HARRISON, ARKANSAS

    Mr. Bright. Yes, thank you, Madam Chairman. I submitted 
quite a bit of testimony, and some of it was the rage we felt 
for 25 years, and I'm not much of a writer, so I've done some 
more here to get it down to 5 minutes.
    But, as I listened today, you had very good witnesses on 
the American Heritage Initiative. So what I'd rather talk about 
is how a Federal river worked for us.
    And it was something that Mrs. Yturria said, and I hope I 
got that name right, but she said Washington had finally gotten 
it, she thought. And I would really have liked to have told 
her, they got ours 25 years ago. It was called the Buffalo 
River; it's now a national river, and it was the first national 
river.
    And I'm hearing the same terms today that we heard back 
then. The Forest Service rangers come to our community church 
in about 1970 to explain this program to us, and they said they 
only needed about 50 foot up the bank for a national river. 
That's all they really needed. Nobody would be moved from their 
homes. Those were all rumors, you know, about taking land and 
stuff; that the benefits would far outweigh losing that river, 
because we were going to have tourists flooding in, and I'm 
hearing that same stuff today, and I just want to tell you how 
it works.
    There's no old folks--my community is totally gone. All the 
people were moved off; the houses were burned or dozed down or 
hauled off. No old folks died on their place, like they said. 
In my community the park boundaries are probably three to five 
miles wide, not 50 foot, and I just want--I'm hearing this same 
stuff today.
    And I want to mention about the partnerships. We've seen 
these same partnerships, Federal and State and NGO's, on the 
biosphere nomination. We've seen them on stream teams this year 
when they developed them in Arkansas, the same people, Federal 
and State and NGO's. We're seeing them now--now we're hearing 
about--on this--partnerships, and I'm going to tell you, Madam 
Chairman, to us it looks a lot more like gang activity than it 
does partnerships.
    There's no way to ever--and another thing we've heard here 
today, and we hear it on all of them, is customs and culture 
and heritage. Now let me tell you how they protected my 
community. We're talking about communities. I don't know what 
this community is because evidently you can be a community if 
you're a few people, and you can designate 200 miles of river. 
But I want you to remember what happened to my community, and 
they were going to help it, too, and it's gone.
    My church house is now an eco-tour destination, and the 
cemetery where I buried my daughter is, likewise, an eco-tour 
destination. The cemetery, because of the Civil War graves of 
that era there, those people had lived on that land forever; 
the government patented those people that land. I guess we're 
supposed to believe the government giveth and the government 
taketh away, because that's what they did.
    But if you come to my county, you'll see what tourism has 
done for it. We had a Dog Patch USA Park three miles from the 
Federal park. It's bankrupt and closed, and has been for years. 
It went bankrupt three or four times. It sits on our main drag, 
which is winding, two-lane, no-shoulder, scenic U.S. byway. So 
that's our highest traffic density.
    And I just want you to come and look around my square. We 
have about 7,000 people, or thereabouts, in my county. Come 
walk around the square that was supposed--see if you see any 
highrise motels or any hiking store supplies. Come and look. 
The Federal Government park--I'm not aware of them hiring any 
locals, but they may, to haul trash off or something. They've 
taken 41,000 acres of our very best farmland, our bottom land. 
We've been exiled in our county to ridgetops and hillsides, and 
Madam Chairman, they're after it. They want the whole 
watershed, which is what we've got left on those ridgetops.
    There's 197,000 acres also of forestland. We're under an 
ecosystem assessment, another partnership, by the Forest 
Service. This year they offered for sale 281 acres to cut for 
timber. Now I don't cut timber. I'm a real estate broker, but 
the southern part of my county--and my county coffers depend 
heavily on the Federal Government, and I believe it's their 
responsibility, when they have that much of our land base, to 
provide some jobs and opportunities for our people.
    Deer School sits down on that forestland and they're losing 
kids. The population's going down. Those people are driving 60 
miles to pluck chickens, people that used to work in the woods, 
and there's nothing wrong with plucking chickens; don't get me 
wrong. I mean, it's honest work, isn't it? But those people are 
moving out because they can, for what it costs them in gas and 
wear and tear on their vehicle, and the fact that they spend 4 
hours a day driving away from their family to have a job--they 
can make payments in Carroll County, and that's where they're 
doing that. And we're losing families.
    Madam Chairman, they call this stuff ``honorary.'' I'm 
going to tell you, we've got--we've had a sackful of 
honoraries. We've got two Wilderness Areas. We've got Scenic 
Trailways and Byways. Every stream that runs 3 months of the 
year is now a Wild and Scenic Riverway. We have--I'm going to 
tell you, we've had so many honors that we can hardly cope. If 
we get one--every time we get an honor, we lose families and 
jobs, and we have had all the honors we need.
    There is a bill up here, and I think it sits in your 
Committee, that mentions Newton County again by name. The last 
thing we want to do is you people up here to even know where 
we're at. You've found us so many times that, when you mention 
us by name, we go to shaking. We've got a little bit of people 
left, and we really just want to be left alone with the lands 
you've left us and just live. Is that possible any more in 
America? Can we own anything? Is there anything sacred that we 
can own that you can't take? An acre? A stream? Anything? You 
know, we've just had just too, too much honor.
    And I'm begging you--I support your bill, and I don't want 
you to think I'm one of those right-wing radicals, but there 
are many of my heroes that sits on this panel, and I want you 
to know that. And I appreciate the two that stayed all day; I 
really do. And we have some hope that maybe there will be some 
sensibility again because of these kind of bills, and H.R. 901, 
which we supported heavily, obviously, last year, that as an 
American ought to make everybody cringe and cry that we even 
need to introduce a bill like that, but, second, and even 
worse, that you can't get two-thirds of the people up here to 
vote for it. And we're watching H.R. 901 with some interest.
    I know you're not here to talk about H.R. 901, but I wanted 
to--I took my first plane trip to come here, and I wanted to 
throw my two cents in while I was here.
    [Laughter.]
    Mr. Bright. Thank you, Madam Chairman.
    Mrs. Chenoweth. I appreciate that, Mr. Bright, and I 
appreciate your entering the tragic story about your community 
in the record. Thank you for being here and for waiting so 
long.
    Mr. Bright. Thank you, Madam Chairman. I forgot--could I 
enter--would you entertain entering this? This is the testimony 
and kind of stuff put together by a county judge, and he wanted 
you to know that the Park Service is not the best neighbors 
that we've ever seen. And he sent this up here with me, and if 
I could entertain you to enter what portions you want or take, 
and look it over, I would really appreciate that.
    Mrs. Chenoweth. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you, Mr. Bright.
    The Chair recognizes Mr. Samuel.

   STATEMENT OF PETER SAMUEL, SCHUYLKILL RIVER GREENWAY AND 
          HERITAGE CORRIDOR, WYOMISSING, PENNSYLVANIA

    Mr. Samuel. Thank you. I'm Peter Samuel. I'm the director 
of the Schuylkill River Greenway and Heritage Corridor, and on 
behalf of that group, its partners, and community 
organizations, I want to thank you and the members of this 
Committee for the opportunity to provide testimony in 
opposition to H.R. 1842.
    We are opposed to H.R. 1842 because we believe the American 
Heritage River Initiative will provide opportunities and 
benefits to our region in southeastern Pennsylvania. The 
Schuylkill River Greenway Association is a membership 
organization which has been working with citizens and community 
groups and a host of other partners up and down the river for 
almost 25 years to promote the river resources and advocate 
their protection.
    In the 1990's we went through a process to develop a 
management action plan for the Schuylkill as a Heritage 
Corridor, and in 1995 the Schuylkill River Corridor was 
designated by Governor Tom Ridge as Pennsylvania's seventh 
State Heritage Park.
    We in the Schuylkill watershed, including conservationists, 
elected officials, municipal governments, landowners, 
recreationalists, industry owners, and more, are very much 
interested in the American Heritage River Initiative because it 
will provide an excellent chance for the widest range of people 
to take new pride in their river. It will enable us to work 
with the Federal Government as a partner in efforts to improve 
and restore the resources associated with the Schuylkill.
    The goal of the American Heritage Rivers Initiative is to 
support communities within the existing laws and regulations by 
providing them with better information, tools, and resources, 
and by encouraging local efforts deserving of special 
recognition. This is precisely the kind of assistance the 
Schuylkill River Greenway Association needs. This will help 
people better understand how to access existing Federal 
resources.
    Let me provide a little background on the Schuylkill River 
Valley. You heard about the Delaware River a little bit today. 
We are a close associate of the Delaware.
    The Schuylkill River flows through some of the most 
historically significant land in the United States. The river 
itself extends 128 miles from the mining region of Schuylkill 
County through four other counties and into the city of 
Philadelphia, where it links up with the Delaware. It comprises 
three national parks, many acres of State park and gamelands, 
widespread residential development, agriculture, industrial 
towns, and private lands.
    By the 1770's, Philadelphia had become the hub of America's 
revolutionary activity. It was the site of the First and Second 
Continental Congresses, the birthplace of the Declaration of 
Independence. It was along the Schuylkill in the winter of 1778 
that General Washington and his troops camped in Valley Forge, 
before the turning point in the Revolutionary War.
    By 1900, the use of anthracite coal from Schuylkill County 
to power industry caused a total transformation in the valley. 
During this period, the entire river valley functioned as an 
interlocking series of industrial engines, and Philadelphia 
became a national leader in industry. All this growth and 
development of communities and industries was not without 
consequence. By 1927, it was estimated that there was 38 
million tons of coal silt in the river. The river was so 
polluted that it had essentially lost its value as a river. The 
canal system was no longer navigable. The drinking water had 
seriously been degraded.
    The river has been making a slow comeback. In the 1970's, 
the Schuylkill River Greenway Association was formed to begin 
advocating the protection and health of the river and its 
tributaries. The Schuylkill was designated by the State 
legislature as Pennsylvania's first scenic river in 1978. After 
an extensive 3-year planning process which involved 
representatives from each of the five counties and the public 
and private sectors, the Schuylkill Heritage Corridor was 
designated as a Pennsylvania Heritage Area.
    The Schuylkill River Greenway Association, which had many 
years of experience working with partners throughout the 
corridor, expanded its mission to include increasing 
recreational opportunities, conserving cultural and historic 
resources, encouraging regional cooperation, attracting 
tourism, and generating jobs and permanent economic benefits.
    Since I became the director of the Schuylkill Corridor, 
I've realized that there are Federal agencies in our region 
which have programs that could provide assistance to our 
various communities. The Army Corps of Engineers has indicated 
an interest in transforming the de-silting basins into 
wetlands. The Environmental Protection Agency has funds for 
creating riparian buffers along the tributaries. The National 
Park Service can provide greenways and trail planning. Fish and 
Wildlife is interested in the development of fish ladders along 
the many dams, and there are probably many others.
    My information about these potential programs has been 
haphazard, almost accidental, but if the Schuylkill River is 
designated as an American Heritage River, information about all 
these programs could be made available as a coordinated package 
of services. The Federal Government would begin to work for us. 
People have called for a better, smarter, more coordinated way 
to work with the Federal Government. The American Heritage 
Rivers Initiative seeks to coordinate these existing 
authorities in a more efficient and complementary way, and 
proposes that assistance from the government will come at the 
request of our community.
    There is no existing system to provide communities with a 
coordinated package of Federal services. In fact, there is so 
much lack of coordination, it is very possible that within one 
very small agency, such as the National Park Service, that more 
than one department or division could be involved with the same 
project, and they'd never know what the other is doing. If what 
is being proposed by the American Heritage Rivers Initiative 
comes to fruition, it will be a major advance for government.
    I'm not talking about more government, not more 
regulations, not more interference. I'm talking about 
coordination, organization, and responsiveness. I'm talking 
about better government, ideal government--one that is there 
when you want it and one that provides a coordinated strategy 
of services that will be truly helpful.
    The American Heritage Rivers Initiative will allow for 
recognition of the contributions of ordinary people in the 
significant regions of our Nation. The Schuylkill Heritage 
Corridor provides a framework for all types of people to take 
pride in their community, understand their history, and work 
together to enhance the quality of life for their children. We 
are treating our history and heritage as one of our greatest 
resources. The American Heritage River Initiative will allow us 
to build on that and ensure that the present and future is 
successfully linked to our past.
    Thank you. I would also like to provide for the record a 
letter from the National Trust for Historic Preservation and an 
attachment, if I might.
    [The prepared statement of Mr. Samuel may be found at end 
of hearing.]
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Without objection, so ordered.
    Mr. Samuel, I want to thank you for your testimony very 
much.
    Mr. Samuel. Thank you.
    Mrs. Chenoweth. Mr. Blomquist, it is very good to see you 
again.

    STATEMENT OF DAN BLOMQUIST, MONTANANS FOR MULTIPLE USE, 
                       KALISPELL, MONTANA

    Mr. Blomquist. Thank you.
    Mrs. Chenoweth. Welcome to Washington. We will entertain 
your testimony.
    Mr. Blomquist. Thank you, Madam Chairman. Yes, I'm 
president of Montanans for Multiple Use, a grassroots 
organization with five chapter groups spread throughout the 
State of Montana, and, yes, it's good to see you again. I 
remember the first time that I met you there up in Kalispell, 
where we were talking about forest access, and as I started to 
talk about my personal experience with forest access--and I'm 
going to do it again here in a second--I ended up crying about 
it, and you said, ``I wish that all of Congress could have seen 
that.'' Well, I thought this was where they were going to be.
    [Laughter.]
    Mr. Blomquist. So it's bad that there is so many demands on 
other people's time today.
    One of the first things that I want to bring up is that our 
county commissioners, both for Flathead County and Lincoln 
County, which is most of northwestern Montana, they cover an 
area of probably bigger than a couple of States back here. Both 
of them have unanimously signed resolutions that they do not 
want the American Heritage River; they don't want any part of 
it. If it's introduced, they will not participate. They will 
not allow it into their counties, and those are in the written 
record there. So I also know that they're working with other 
counties within the State of Montana to come up with the same 
thing.
    I've rewritten this thing about 27 times today because I 
keep hearing just gross inaccuracies. Ms. McGinty, she makes 
lots of promises, but follows through, in my personal 
experience, on very, very few. She spoke at the Western States 
Coalition Summit Meeting in July 1997 in Spokane, Washington, 
and I'm going to have to paraphrase this a little bit, but she 
said something to the effect of she would like to trust people, 
but she can't always trust people to do the right thing. Well, 
apparently, she has reasons to believe this because she didn't 
follow through and do the right thing, and put into the--the 
promises made at that meeting, put them into the documentation 
in the final deal of the American Heritage Rivers Initiative.
    She specifically said, and I asked her again today--I 
walked over here to the side of the room and asked her--I says, 
``In Spokane, you said that a private property owner could opt 
out of the American Heritage Rivers Initiative if they so 
desired.'' And she says, ``No, I said a community.'' And I 
says, ``No, you were specifically asked the question and you 
said that a private property owner could opt out of it.'' 
There's many other instances throughout there that she's done 
the same thing.
    And I tried to explain to her that it's this kind of 
vagueness, this kind of saying one thing one time and doing 
something else--her response to me was, ``Well, it's our 
intentions to make government better.'' Give me a break. All 
your actions, everything that you've done has said exactly the 
opposite.
    Now something that doesn't have anything to do with 
American Heritage Rivers, but it has to do with rivers and 
water qualities--I have a book here--Congressman Hill has a 
copy of this, if you'd like to see it, and if you would like to 
have a copy, I will get it to you, if you will let me know 
about it. This is water quality money that was set aside to 
reduce sedimentation in the streams. This is full of pictures 
of what happened when the Federal Government got involved in 
removing culverts for the sake of closing roads on the Flathead 
National Forest. One stream, two culverts, 80 tons of sediment 
into the stream because of what they've done. That's one of the 
hazards you run into when you take moneys from one program that 
are set aside to do something and divert them over here to do 
something totally different. You run into these kind of 
problems. Now they have no money to fix it.
    Mrs. Chenoweth. Mr. Blomquist, let me ask you, would you 
like that to be a part of the record?
    Mr. Blomquist. Yes, you can have it, sure.
    Mrs. Chenoweth. Thank you. So ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Blomquist. OK. We have one--in fact, Ms. Moss will 
speak to this, and we have one river that's proposed for 
listing in Montana, Yellowstone River, and I had heard a lot of 
things about what the proposal was. So I asked her today 
specifically what it was, and it's to bring out the history of 
the river and have little sites along, kind of a walk-down-
memory-lane. And surprisingly, I support that, but I do not and 
cannot support the American Heritage Rivers Initiative.
    This is a way--I don't think that she really understands--
or not her personally, but the committee that's down there--
really understands what happens when you start working with the 
Federal Government. I can't outdo Mr. Bright over here, but 
we've got the spotted grizzly bear; we've got the spotted gray 
wolf; we've got the spotted bull trout; we've got National Park 
Service; we've got 78 percent of our county is administered by 
the Federal Government, and we know what kind of partners they 
are, and it ain't the best ones in the world.
    I would have the opportunity to come here today for a 
little different reason than what most people have had. We 
didn't have the money to come here. I didn't have it 
personally; my organization didn't have it. But when I was 
invited, I started asking people and organizations from all 
over the State of Montana. That was a very humbling thing for 
me to do--to go around with my hand out and ask for donations 
to get here. And the response was just overwhelming.
    And I always think of Isabelle Fratt, who called me and 
says, ``I'm so sick of what the Federal Government's been doing 
to us. I can't send much, but could I please have your address 
and send you $10 to help you get to Washington, DC?''
    Excuse me. I'd better go back to reading something so I can 
get through this.
    The gentleman from Pennsylvania said this morning that the 
Northeast has led the way in independence. Well, the ancestors 
from the Northeast moved to the West, looking for the same 
things: independence and liberty. And for 150 years, they've 
taken care of the places like Montana, so that they're still 
the last best place. We are still leading the way for freedom 
and liberty, and we don't want a river rammed through it.
    Thank you.
    [The prepared statement of Mr. Blomquist may be found at 
end of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Blomquist. I appreciate your 
testimony. And can you give up another notebook for the record?
    Mr. Blomquist. Pardon?
    Mrs. Chenoweth. Can you give up another notebook for the 
record, the exhibit there?
    Mr. Blomquist. Yes.
    Mrs. Chenoweth. All right, good. thank you.
    And the Chair recognizes Linda Bourque Moss, and thank you 
for your patience, Ms. Moss. We welcome your testimony.

   STATEMENT OF LYNDA BOURQUE MOSS, WESTERN HERITAGE CENTER, 
                       BILLINGS, MONTANA

    Ms. Moss. Thank you. Good evening, Madam Chairman and 
members of the Committee. My name is Lynda Bourque Moss and I 
am the director of the Western Heritage Center, a regional 
museum located in Billings, Montana. Founded in 1970, the 
Western Heritage Center is a museum dedicated to interpreting 
and reflecting Yellowstone River Valley life. I am here this 
evening to present the background of a regional project of the 
Western Heritage Center, the Yellowstone Heritage Partnership, 
and to relate our regional interest in support of the American 
Heritage Rivers Initiative. I am here today with the 
encouragement of the Yellowstone County commissioners, the 
Western Heritage Center board of directors, and supporters of 
the Yellowstone Heritage Partnership. I'm just going to 
summarize my written statement for you.
    Several years ago the Western Heritage Center began two 
projects: one called Our Place in the West, which was a long-
term exhibit and oral history projects, and public programs, 
and publications that looked at living in the Yellowstone River 
Valley from the perspective of residents. We also embarked on 
another project called The Real West: Farming and Ranching 
Families of the Yellowstone Valley.
    With both of those projects, we visited people. We were in 
kitchens and back yards of farmers and ranchers throughout the 
Yellowstone Valley, getting their sense of their history and 
perspective of this remarkable region. Many of those people 
were very interested in continuing this history project. We 
worked with small, local museums. We looked at their artifacts 
and collections, and saw that there was a remarkable wealth of 
information within the Yellowstone region. Out of this dialog, 
we saw that there was a need to develop a regional partnership, 
and in 1996 the Western Heritage Center became the lead 
organization for the Yellowstone Heritage Partnership.
    For the Yellowstone Heritage Partnership, we focused on the 
Yellowstone region, which involves Montana, northern Wyoming, 
and western North Dakota. To begin building support, and the 
process to establish this partnership, we requested technical 
assistance from the RTCA program, which is with the National 
Park Service.
    For that assistance, we enlisted the support of counties 
and all types of nonprofit organizations and museums throughout 
the Yellowstone Valley. We had over 40 letters of support for 
that application. One of my favorite letters came from McKensey 
County in North Dakota, and they even called me and said, ``We 
are so pleased that you're including us in this regional 
project. We've always felt that we are part of the Yellowstone 
Valley, and in western North Dakota oftentimes we go 
unnoticed.''
    In January 1996, the Western Heritage formed an advisory 
council, and that was comprised of many individuals that sent 
in letters of support. And we have letters of support from that 
from county commissioners throughout this region.
    The Yellowstone Hertitage Partnership advisory council 
includes representatives from Federal, State, and local 
agencies, museums, colleges. The Crow and Northern Cheyenne 
communities have representation on our advisory council. 
Agriculture, recreation, and natural resource management 
organizations in Montana, northern Wyoming, and western North 
Dakota are involved. We have three appointees from each of the 
Governors--from the Governor of Wyoming, the Governor of 
Montana, and the Governor of North Dakota.
    In February 1996, the advisory council formulated a vision 
statement. Our vision statement is this: ``The Yellowstone 
Heritage Partnership, working together to promote the 
Yellowstone River Valley: a place valued for its quality of 
life; communities that respect their region's natural and 
cultural heritage, and consider these in their developmental 
projects; a region with a sustainable economy that offers 
opportunities for growth and employment while managing change; 
and a people that cooperate through the free exchange of ideas 
and develop consensus.''
    Since 1996, we've had many public meetings throughout the 
Yellowstone Valley. We've had meetings in Billings, in 
Colstrip, Lame Deer, Hardin, Crow Agency, in Livingston, Red 
Lodge, Joliet. We've had meetings in Williston, North Dakota, 
and in Sheridan, Wyoming, we had over 100 people attend a 
meeting.
    We also worked with another organization who is a partner, 
the Yellowstone Center for Applied Economic Research, and that 
organization has conducted several focus group studies 
throughout the region, asking residents their perception of the 
region, the quality of life, resource use, and economic 
development. And one of those is cultural tourism.
    And I'm going to read some of the statements from people 
from those meetings. This is from Bill Michaels. He's a 
sugarbeet farmer. He lives in Huntley, which is near Billings, 
and he's also on our advisory council.
    He said, ``I could support any program that does not in any 
way diminish private property rights. My concern is agriculture 
and its future. Family farms are very important. It is my 
belief most rivers need some type of flood control and effort 
to diminish the destruction of timberland''--he was talking 
about deer habitat--``and productive farmlands. Strange how 
farmers and ranchers are not part of many of these programs.''
    Ivy Brubaker in Terry, Montana--Ivy is probably 80 years 
old, and whenever I see her, she gives me a big hug. ``We think 
the State and county should have charge of our area. We are 
concerned for the farmers and ranchers, fishermen, and those 
with their fun boats.''
    Dallas Johannsen--this is from a meeting in Hysham that I 
attended. He's the executive director of the Eastern Plains 
RC&D. We went through very intense discussion of the 
Yellowstone Heritage Partnership with many of their members, 
and Dallas commented, ``We need to begin to build trust as we 
look at these types of initiatives.''
    Based on the public input through these methods, the 
Western Heritage Center identified the following projects and 
tasks as part of our partnership. One is to develop a traveling 
exhibit. That's called ``Explore the Yellowstone!'' and we're 
going to take that to fairs and pow-wows, rodeos, places where 
people gather, to begin talking to people about the Yellowstone 
region, sharing this wonderful history of this area.
    We're conducting a regional economic study of cultural 
tourism in the Yellowstone region which will create information 
that is user-friendly, so all these organizations can be using 
the same data, as we talk about cultural tourism as one leg of 
the economy of the Yellowstone region.
    We looked at the need to obtain what we called a circuit 
rider for the region or someone that could facilitate multi-
agency coordination and collaboration, and also further 
expanding the support base of the partnership. At all of our 
advisory council meetings we have representation from our three 
congressional offices, and they have been very helpful in 
providing input from their perspective as well.
    When the American Heritage Rivers Initiative was announced 
by President Clinton, the partnership began gathering 
information about the initiative. Many of the partnership 
members saw parallels between our regional initiative and the 
American Heritage Rivers Initiative. In May we received a 
consensus to continue to evaluate the initiative while 
conducting a regional survey to gather other information 
related to the initiative, and we submitted comments as part of 
that public review process.
    Our preliminary approach is based on information gathered 
from 17 surveys, and the strongest----
    Mrs. Chenoweth. Ms. Moss, will you be able to wrap it up 
pretty soon?
    Ms. Moss. Oh, sure. I'm sorry. OK.
    The strongest surveys, the projects look at the Lewis and 
Clark Bicentennial, the Nez Perce National Historic Trail, and 
the Yellowstone River Greenway.
    While I was here today, two of my colleagues were meeting 
with the Montana Stockgrowers Association to talk about our 
plans for this initiative, and I will just conclude by stating 
something from Mike Penfill, the director of the Montana State 
Parks Association.
    ``We believe in community-based, citizen, grassroots action 
as the best way for people to secure a positive future for 
Montana. With that as the background, we are excited about the 
American Heritage River Initiative for the Yellowstone River in 
Montana, Wyoming, and North Dakota.''
    Thank you.
    [The prepared statement of Ms. Moss may be found at end of 
hearing.]
    Mrs. Chenoweth. Thank you very much.
    The Chair recognizes Mr. Nelson.

    STATEMENT OF REGINALD WILLIAM NELSON, RICHMOND, VIRGINIA

    Mr. Nelson. Thank you, Madam Chairman. I guess I'm the one 
you've been waiting for, being last on the list.
    [Laughter.]
    Mr. Nelson. No one will be happier than I when my time is 
up.
    [Laughter.]
    Mr. Nelson. I'm here today to support H.R. 1842. My name is 
Reginald Nelson, and I live at 1820 New Market Road in eastern 
Henrico County, which is just outside the city of Richmond.
    Mr. DeVeny from Idaho could have written my testimony for 
me, and I could have changed the name and a few facts. I'm a 
full-time farmer also, and have experienced many of the same 
things that he has dealing with the Federal Government and 
bureaucrats.
    The land that we farm is in sight of the James River, which 
has a watershed of over 10,000 square miles, as mentioned 
earlier. We've been farming most of this land for the past 75 
years.
    I have no business really being here today. This is the 
height of our harvest season, and time is very precious to us 
now. I'm spending 12 to 16 hours a day this time of the year, 
and I had a hard time explaining to my two young daughters 
yesterday why I had to come to Washington today to testify 
before this Committee--to protect our rights.
    I elected representatives to Congress to protect my 
interest and my rights, not to be run over with Presidential 
Executive Orders in which Congress had no say. This seems to be 
dictatorial, not democratic.
    In my testimony, you will see that I have stated that my 
Congressman is Thomas Bliley. He is the one who represents my 
interest. I live on the edge of the district, and technically 
live in--my Congressman is Mr. Scott.
    As a farmer, I already know about excessive regulation. I 
comply and file--comply with and file a nutrient management 
plan, a Chesapeake Bay plan, an integrated pest management 
plan, record the pesticides which I use on my property, and at 
the same time have to comply with local land use regulation. 
And, yet, none of these regulations have changed the way my 
family has farmed this land over the years. We have been good 
stewards of the land since the beginning. My father and 
grandfather took care of it and taught me how to take care of 
it. We haven't needed the Federal Government to tell us how to 
farm. What has changed is the amount of time and the cost that 
it takes to report these things back to the Federal 
bureaucrats.
    A question I have: If this initiative is truly voluntary 
and nonregulatory, why is there a Federal presence? Why will 
Federal agents be involved? Why? It's because there clearly 
will be additional regulations or policies placed on the 
property that has this designation. Is this going to mean that 
we're going to have more records and more reporting to do with 
more regulation?
    We've dealt with some of these so-called partnerships over 
the years with the farm, and it seems to be a way to pass the 
buck. One agency tells us we need to see the next agency, and 
that agency tells us we need to go back to the first agency.
    Another question I've got is where the funding comes from 
for these policies. If it's not going to cost any more and we 
don't have to hire any more people, what have these people been 
doing if they didn't--they didn't have anything to do before 
now?
    There are 12 agencies that have been identified to work 
with this initiative. FSA is one of those agencies, I believe, 
the Farm Service Agency, and many of the offices have been 
consolidated and closed recently due to budget cuts. They 
apparently don't have an excess amount of money to support 
these things.
    What really irritates me more than anything is the fact 
that my Senators and my Representatives didn't have the 
opportunity to approve this Federal program, nor did they have 
a part in creating it. This initiative has been created with 
the rules yet to be established, it appears. The devil is in 
the details, and we haven't been given those details in advance 
of this program being written.
    Now for years we were asked as farmers to sign up in the 
farm programs, where the rules and regulations were written 
sometimes after we signed up. This doesn't work; it never has 
worked; it never will work.
    We have dealt with--in our neighborhood we have had a lot 
of problem with the National Park Service coming in and trying 
to overrun us with historic preservation. It appears that some 
of these bureaucrats must go to the same school and learn how 
to avoid answering questions, as we saw Ms. McGinty earlier. 
The question was asked if the Federal--if the person could 
testify at a zoning board hearing. The National Park Service 
representative, superintendent of Richmond Battlefield Parks, 
stands up frequently at the board meetings and the zoning 
meetings in uniform and testifies. So it does happen.
    Some years ago, we had the opportunity in the State to have 
a road, Route 5, voluntarily designated as a Scenic Byway. 
Nothing was done then except a few pretty signs were put up 
along the road stating this designation. Now we have a group of 
citizens in the area who are using this designation, trying to 
obtain a 1,300-foot setback off of Route 5 back onto our 
property. They're trying to stop development, and they want no 
further improvements to Route 5, saying it's an historic road. 
Well, farm equipment has become rather wide, and with the 
traffic we have on Route 5, if the road's not improved, we 
won't be able to continue to farm it, and then the development 
will come, and then the road will be improved.
    Mrs. Chenoweth. Mr. Nelson, will you be able to wrap it up 
in the next minute or two?
    Mr. Nelson. Yes, I will.
    I am fortunate that my local jurisdiction, Henrico County, 
is in strong opposition to the designation and is preparing a 
letter to be sent to all of our congressional delegation 
stating and clarifying their opinion. I would like to provide a 
copy of that letter to this Committee to be attached to my 
testimony as soon as it is available.
    Mrs. Chenoweth. Without objection, so ordered.
    [The information referred to may be found at end of 
hearing.]
    Mr. Nelson. Again, I would just like to strongly support 
H.R. 1842, and thank you for your time.
    [The prepared statement of Mr. Nelson may be found at end 
of hearing.]
    Mrs. Chenoweth. Thank you, Mr. Nelson. Being the daughter 
of a farmer, and knowing what farm life is like, I certainly 
understand. I understand your sacrifice today, and I understand 
the sacrifice of every single one of you who are here. I just 
want you to know there is a committee markup going on in the 
Commerce Committee and in ISTEA, and even as we speak, my staff 
is giving a major speech for me--that there's a lot of times 
things have to go by the wayside. That pales in comparison to 
the sacrifice of all of you in coming here to offer your 
testimony.
    And although there's just two of us here, remaining here, I 
want you to know that this becomes a part of the permanent 
record, part of the permanent congressional record that will 
last in the archives of the Library of Congress, and your 
contribution today will be referenced a lot and reviewed by 
many people. And so I just want to say, for my colleagues who 
can't be here, thank you so very, very much for coming.
    I would like now to yield to Mr. Schaffer for any questions 
he might have.
    Mr. Schaffer. Thank you, Madam Chairman.
    I like to think in terms of quality instead of quantity 
when it comes to Committee members here.
    [Laughter.]
    Mr. Schaffer. So I can assure you we're in good shape here.
    I'd like to ask Mr. Samuel--if this Heritage River Program 
continues to move forward as it is suggested by the Clinton 
Administration and you pursue it--you're in southwest 
Pennsylvania?
    Mr. Samuel. Southeast.
    Mr. Schaffer. That's right.
    Mr. Samuel. Philadelphia's southeast.
    Mr. Schaffer. Oh, you're in southeast, OK. You're in 
southeast Pennsylvania. What are your thoughts about this opt-
out provision? You've heard the exchange between Ms. McGinty 
and I on who would establish the standards associated with--the 
terms of who would be opting out or not. She suggested that 
it's her intention to give quite a bit of authority to the 
local proposal, the organizing group. In your case, stating 
your desire to pursue the Heritage River Initiative on your 
particular river, do you plan on allowing property owners along 
the river to opt out of the program right at the beginning?
    Mr. Samuel. I don't quite understand what opting out is 
going to do for someone. And the reason I say that is the 
Schuylkill has been designated a Heritage Corridor. That didn't 
do anything to landowners along the river, and you have to 
understand southeastern Pennsylvania, obviously, is very 
different from Idaho and many parts of the West. It's very 
densely populated. It's very heavily residential. We're talking 
about a lot of residents with small properties. We're not 
talking about a lot of large farmers or landowners.
    And I think--you know, there was some discussion earlier 
that perhaps everyone who's a landowner along the river should 
be sur-

veyed and given the opportunity to opt out. I guess I don't 
understand, with the Schuylkill being a greenway, with the 
Schuylkill being a Heritage Corridor, with the Schuylkill being 
a designated Scenic River, what did that do to landowners that 
created any restrictions for them? And I also don't see the 
American Heritage Rivers Initiative imposing any restrictions 
on landowners.
    So I don't understand truly why there's a real need for 
opting out, and I guess that's--explain it to me: Why--what 
there is to fear? I guess I'm not sure what's going to happen 
to landowners along the river that they need to opt out of 
something.
    Mr. Schaffer. I'm less interested in explaining to you the 
fears that need to be associated with the Heritage River 
Initiative. As for me, I sat through quite a bit of scary 
testimony from others who have been affected by the Federal 
Government in various ways, but that's not really the point of 
my question. It is, though, presumably, you would be primarily 
involved in formulating the proposal and working with the 
community on drafting the proposal to the Federal Government to 
establish the Heritage River Initiative on the Schuylkill 
River, and I'm just trying to inquire, at least at this point--
so much of this is speculative, even the rules and regulations 
and how they will eventually unfold. But from your perspective, 
do you envision allowing local property owners who live along 
the river, who own land along the river, to opt out in your 
proposal?
    Mr. Samuel. Oh, I would say there certainly can be people 
who do not support it. I guess I don't--and I'm sorry that I 
was not clear, but I don't understand what opting-out means. I 
guess I can----
    Mr. Schaffer. Well, it would mean--let's say Farmer Jones 
has a little farm, one of these little farms, you mentioned 
that's right along the banks of the Schuylkill River, and he 
hears that you're applying for the Heritage River Initiative 
and you want the designation, and he sends you a letter and 
says, ``You know, this might be fine for everybody else, but I 
would appreciate it if the boundary went around my property.'' 
Are you going to allow that. That's what that means.
    Mr. Samuel. OK. I guess, again, my confusion is that I 
didn't see that there was any boundaries here. I mean, we 
already have a Schuylkill Heritage Corridor that has very, very 
mysterious unclarified boundaries, and it's really more a 
partnership among----
    Mr. Schaffer. OK, but I'm suggesting that Farmer Jones 
wants you to establish a boundary around his little farm on the 
banks of the river.
    Mr. Samuel. Then I do not have a problem with that. That's 
the answer.
    Mr. Schaffer. Do you anticipate that your proposal will 
allow for the opt-out provisions so the boundary can be drawn 
around his land?
    Mr. Samuel. Yes.
    Mr. Schaffer. You do?
    Mr. Samuel. If there are boundaries drawn and someone needs 
to be outside of those boundaries--I mean, I guess I--you know, 
we're functioning on a model of----
    Mr. Schaffer. I'm not suggesting need; I'm suggesting 
desire--that he just wants to be outside the boundary.
    Mr. Samuel. Yes, I mean, it seems like you're using a model 
of like a national park, where they draw a boundary around 
something and say, ``This is all now under the jurisdiction of 
the Federal Government,'' and I don't think that's what a 
Heritage Area or a Heritage River is about. There's not a firm 
boundary. It's a way of developing a partnership amongst 
interested people who are interested, in this case, in a river, 
in a river corridor. I don't see a hard boundary, but if we do 
draw a boundary and someone does not want to be in that 
boundary, then they have, certainly, the free will to be 
outside of it.
    Mr. Schaffer. Well, that is encouraging. My time's up, so 
I'll stop. Thank you, Madam Chairman.
    Mrs. Chenoweth. Ms. Bourque Moss, I'd like to ask the same 
question of you that was posed to Mr. Samuel. Do you believe 
that people ought to give written permission before they are 
included in a designation under the American Heritage Rivers 
Initiative?
    Ms. Moss. As it stands now, we have a task force that's 
working on our proposal for the Yellowstone River as an 
American Heritage River. And based on the latest information 
from the Federal Register, it doesn't have to be the entire 
river, and that helps us considerably. We'll be looking at 
specific areas.
    And the focus of our projects look at public places, at 
museums, at sites, whether they're national historic sites or 
parks, places that are in the public interest. So we won't be 
looking at private property at all. We are working with the 
Montana Stockgrowers Association and they have offered their 
assistance to work with us on this nomination, as we proceed to 
make sure that it meets the interest of that particular 
organization. We've always felt that it's important to be open 
with our project and our partnership and invite the views of 
many different groups of individuals and associations in this 
region, so that that dialog hasn't come up yet with our 
advisory council members; it certainly will. We have a meeting 
in October, and I'm sure that will be part of the discussion.
    Mrs. Chenoweth. So, generally, what you are saying is that 
the property owners will not even be considered as being 
included?
    Ms. Moss. They're an important voice to the Yellowstone 
region. We aren't defining boundaries at this point.
    Mrs. Chenoweth. But if they want boundaries defined around 
their property, define them out of the project, would you 
support that?
    Ms. Moss. I think so. That would be fine with us.
    Mrs. Chenoweth. Thank you.
    Mr. Blomquist?
    Mr. Blomquist. Yes, just for clarification here, I know the 
Montana Stockgrowers I've been talking with them, too, and I 
know that they do support the idea of some kind of history 
being--a lot of what they're talking about as far as the 
history sites, putting up a display, or whatever it is, working 
with the museums and all that, but I also have a letter here 
from the--it's in with my testimony there--from the Montana 
Stockgrowers, and I'll just--it's quite lengthy, but I'll just 
read a couple of sentences here at the very end of it.
    It says, ``We support your effort to bring''--this is 
addressed to me, by the way--``We support your efforts to bring 
badly needed insight to this ominous program through testimony 
during the congressional hearings. We also offer our support 
for your efforts to have this initiative withdrawn until a full 
congressional review has been completed and a fully developed 
program is presented for adequate public comment.''
    They are interested in working with the group in Billings, 
because if it's going to go ahead anyhow, which apparently this 
President has the idea that this will go ahead regardless of 
what we do, they certainly want to be part of it. But they are 
very, very concerned because this thing has not been up for 
public comment; it has not been fully developed; it has not 
been fully explained.
    Mrs. Chenoweth. Thank you. Mr. Bright, could you briefly 
describe the National Park Service's policy regarding roads 
within the Buffalo National Park?
    Mr. Bright. Yes, thank you, Madam Chairman. When they came 
to our community, they talked about better access for more 
people, and in reality they've taken roads that were 
historically our county roads and blocked them. And I'd just 
like to give you one example, if I could.
    Mrs. Chenoweth. Oh, wait a minute. Wait a minute. ``They'' 
being----
    Mr. Bright. I mean the Park Service put boulders in part of 
them because they say that our roads were not surveyed off and 
that we just had a proscriptive easement, but you have to 
understand, this was not Federal land; this was private land, 
and we had those easements in there. We had a visitor fall off 
a bluff--they love to climb bluffs, you know, and he fell, and 
it took our first responders, local people, 3 hours to haul him 
out for medical attention. He fell within 100 yards of our 
county roads called Centerpoint Road. They had a horse die down 
there; they unlocked the cable on it and took a backhoe down 
and hauled the dead horse out. But we had to haul the--they had 
to haul the gentleman that had fell out by hand; it took them 3 
hours. They have no common sense.
    Mrs. Chenoweth. Well, where is your sheriff and your county 
commissioners?
    Mr. Bright. That's a good question.
    Mrs. Chenoweth. They have absolutely no--I'm sorry about 
getting so excited, and I'm not supposed to testify here, but 
they have no jurisdiction over your county roads. What's wrong 
with your local units of government?
    Mr. Bright. They're intimidated; they've been bullied and 
intimidated, and we are a very poor county and they don't have 
the guts to wind up in court, and the Park Service tells them 
that when they put that gate there, that if they go through 
that, they'll be destroying government property and they'll 
be----
    Mrs. Chenoweth. It isn't government--I'm sorry.
    Mr. Bright. I know, I understand. The cable's there; you 
have to understand, Madam Chairman. The cable they put up is 
theirs, and I guess if you knock it down, that would be 
government property; I don't know. I don't get it, either.
    Mrs. Chenoweth. Well, this is shocking to me.
    Mr. Bright. We would really appreciate some help. I know 
you've got so much to investigate up here, though; you probably 
don't have time to investigate something in poor little Newton 
County, but if you ever get around to it, we'd love to have 
you.
    Mrs. Chenoweth. Well, I'm telling you, I am exceedingly 
interested in this particular issue. You have certainly gotten 
my attention. The Park Service--no national or Federal agency 
has jurisdiction over ingress or egress using county roads, and 
I don't know where your county attorney is, or who's protecting 
you people, but you need protecting, and that's not from the 
Federal Government.
    Mr. Bright. I understand. We had an attorney general's 
opinion, and he really agreed with them. He also joined a suit 
with the Sierra Club on a timber sale in Newton County, and 
probably will again, and is currently suing three property 
owners along Crooked Creek, trying to prove that it is a 
navigable stream, because they have fences there, and they've 
had them there for 50 years. So we don't get much help at home 
in places.
    Mrs. Chenoweth. Mr. Bright, I know the hour is late, but I 
want you to stay in personal contact with me on this.
    Mr. Bright. I would be happy to do that, Madam Chairman.
    Mrs. Chenoweth. Would you, please?
    Mr. Bright. Yes.
    Mrs. Chenoweth. Thank you.
    Mr. Bright. Thank you.
    Mrs. Chenoweth. Mr. Nelson, would you please elaborate more 
about what you testified to, about the Park Service 
superintendent standing up in uniform and testifying at county 
zoning board meetings?
    Mr. Nelson. The superintendent has attended several 
meetings. I believe one of them had to do with the mining, a 
farm that was going to be mined for gravel that was in the 
viewshed of the park. They objected to that. They had--they 
presented in front of the board of supervisors on different--
with their different plans and other things as well.
    Mrs. Chenoweth. Well, I guess it's a new trend, but I'm not 
pleased with it.
    Mr. Nelson. We're not pleased with it, either.
    Mrs. Chenoweth. No.
    How much of your property would be--is there--let me ask it 
this way: Is there a part of your property that aligns a river?
    Mr. Nelson. We have a road that separates us from the 
river. There is the property right on the river, then the road, 
and then we're across the road from that. We can see the river.
    Mrs. Chenoweth. Mr. Nelson, tell me, where does your county 
come down on the American Heritage Rivers designation?
    Mr. Nelson. The county, to my--as I have been informed, is 
in opposition to it, to that initiative.
    Mrs. Chenoweth. I would suggest you go home and get your 
county to petition or just simply to opt out.
    Mr. Nelson. OK. As I stated in here, they're supposed to be 
writing a letter to their congressional----
    Mrs. Chenoweth. And I would very much appreciate--and I 
know Mr. Schaffer would, too--receiving a copy of that letter.
    Mr. Nelson. Yes, ma'am.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. OK.
    Mr. Nelson. And as an individual, I opt out of it.
    [Laughter.]
    Mrs. Chenoweth. That's good. Mr. Nelson, would you please 
get Mr. Bliley to sign onto my bill? You work on him from the 
home front; I'll work on him from this front.
    Mr. Nelson. We will try.
    Mrs. Chenoweth. OK. Ladies and gentlemen, I want to thank 
you so much for your patience. Your testimony has been very, 
very valuable. I must commend Ms. Moss on the work that she is 
doing, especially on the local level, and all of you, thank you 
very, very much for your testimony. And, again, it's been a 
long day, but my hat is off to you for your perseverance, and 
please stay in touch with me as things develop in your State. 
Thank you.
    This record will remain open for three weeks. If any of you 
wish to alter or amend any of your testimony, please do so 
within that timeframe. I want you to know also members of the 
Committee may have additional questions, and if they do, they 
will be submitting them to you in writing.
    [The information referred to may be found at end of 
hearing.]
    Mrs. Chenoweth. Mr. Schaffer, do you have anything for the 
Committee?
    Mr. Schaffer. No, Madam Chairman.
    Mrs. Chenoweth. With that, this Committee is adjourned.
    [Whereupon, at 7:53 p.m., the Committee adjourned subject 
to the call of the Chair.]
    [Additional material submitted for the record follows.]
 Statement of Hon. Christopher B. Cannon, a Representative in Congress 
                         from the State of Utah

    Thank you Mr. Chairman for the opportunity to discuss this 
bill. I am proud to be a cosponsor of H.R. 1842. I along with 
many of you here today have serious concern about the need for 
the American Heritage Rivers Initiative.
    Although this national rivers proposal has been in the 
Federal Register for three months and was the subject of a 
recent hearing by the House Resources Committee, few of my 
fundamental questions about this proposal have been 
satisfactorily answered. I, along with 54 of my colleagues, 
signed a letter to President Clinton on August 14 asking him to 
postpone the comment deadline for the American Heritage Rivers 
Initiative. We were denied our request. The Administration's 
response was that in the 90 day comment period, they had 
received enough comments and enough suggestions. In fact they 
had received less then 2,000 comments from across this country. 
But it appears that no number of comments would have affected 
the Administration because the individuals who had proposed the 
program had already made up their minds.
    Limited input is not sufficient input. Last year, my home 
state of Utah had eleven days notice before the Grand 
Staircase-Escalante National Monument was created--notice given 
in a leaked story of the Washington Post. Utah's elected 
officials approached the Administration and objected to the 
proposal. The Administration adamantly claimed that no action 
was imminent. Now the Administration claims that Utahans had 
input. Of course that is silly. Now, I guess I shouldn't 
complain. I would have been exhilarated to have had the chance 
to solicit some 1,700 comments and suggestions on the 
Administration's actions last Fall in Utah.
    There is another aspect of this initiative that is 
important to me. I have serious concerns that this initiative 
will be used as a political tool to reward ``friends'' of the 
Administration. Now that we have exposed the White House 
fundraising scandals, I foresee a partisan political agenda 
that will grant American Heritage River status as favors to 
various supporters nationwide. My fear is that political 
undercurrents will soon be driving the river designation 
process.
    I support H.R. 1842 because the American Heritage Rivers 
program is not good for our rivers, a River Navigator is not 
good for our communities or the programs that would be raided. 
This Administration has proved it does not care about private 
property rights. A voluntary program should not take 13 
agencies for implementation. If we need a program to help our 
rivers, let us do it on the local level, where states and local 
communities can run it without layering another bureaucratic 
blanket across our nation.
    Ms. McGinty, chair of the Council on Environmental Quality, 
has said that they have ``worked diligently'' to address the 
concerns about private property rights. If they were serious 
about answering our concerns, they would have at least taken 
the time to listen to them. In my view they have not done that, 
and our private property rights are seriously in jeopardy. That 
is why I support H.R. 1842.
                                ------                                


Statement of Hon. Henry Bonilla, a Representative in Congress from the 
                             State of Texas

    Chairman Young, thank you for the opportunity to present 
testimony to your Committee today on the American Heritage 
Rivers Initiative (AHRI). I have many concerns about the 
initiative the President just implemented, without 
Congressional approval.
    I represent the 23rd Congressional District of Texas, which 
includes 800 miles of the Rio Grande. For those of you who have 
never seen the river, let me tell you it is majestic river that 
twists and turns its way through some rough but beautiful 
country. The river has contributed a great deal to the rich 
culture and heritage of the region and just imagine, it has 
managed to do all of this without a Federal initiative, program 
or declaration.
    The Council on Environmental Quality (CEQ) asserts this 
initiative will ``create a government that works better and 
costs less through focusing on customer service, developing 
partnerships and delegating power to the front lines.'' The 
Federal Government should already be doing this. Efficiency 
should not require a new Federal order. Why do we need this or 
any other initiative to direct the Federal agencies to do their 
jobs? Since when is duplicative government a good idea?
    The initiative's authors claim it will not cost any 
additional money or add new regulations. My understanding is 
that communities can already apply for money and they can apply 
without any type of Federal designation. We just do not know 
what kind of strings will be attached to the designation and 
any money that may come with it. The AHRI only says the 
communities will receive assistance with the application 
process but it does not guarantee any money.
    I am also concerned that this initiative will lead to 
increased Federal intrusions into communities and may regulate 
or control the use and access of the rivers. The possibility 
that it may be defined as including watersheds is particularly 
alarming. This could lead to government control of an entire 
region. Any time the U.S. Fish and Wildlife Service is hunting 
for new tasks I am very worried. Let the bureaucrats in and 
there goes the use and control of the river and any property 
along the river to say the very least.
    I am particularly concerned about the directive to the 
Federal agencies to go into the communities to restore the 
river. Until Congress is able to bring common sense to many of 
the overburdensome laws and regulations such as the Endangered 
Species Act, and Federal wetlands policies, to name a few, 
these agencies be able to wield as much power as they want in 
these communities and on private ranch and farm land.
    CEQ has also promoted this as a grass roots or bottom up 
program that is good for the communities and the rivers. But I 
have to wonder about this. Most of my constituents are vehement 
in their opposition.
    I also have to wonder why CEQ rushed this initiative 
limiting thereby citizens input. Why did they need to rush the 
initial comment period? Only after being inundated with 
requests to extend the deadline did they add another 60 days to 
the comment period.
    I would also add that since the initiative was first 
proposed I have received many letters and phone calls from 
constituents asking me to oppose the initiative. And that is 
exactly why I am here today, to allow the people in my district 
to have a voice. Most of the people I have heard from live in 
rural communities along the river and depend on the river for 
their livelihoods.
    The significance of the Rio Grande will not change based on 
this designation nor will it be diminished in any way if it 
does not receive this designation. I will continue to stand 
strong for property rights and recognition to the area for the 
rich heritage and culture that the river has brought the 
region. We need not sacrifice any right to obtain Federal 
recognition of our region's beauty and importance. We know far 
better than any Washington bureaucrat the unique nature of our 
region. This is why I am a cosponsor of H.R. 1842 and I have 
come here today to support the passage of this bill. I look 
forward to voting for this bill on the House floor.
    The only things clear about the AHRI are the questions it 
raises. Thank you.
                                ------                                


  Statement of Hon. Ray LaHood, a Representative in Congress from the 
                           State of Illinois

    Thank you, Mr. Chairman, for allowing me to appear here 
today to express my support for the President's American 
Heritage Rivers Initiative.
    When the President announced this initiative during his 
State of the Union Address, many of us in Illinois, who have 
been working since 1994 to develop an integrated management 
plan for the Illinois River, were elated that such national 
prominence was being placed on the protection and restoration 
of our nation's rivers. Without the leadership of Lt. Governor 
Bob Kustra, the monetary commitment of Governor Jim Edgar, and 
the teamwork of the Illinois River Strategy Team, Peoria Lakes, 
in my hometown, would be nothing more than a mosquito infested 
mud flat in a very short time. Over the last eight years, 
nearly a foot of silt has been deposited across the bottom of 
the river in Peoria Lakes.
    Additionally, serious flooding in many areas along the 
river has caused tremendous damage. While increased rainfall 
contributes mightily to flooding, there is no doubt that a 
shallower river, altered landscapes, and channelized streams 
throughout the watershed have a strong influence on where that 
rainfall, and the silt carried in flood waters, is deposited. 
Water naturally follows the easiest path. When the volume of 
the river is reduced due to a shallower base, the flood water 
will rise into surrounding farmlands and communities, bringing 
the financial damage that goes with it.
    Illinois cannot afford to wait to take action on plans to 
restore the river to what was once a national treasure. That's 
why the Illinois River Strategy Team was created. This team is 
a diverse group of farmers, environmentalists, local company 
executives, college professors, and elected officials. I am a 
member of that team. And let me take this opportunity to 
emphasize that our plan recognizes that both the public 
interest and private property rights must be protected if this 
plan is to move forward. The plan brings together local 
citizens and all levels of government in a grassroots, 
coalition-building effort to maintain the watershed. We are all 
interested in the long-term maintenance of the river for our 
future generations. By asking his Administration to focus on 
coordinating Federal resources for the restoration of our 
national waterways and to serve as a network, the President has 
given all of us a tremendous boost in our efforts to implement 
our plans. We would be very disappointed to have to go back to 
the people that have worked so hard to develop these plans and 
tell them that this initiative will not receive the support of 
Congress.
    Clearly, we believe that implementation must be controlled 
at the local and state level, but with the help of the Federal 
Government as a partner. I, for one, will work to see that 
control under this initiative is maintained at the state level. 
But I believe the Federal Government has an important role to 
play.
    While I have given my support to the American Heritage 
Rivers Initiative, I remain a fierce advocate of personal 
property rights. Additionally, any attempt to alter, limit, or 
restrict farmers and ranchers access to traditional 
agricultural environmental programs, will not be favorably 
looked upon by me.
    Agriculture has made tremendous strides in the last decade 
in meeting its environmental obligations. Today's farming 
techniques have come a long way. These techniques make the 
Federal Government a partner with producers in addressing 
environmental challenges, rather than an adversary. It is 
voluntary and incentive-based and that should not change. I 
view the American Heritage River initiative as another 
incentive-based, voluntary program available to agriculture.
    The Illinois River is a tremendous natural, recreational 
and economic resource for the country. And nine out of every 
ten Illinois residents are in some way touched by the Illinois 
River watershed, which is why our entire Illinois delegation 
has written to the President supporting the National Heritage 
Rivers Initiative, and, in particular, our own Illinois River 
as one of the National Heritage Rivers. A copy of our letter to 
the President is attached to this statement for the record. It 
is my hope that this process will be allowed to continue and to 
provide much needed national attention and a coordinated effort 
by all of us to improve our nation's rivers.
    Thank you, again, Mr. Chairman, for the opportunity to 
appear here today.
                                ------                                


 Statement of Hon. Lamar S. Smith, a Representative in Congresss from 
                           the State of Texas

    I appreciate the Committee's willingness to allow me to 
testify today about the American Heritage Rivers Initiative.
    Congress has an important responsibility to protect 
citizen's Constitutional guarantees such as the right to own 
and use private property. I am extremely concerned about the 
recent Proclamation issued by President Clinton that creates 
the American Heritage Rivers Initiative.
    When the President announced in his State of the Union 
address that he was creating a program such as this, I never 
dreamed that he would completely dismiss the legislative 
process. As we all know, this proposal was rammed through the 
administrative process without Congressional comment or review. 
Had the normal process for the creation of new programs been 
followed, the American Heritage Rivers Initiative would have 
had the benefit of congressional hearings. And the public would 
have had maximum input. It would have been carefully considered 
and amended, if necessary, in a series of legislative steps 
that begin with full and open debate on the floors of the House 
and Senate and end with recorded votes.
    Full and open debate on a bill that was supported by a 
majority of Senator's and Representative's would have yielded 
authorization and appropriation of the program. However, 
because the program was created by Presidential proclamation, 
Congress has done neither.
    Absent any express funding, the President has chosen to 
ignore Congressional intent and reprogram funding. Money is 
being taken from legitimate, authorized programs that have 
already undergone cuts to pay for this unauthorized and 
unstudied new program. The President's plan is taking personnel 
from many of these same programs and requiring them to work on 
the American Heritage Rivers Initiative. This is not fair to 
those programs who are already strapped for funding and 
personnel, nor to the constituents who rely on them.
    The lack of protection for private property rights within 
this program is of great concern to me. I have expressed my 
concern repeatedly since the program was first published in the 
Federal Register. There are no substantive protections for 
private property rights. And given that a majority of the land 
in the United States is privately held land, I think there is 
cause for concern.
    While the final rule has been issued for this program, a 
number of questions remain about the protection of private 
property rights. First and foremost in my mind is how much 
control over private property would ultimately be placed in the 
hands of Federal regulators?
    From my reading of the final rule I believe that an 
enormous amount of power would be granted to Federal agencies 
and in particular the one Federal agency from which the ``river 
navigator'' is chosen. This river navigator would have the 
power to dictate how land abutting a designated river could and 
could not be used. Why are local citizens not trusted to care 
for local resources?
    This power raises serious concerns, especially in my home 
state of Texas where many farmers and ranchers rely heavily on 
rivers, streams, and watersheds. In many cases it is their only 
source for irrigation purposes or for the survival of their 
livestock. Much to my dismay this issue has never been 
adequately addressed.
    Problems occur when Federal agencies are allowed to run 
rampant and given new authority without Congressional approval. 
This is precisely what will happen with the American Heritage 
Rivers Initiative. Federal agencies have been given no 
parameters to work within. I cringe at the thought of farmers, 
ranchers, and especially private property owners fighting this 
unchecked power in the future.
    It is a shame that President Clinton did not have the 
confidence in his program to allow it to bear the burden of 
public scrutiny, whether from the citizens or from Congress. 
Since the announcement of this program the President and 
Kathleen McGinty from the Council on Environmental Quality have 
said they are ``baffled'' by the outrage that has been 
generated. Once again the Administration has completely misused 
the American people. However, they decided to move forward amid 
much public discontent and officially create the American 
Heritage Rivers Initiative.
    As Members of Congress we have an obligation to our 
constituents to protect their rivers and their land. It is our 
duty to ensure that the money that we authorize and appropriate 
is spent on its intended programs and not ``reprogrammed.'' The 
American Heritage Rivers Initiative is in direct contrast to 
the will of the people and the Congress and should not receive 
any money until it authorized and appropriations are made. I am 
a cosponsor of Mrs. Chenoweth's bill because I feel that it is 
our best opportunity to halt the forward movement of this 
program and hopefully bring it to Congress to be fully vetted 
by the people's representatives.
    As the Chairman of the House Coalition on Property Rights, 
I am supportive of any steps that this Committee takes in 
moving Mrs. Chenoweth's bill forward. A vote on the House floor 
will reflect the voice of the American people--the voice that 
was ignored by the administration when it created this program.
    Again I thank the Committee for allowing me to testify 
today on this important issue.
                                ------                                


Statement of Hon. Asa Hutchinson, a Representative in Congress from the 
                           State of Arkansas

    Mr. Chairman and members of the Resources Committee, I 
thank you for inviting me here to testify before you today, and 
I commend you for the outstanding leadership you have displayed 
throughout the months since the announcement and publication of 
the Administration's ``American Heritage Rivers Initiative.'' I 
am grateful for the opportunity to express to this body the 
concerns of many of the constituents I serve in the Third 
District of Arkansas, and, I am delighted that later on today 
you will welcome one of those constituents, Mr. David Bright of 
Jasper, Arkansas, to speak to those concerns himself.
    Mr. Bright's is a story which, I am sad to say, is not the 
only one of its kind. But it is my hope that through the 
efforts of this Committee and citizens like Mr. Bright, the 
potentially negative effects of innocent-sounding Federal 
involvement in local land matters will be brought to light and 
scenarios like the one Mr. Bright and his neighbors endured 
will not be allowed to take place in the future.
    Mr. Chairman, I was first alerted to the American Heritage 
Rivers Initiative during the week of May the 19th, when I 
received at least fifty calls from angered constituents asking 
that I oppose the President's new river plan and stop the 
Administration from taking their land.
    Mr. Chairman, I have a number of concerns about the 
substance of the American Heritage Rivers Initiative and about 
the way the Administration has gone about its implementation.
    The Administration states that the initiative creates no 
new Federal regulation but simply allows ``River Communities'' 
streamlined access to Federal programs. It is designed to be 
community-driven and community-led, and is not supposed to 
appropriate any new monies or create any new programs. This, on 
the surface, seems commendable. However, I would assert that 
the implementation of the initiative will not be as simple and 
beneficial as it seems, and I must question why it is being 
implemented by executive fiat rather than through the normal 
legislative process.
    The initiative does not require the authorization of local 
officials in designating a river a ``Heritage River.'' Nor does 
it specifically state that if a river community's action plan 
infringes on the rights of private property owners living in a 
heritage area, designation will not take place. This is 
understandably worrisome to those private landowners living 
within the bounds of these areas.
    Rivers are not limited by man-made boundaries; they run 
freely across state, county and local lines. By designating 
rivers ``Heritage Rivers,'' and allowing people in those areas 
to avail themselves of Federal resources, the initiative will 
create new Federal jurisdictions that cut across town, city, 
county and state lines. Moreover, the initiative allows for 
designations encompassing not only rivers, but contributing 
watersheds and streams as well and will allow the twelve 
Federal agencies involved in implementing the initiative to 
favor these ``Heritage River'' communities over other 
communities in granting Federal aid. This circumvents the 
Federal legislative process and, more importantly, the will of 
the people who elected Federal legislators by reprogramming and 
reallocating Federal funds without the express consent or 
authorization of Congress. This is not right.
    Mr. Chairman, as I stated before, the Administration's 
final proposal states that the initiative will create no new 
Federal regulations. However, it also states that ``the 
American Heritage Rivers Interagency Committee may assist in 
overcoming obstacles that arise as many Federal services are 
provided.'' This committee is comprised of twelve Federal 
agency heads. In ``overcoming obstacles,'' what is to prevent 
these agency heads from withholding funds from other projects 
in the event that communities do not cooperate unanimously? 
What will keep them from imposing existing regulations, to 
which these areas are nor currently subject, on these areas--
from imposing them on the people or land in these areas?
    Mr. Chairman, I realize that the President has the 
prerogative to set rules and regulations for executive branch 
agencies, and I believe that the Administration means well in 
creating this initiative. However, the Administration is aware 
of the concerns of this Committee about the program's 
refocusing of funds, reallocation of resources, grant monies 
and employees, and its new enforcement of already-existing 
regulations on areas not currently under ``Federal'' 
jurisdiction. These are all things that should come under the 
jurisdiction of Congress, but the President has already enacted 
this initiative by Executive Order--without congressional 
hearings or congressional consent.
    By doing so, the Administration has already demonstrated an 
unwillingness to act in good faith in the process. Why, in this 
era of cooperation displayed in the recent enactment of the 
Balanced Budget and Taxpayer Relief Acts, is the Administration 
so unwilling to cooperate with Congress on this matter and 
submit this initiative to the normal legislative process? Why, 
with as much controversy as surrounds the initiative at this 
point, should we believe that the Administration will act in 
any better a fashion in implementing the initiative's 
provisions than it has acted in ordering its enactment?
    This initiative, which is supposed to be part of the ``re-
invention of government'' touted so vigorously as of late, will 
only reinforce a dependence upon Washington for that which 
should come from the community. If this initiative is 
community-driven, why is there a need for ``focused attention'' 
from Federal agencies? If this initiative is designed to make 
government smaller and more easily accessible, why not remove 
the Federal Government from participation all together?
    Mr. Chairman, I applaud the effort of this Committee to 
prevent the further implementation of the American Heritage 
Rivers Initiative--not because I don't believe that our 
nation's rivers need to be protected, but because I believe 
that our communities and the people living in them know best 
how to protect these resources and can do so without Federal 
oversight or regulation. For these reasons, I have co-sponsored 
H.R. 1842, which is being considered by the Committee today, 
and I urge my colleagues to do so as well.
                                ------                                


 Statement of Robert S. Lynch, Chairman of the Board, Central Arizona 
                          Project Association

    Mr. Chairman, Members of the House Resources Committee, 
thank you for the opportunity to appear here today and testify 
on the American Heritage Rivers Initiative and H.R. 1842. I 
have the pleasure of serving as Chairman of the Board of the 
Central Arizona Project Association, an Arizona non-profit 
association formed in 1946 to promote authorization and then 
construction and operation of the Central Arizona Project. Our 
Association membership represents business, resource, local 
government and agricultural interests throughout the state 
interested in the continued success of the Central Arizona 
Project.
    The Project itself consists of over 300 miles of canal 
system and a regulating reservoir that provides an average of 
1.5 million acre-feet of water annually to roughly two-thirds 
of the population of the state, industries, agriculture and 
Indian communities in central Arizona. That quantity of water 
represents over half of the entitlement of the State of Arizona 
to water from the Colorado River and some 20 percent of the 
entitlement of the three Lower Basin states (Arizona, 
California and Nevada) to water from the Colorado River.
    Our interest in the American Heritage Rivers Initiative 
stems from our interest in and support of the Central Arizona 
Project. We are concerned that implementing this Initiative 
could very well interfere with ongoing efforts to resolve 
problems in the Colorado River Basin that affect the Central 
Arizona Project and its water supply. Our concerns fall into 
three categories: participation, process and personnel.

PARTICIPATION

    Both the President's Executive Order and the Council on 
Environmental Quality (CEQ) Federal Register notice imply some 
loose geographic standard for defining non-Federal 
participation in this Initiative. The Executive Order talks 
about ``communities along rivers,'' 62 Fed. Reg. 48443 at 48445 
(September 15, 1997). The CEQ Federal Register notice talks 
about ``communities surrounding designated rivers'' and ``River 
communities'' and ``People . . . who live and work in the area 
. . .'', 62 Fed. Reg. 48860, 48862 (September 17, 1997). The 
Phoenix metropolitan area served by CAP is some 190 miles from 
the Colorado River. The Tucson metropolitan area is another 120 
miles beyond that. CAP is a vital part of the water supplies of 
central Arizona but this Initiative apparently would not 
consider these vital interests part of the interests to which 
the interagency committee established by the Executive Order 
would listen concerning the Colorado River.
    Similarly, Salt Lake City would have no voice in matters 
related to the Duchesne or Green Rivers, even though receiving 
water from the Central Utah Project. Denver and other east 
slope Colorado cities would have no voice in the Colorado, the 
Green, the Yampa, the White, the Gunnison, etc. People in 
Albuquerque could voice opinions about the Rio Grande but not 
the San Juan. The Los Angeles metropolitan area would have 
nothing to say about the Lower Colorado River as this 
Initiative may impact it. Presumably national and regional 
environmental groups and other organizations also would be 
excluded from this process.
    The point is that legitimate interests concerning rivers 
are not confined merely to those who live or work alongside 
them. Nor is proximity much of a test when, as is often the 
case in the West, no one lives or works alongside them. It 
appears that those who crafted this Initiative, while paying 
lip service to rural areas and Western communities, were 
primarily drawing on their personal experiences as residents of 
other parts of the country. In the West, legitimate interests 
regarding rivers are often at great distance from them. That 
does not render these interests any less legitimate nor any 
less important. The Initiative is seriously flawed in this 
respect.

PROCESS

    We are very concerned about the processes outlined in the 
Executive Order and the CEQ program. The Executive Order 
mandates a consultation requirement that must precede Federal 
agency action with regard to rivers designated under this 
program. There is no explanation in the Executive Order or in 
the CEQ program about how this gets done and how this 
consultation requirement relates to similar requirements in 
various laws affecting the same resources. For example, the 
1992 Grand Canyon Protection Act contains some very specific 
directives from Congress about consultation. If the Colorado 
River between Glen Canyon Dam and Lake Mead were designated 
under this Initiative, would this consultation requirement add 
processes to those required by Congress? There is no 
requirement, according to the Fish and Wildlife Service, under 
Section 7 of the Endangered Species Act to consult with 
affected interests when the Service is consulting with another 
Federal agency (or itself) as required by Section 7. If a river 
is designated under the Initiative, must the Fish and Wildlife 
Service now consult with affected interests before entering 
into consultation with another agency under Section 7? Must the 
Environmental Protection Agency add a consultation requirement 
pursuant to this Executive Order to permit processes under the 
Clean Water Act and other programs it administers?
    We raise these issues because we have had some experience 
with the Colorado River and these programs. There is an ongoing 
recovery program in the Upper Colorado River related to four 
endangered fish. There is a program entered into for the Lower 
Colorado River between the United States on the one hand and 
the three Lower Basin states and other affected interests on 
the other covering over 100 species from Glen Canyon Dam to the 
southerly international border. If the Colorado or any portion 
of it were designated, would these processes be impacted by 
this new consultation requirement? Would the River Navigator or 
River Navigators designated assume a role not currently defined 
in Colorado River processes? Would the consultation 
requirements of the 1968 Colorado River Basin Project Act be 
affected?
    Additionally, the CEQ Federal Register notice promises that 
obligations of Federal agencies under the National 
Environmental Policy Act will not be disturbed by this 
Initiative (62 Fed. Reg. at 48866). Since the agencies in the 
next breath are being directed to provide programs and 
resources aimed at satisfying community interests in site-
specific areas of a watercourse, it would seem that this 
program is creating a new class of Federal actions requiring 
NEPA clearance separate and apart from existing programs. Will 
designation require such NEPA clearance before any Federal help 
can be received after the designation? Who will pay the cost of 
that clearance?

PERSONNEL

    Finally, we are concerned about the effects of implementing 
this new Initiative on Federal personnel and the costs 
associated with that commitment. The Executive Order requires 
agencies to establish a method for field offices to assess the 
success of the Initiative and recommend changes. The Executive 
Order also mandates high-level participation by 12 departments 
and agencies, directs the agencies to do a number of 
assessments and inventories of programs, regulations, grants 
and other assistance and then requires them to reformulate 
those to fit this Initiative. That reads like a serious time 
commitment.
    In turn, the CEQ program announces that Federal field staff 
have been identified in each state to answer questions (62 Fed. 
Reg. at 48861). It provides for a River Navigator to be 
available for each designation. This person would be a Federal 
employee. Other Federal employees would have to be involved in 
distributing, receiving and processing nomination packets. A 
report for the panel of experts would have to be provided and 
staffing for the cabinet or sub-cabinet interagency task force 
would also have to be provided, as well as the members 
themselves.
    All of this takes time. Presumably, the people involved in 
this program at the various agencies will be people with some 
knowledge and background about rivers and about the resources 
typically associated with them. People knowledgeable in the 
sciences, people active in cultural, archaeological, endangered 
species, water resources, power resources, wetlands, and 
environmental programs, etc., will have to be detailed to these 
tasks. We are concerned that doing so will pull them away from 
other important tasks that already take too much time to get 
accomplished. We are concerned that other coordination and 
permitting processes could suffer. Specifically, we are 
concerned that people already stretched to the limit will be 
drawn away from two critical Endangered Species Act programs: 
the Upper Basin Recovery Program and the Lower Colorado River 
Basin Multi-Species Conservation Plan. We are also concerned 
that, in a year of stressful hydrologic conditions, personnel 
of the Bureau of Reclamation may be diverted from critical 
tasks on the Colorado River to other areas because of 
designations that need to have knowledgeable people involved in 
them.
    We are also concerned that costs associated with 
implementing this new program have not been addressed. Even if 
no new dollars are appropriated by Congress for grants, loans, 
construction funds, and the like, the personnel costs 
associated with implementing this program have to be borne 
somewhere. How will those costs be allocated? To what programs 
or projects will they be assigned? Will they be reimbursable by 
local sponsors of existing projects and programs? Is there a 
danger of significant cost shifting from costs already assigned 
pursuant to which Congress has already approved funding?
    One thing is clear. There will be costs in both time and 
dollars associated with implementing this Initiative. Those 
costs are real and may be substantial. If the Initiative goes 
forward, those costs should be tracked and reported to Congress 
by each of the agencies involved. In the meantime, the public 
should be assured that existing projects and programs will not 
be hampered by this additional workload. Justice delayed is 
justice denied in the executive branch as well.
    Before closing, we would be remiss if we did not 
congratulate Congressman Bob Schaffer for his efforts in having 
inserted in the CEQ Federal Register notice the savings 
language with regard to water and water rights. That had been 
and continues to be a matter of critical concern to us and to 
many others in the West. We remain concerned, however, that the 
focus of designation pursuant to this Initiative on a 
particular watercourse will concentrate interest in applying 
other regulatory programs to those water resources in a manner 
that could create the same problems this savings language seeks 
to avoid. If Congress is providing no additional money beyond 
salaries and administration for this program, what the agencies 
are left with is a command from the President to go forward and 
only existing tools to use. The Federal tools used on rivers 
are typically the Endangered Species Act, the Clean Water Act, 
the Safe Drinking Water Act and similar laws with Federal 
enforcement programs and permit programs. The river community 
congratulating itself about its designation may find that the 
``help'' it is getting from the Federal Government comes in the 
form of increased demands for changes in water uses. 
Concentrated examination under existing regulatory programs of 
that river or river segment may generate local costs, rather 
than local benefits.

CONCLUSION

    Having made a sincere effort to review these documents and 
understand their intent, we are unfortunately left confused. We 
do not see how CAP interests can participate in, let alone be 
enhanced by, this new program. We cannot tell how the 
requirements of this new program mesh with existing 
requirements that affect CAP interests and the interests of 
others similarly situated. We cannot ascertain how the costs of 
this new program and the time burdens associated with it will 
be allocated and what barriers to accomplishing tasks under 
other programs will be created.
    This new program is uncomfortably vague. We would recommend 
that this program be set aside, at least for the moment. 
Perhaps CEQ could enter into another, more inclusive, round of 
discussions with interested groups and parties around the 
country and answer the questions that have been raised such as 
those we raise here. Failing interest in doing that, 
regretfully we would recommend that Congress withhold funding 
for any efforts under this Initiative until it can be clarified 
as to its purpose and impacts.
    Thank you very much for the opportunity to appear here 
today and testify on this important subject.
                                ------                                


Statement of Desmond Smith, President, Trans Texas Heritage Association

    My name is Desmond Smith. I am president of the Trans Texas 
Heritage Association and I am here today representing our 
members who own 15\1/2\ million acres of private property in 
Texas and one million acres in New Mexico. The Trans Texas 
Heritage Association has four regional associations; Davis 
Mountains Trans-Pecos Heritage Association, Hill Country 
Heritage Association, East Texas Heritage Association and the 
Bootheel Heritage Association in New Mexico. Our purpose and 
goal as an organization is the preservation of private property 
rights.
    I am a rancher from Lampasas, Texas, where we operate a 
ranch that has been in my wife's family for 147 years. Most 
people know that farmers and ranchers are the original 
environmentalists. In fact, if we hadn't done such a good job 
of caring for our land I doubt the government and the 
environmentalists would be so interested in taking it from us, 
even though there is ample evidence that public ownership and 
public access to land does not offer the same protection as the 
loving care it receives at the hands of private property 
owners. So you can see why private property owners would 
question the motives of the environmental movement. If resource 
protection is the problem, private--not public--ownership and 
control is and always has been the solution.
    In Texas, 98 percent of the land is privately owned and 
we'd like to keep it that way. But it's getting more and more 
difficult. Not because the government has been on a buying 
spree, but because the government is taking more and more 
private property through regulatory means. Through Federal laws 
like the Endangered Species Act and the Clean Water Act, the 
government has been telling landowners what they cannot do with 
their land.
    Over the past few years, landowners have been trying to 
make Congress and the public understand the concept of 
regulatory taking of private property, but we haven't been very 
successful. For some reason, people think the 5th and 14th 
Amendments to the Constitution don't count and that it's OK to 
take people's property in the name of the environment. Now this 
administration has gone beyond even regulatory takings to 
``takings'' by Federal designation.
    The people of Utah know how it feels to have their land 
taken by designation, and Texas landowners are no stranger to 
this concept. In 1994, there was a move to designate 5 water 
bodies as Outstanding National Resource Waters. The property 
rights implications for surrounding landowners were grave. We 
were able to defeat that. Then, the U.S. Fish and Wildlife 
Service threatened to designate 33 counties in central Texas as 
critical habitat for the endangered golden-checked warbler. 
Again, the property rights of every landowner in those 33 
counties would have been gone, except that Texas landowners 
said ``absolutely not.''
    We understood then as we do now that Federal designations 
necessarily bring with them limitations on the use of private 
property. And this is why we are so concerned about the impact 
of the Federal designation of the Rio Grande River as an 
American Heritage River.
    I first became aware of the AHRI from a rancher who noticed 
low-level helicopter flights over his land. He asked the pilot 
later at the local airport what was going on and he was told 
the Texas General Land office was conducting aerial mapping of 
the private property along the Rio Grande as part of an effort 
to map transnational resources. I learned more about this 
mapping through an article in the Marfa, Texas newspaper dated 
February 13, 1997, but not nearly enough. And nobody I have 
talked to yet can tell me what a ``transnational resource'' is. 
Some of our members who are landowners along the Rio Grande 
were naturally concerned that their land and water might 
suddenly be classified as a transnational resource.
    Then we found out that Texas Land Commissioner Garry Mauro 
was pushing the local officials along the Rio Grande to 
petition for Federal designation as an American Heritage River. 
A friend in our Governor's office told us about a meeting on 
the AHRI in Laredo on April 28, this year, and my wife and I 
and one of the directors of our organization decided to go.
    When we walked in, the people at the desk started looking 
for our name tags and I told them they wouldn't find them. It 
turns out the meeting was by invitation only. There were people 
from all levels of government and also from the Nature 
Conservancy and the Audubon Society. If we hadn't just shown 
up, there would have been no representation from landowners or 
landowner groups.
    What we have learned since then, is that this is supposed 
to be a ``bottom up'' initiative, but what was obvious that day 
was that the Texas General Land Office was really behind this. 
It is generally known that Garry Mauro, the Land Commissioner, 
is a good friend of the Clintons and we were told that the 
White House had suggested the AHRI would be good for the Rio 
Grande. That sure doesn't sound very bottom up to me.
    Garry Mauro breezed in to that meeting for a few minutes 
and there was a lot of backslapping and glad handing going on. 
He did a TV interview then said he had to leave for Washington, 
DC. At the meeting it was suggested Garry Mauro should be made 
the ``River Navigator'' for the Rio Grande. I won't elaborate 
on that here, but if you have any questions about the River 
Navigator, please feel free to ask me later.
    At that Laredo meeting, the people talked about the AHRI in 
terms of clean water and cultural heritage and economic 
development. I stood up and asked if this would include Mexico 
and the fellow from the CEQ said it wouldn't. Then I asked him 
how they expected to clean up the Rio Grande if Mexico wasn't 
going to be made to do its part. He didn't answer.
    Right after that, the moderator asked everyone to stand and 
state their name and organizational affiliations. Everyone 
there was from the government except the people from the Nature 
Conservancy and the Audubon Society and us. When I discovered a 
representative from the U.S. Fish and Wildlife Service was 
there I really became concerned. It was obvious from their 
presence and that of the environmental groups that the AHRI was 
intended to have some environmental consequence.
    We've been trying to figure out what the AHRI is all about 
ever since and nothing we have been told makes any sense. The 
CEQ said the AHRI is supposed to help Federal agencies do a 
better job of giving money away at the local level. We were 
told it was part of Vice President Gore's plan to reinvent 
government. Somehow, if a community would apply for a Federal 
designation as an American Heritage River, these agencies would 
magically begin to do their jobs. The CEQ assured us there 
would be no new Federal dollars and no new regulations--just 
that Federal agencies would focus more on communities that had 
applied for and received the Federal designation.
    The CEQ told us the AHRI was about restoring rivers, but 
how do you restore a river? When Ray Clark with the CEQ came to 
Austin on July 9, we asked him about that. Did they mean 
restoring water quality? If so, given the fact that we have a 
Clean Water Act already and especially since Mexico still dumps 
raw sewage and industrial waste into the Rio Grande, how would 
the AHRI, with no new regulations, improve water quality? He 
allowed as how a petition for designation of the Rio Grande on 
the basis of improving water quality probably wouldn't be very 
well received.
    If not water quality, then how about restoring water 
quantity? If you look at the website for American Rivers, an 
environmental group dedicated to restoring rivers to their 
natural state, you'll see that they heartily support the AHRI. 
This group also supports removing dams and impoundments. Is 
that what this is really about? If so, what about water rights 
and flood control and drinking water supplies and hydroelectric 
power from dams? Ray Clark told us the AHRI wouldn't have 
anything to do with removing dams and impoundments along the 
river.
    Well, what's left? How else do you restore a river? Did 
they mean restoring commerce to the river? If so, to what 
previous level and what prevents this from happening now, 
without a Federal designation? For that matter, if there are no 
new Federal dollars and no new Federal regulations, what can we 
accomplish with AHRI that we can't accomplish now? NOTHING.
    Why would a local community allow itself to become a 
Federal community in order to attract Federal dollars that are 
already there for the asking through programs that already 
exist? I understand Congressman Sylvestre Reyes and the people 
of El Paso want a River Walk. Well, San Antonio has had a river 
walk for years but they didn't have to get a Federal 
designation to accomplish that. What in the hell is really 
going on here?
    The thinking people of this nation were shocked and 
sickened by Clinton's arrogant designation of the Grand 
Staircase Escalante as a national monument. Now he has given us 
the American Heritage Rivers Initiative, which will ignore 
private property rights in the name of economic development, I 
guess. Only with AHRI he won't take it from the people; he'll 
blackmail communities into asking for the Federal designation 
using the veiled threat of withholding Federal dollars.
    There are two things that I find very unsettling about the 
American Heritage Rivers Initiative. The first is that this 
administration thinks the American people are so stupid we 
would fall for this. The other is the negative property rights 
implications inherent in the Federal designation of anything.
    I am asking you folks to please do the American people a 
great service and pass H.R. 1842, not just out of this 
Committee but out of the full Congress. And if there is 
anything the Trans Texas Heritage Association can do to help 
you, please know we are at your service.
    Thank you for your time. God bless America and God bless 
you all. I will be happy to entertain your questions.
                                ------                                


          Statement of David Young, Asheville, North Carolina

    Good Morning:
    My name is David Young. I am a resident of Asheville, 
located in western North Carolina. I am here today to speak to 
you as a citizen, small business owner, local elected official, 
and as the Chairman of the RiverLink task force spearheading 
the nomination of the French Broad as an American Heritage 
River. In all of these capacities, I fully support the American 
Heritage River Initiative.
    Our task force has been following the AHRI since the 
President announced the program on February 4th. Our task force 
is comprised of interested citizens, chamber of commerce 
executives, elected officials from throughout the river basin, 
riverfront property owners, recreational enthusiast, artists 
and craftsmen, tourism development experts and non-profit 
agencies.
    We cannot afford to make this a partisan issue. This is a 
viable program which will help us both develop and preserve our 
wonderful river. We have over 2,000 endorsements similar to the 
ones in your packets. We have widespread bipartisan support 
including Governor of North Carolina, James B. Hunt, Jr., a 
Democrat and Don Sundquist, Governor of Tennessee a Republican. 
We have resolutions by the Henderson County Board of 
Commissioners, (all Republicans) and the Buncombe County Board 
of Commissioners, (all Democrats) all in support of this effort 
to nominate the French Broad as an American Heritage River.
    Our task force has been meeting with officials from 
Tennessee since the initiative was announced and we have formed 
a new bond with our sister state. Like the river itself our 
committee has decided that we will not be bound by superficial 
state, city or county lines. Rather we will work together, 
mindful of the fact that we all live upstream and downstream of 
each other.
    Wilma Dykeman, the author of the book The French Broad, is 
the honorary chairman of our efforts. A native of WNC, Wilma 
divides her time between her homes in Eastern Tennessee and 
Western North Carolina. She is the State historian for 
Tennessee and has written over 17 books and numerous articles 
that have chronicled the French Broad Region. I know she won't 
mind me quoting from her book, the French Broad when I describe 
the French Broad as ``a river and a watershed and a way of life 
where day before yesterday and day after tomorrow exist in an 
odd and fascinating harmony as a way of life.'' ``The French 
Broad country, like most of the mountain region which surrounds 
it, nourishes paradox. That is the source of much of its 
allure.'' Over the years our French Broad has become urban and 
rural, suburban and farmland--it carries us toward our future 
yet reminds us daily of our past--of our beginnings.
    The French Broad River Basin is the ninth largest river 
basin in the state of North Carolina covering 2,842 square 
miles. It is located entirely within the Southern Appalachian 
Mountains region, west of the Eastern Continental Divide. All 
waters from the French Broad basin drain to the gulf of Mexico 
via the Tennessee, Ohio and Mississippi Rivers. The basin 
includes the highest point in the United States, east of the 
Mississippi River, located atop Mount Mitchell (elevation 6,684 
feet above mean sea level ). The lowest elevation in the basin 
is 1,254, mean sea level, where the French Broad River flows 
into Tennessee. There are 4,113 miles of freshwater streams in 
the basin and seven lakes, all man-made, greater than eight 
acres in size. The French Broad river watershed has only three 
small dams--making it one of the most free flowing watersheds 
in the county.
    On May 1, 1997 RiverLink sponsored a public input session 
to help gather ideas and develop criteria for the AHRI. We are 
delighted to see that our suggestions during that May 1 meeting 
have been incorporated into the permanent criteria for the 
AHRI. Most notably our suggestion that the designation be given 
to a broad variety of rivers--some smaller--some larger. The 
French Broad may not be the largest river in the United States, 
or the widest or the longest--but it certainly is one of the 
most diverse.
    During our May 1 public comment period, residents from the 
two states mixed with elected officials, property owners, 
businessmen and women, environmentalists, young and old alike--
and you could feel the excitement grow. Our interest in the 
French Broad is igniting a prairie fire of action and a new 
spirit of cooperation.
    We have all learned quite a bit on our journey of discovery 
of the French Broad. For example, two areas on the French Broad 
river--the city of Asheville and Cooke county Tennessee are 
each celebrating their bicentennial this year. These areas were 
settled as a direct result of the French Broad. The French 
Broad has been the region's historic lifeline providing 
transportation for commerce and routes for exploration. The 
earliest settlers to the region used the Buncombe County 
turnpike, which followed the course of the French Broad, to 
deliver livestock and others goods to and from Tennessee, and 
Western North Carolina to the seaports in South Carolina.
    The French Broad watershed has over 20 archaeological 
sites--some as old as 12,000 years. Our earliest settlers were 
the Pisgah Culture, ancestors of the Cherokee Nation, utilized 
the river for religious ceremony, for bathing, for farming, for 
fishing and for hunting. Hernando DeSoto and his men floated 
the French Broad River in search of gold in 1540. One of his 
campsites, built on top of an ancient Indian Mound, in the 
middle of the French Broad river, is buried today under the 
Douglas Dam which provides the power source for Oak Ridge--
where man unraveled one of the secrets of the universe and the 
first atom was split.
    The botanical diversity of the French Broad River is 
unequaled anywhere in the U.S.A., perhaps in the world. 25,000 
years ago as the great ice cap formed over Labrador and pushed 
slowly out across North America, animal and plant life fled 
before its crushing destruction to our mountain region. Our 
forests, the Pisgah National and the Cherokee National, are 
richer in variety of trees than the whole of Europe. The French 
Broad is the area where Northern and Southern vegetation meet 
and mingle. While all of the northern United States was buried 
under ice, the trees and plants once native to Canada made 
their last stand on the heights of the Southern Appalachian--
these trees and shrubs and herbs have never deserted the 
mountain refuge they found in WNC and Eastern Tennessee.
    Also along the banks of the French Broad at George 
Vanderbilt's summer home, The Biltmore Estate, the first school 
of Forestry in the United States was founded in 1898.
    During the past decade our focus on the French Broad as a 
place where people can work, live and play has been intensified 
under the leadership of RiverLink. RiverLink is a non-profit 
regional organization dedicated to the environmental and 
economic revitalization of the French Broad River and its 
watershed. We view the river as the link--just as our name 
indicates--the river link to our past and to our future. The 
river links our businesses to our neighborhoods, our commercial 
centers to our recreational amenities.
    The French Broad is our water source, play space, job 
creator and major attraction. But above all is a living symbol 
of our common destiny.
    Old warehouses, remnants of the 1920's through 50's 
industrial riverfront sat empty for many years. Today they are 
teeming with life once again as artists and craftsmen are 
reclaiming these historic riverfront buildings for studio and 
living space. We believe that our efforts to reclaim the French 
Broad are now paying divi-

dends. The French Broad is featured in the September-October 
issue of Audubon Magazine as one of three rivers in the United 
States where the Clean Water Act, coupled with citizen 
governmental involvement has resulted in a river that, once 
again, can sustain human and animal life.
    In meetings with our Task Force for the AHRI, we have 
talked about the possibility of building a greenway from the 
French Broad's headwaters to where it ends in eastern 
Tennessee. This won't be any ordinary greenway! It will 
encompass two national forests, the Appalachian Trail, the Blue 
Ridge Parkway, the Biltmore Estate, the NC Arboretum, the 
Ramsey House in Tennessee, Dollywood, Civil War battle sites, 
neighborhoods, and industrial, recreational and commercial 
districts, just to name a few of our attractions. We would like 
for the greenway to have historical markers and public art 
interpreting the many and varied events that have occurred on 
the river's banks. We have also discussed the possibility of 
reestablishing passenger train service along the French Broad 
River Gorge. The gorge has some of the most spectacular scenery 
in the world and tourists and residents alike will marvel at 
the vistas. We have also spoken of the need for special 
economic assistance programs for Madison County in North 
Carolina and Cocke County in Tennessee. These two counties are 
contiguous and are among the most economically distressed in 
either of our states.
    We will be seeking additional public comment on October 
15th at the North Carolina Arboretum and on October 24 at the 
Cocke County, Tennessee Community Center. We have sent out over 
8,000 letters of invitation to attend these public 
brainstorming sessions and have invited every foundation in 
western North Carolina and Eastern Tennessee to join us as 
partners as we develop our application to nominate the French 
Broad as an American Heritage River.
    We know that alone, no one entity, no government agency, no 
foundation, no one person can accomplish all that we have 
planned for the French Broad. That is why the American Heritage 
River Initiative is so important--It gives us an umbrella under 
which we can continue to build our constituency for the French 
Broad. We need businesses, and environmentalists, and bankers 
and boaters and craftsmen and government to sit together and 
plan for the future. The AHRI umbrella will help us unravel the 
maze of Federal grants and technical assistance opportunities; 
and will give us access to programs that we don't even know 
exist.
    Our greenway demonstration project at the confluence of the 
French Broad and Swannanoa Rivers is a perfect example of the 
community coming to together to reclaim the river. Our local 
electric utility company, Carolina Power and Light, donated 1.9 
miles of riverfront property as the first link in an urban 
greenway system. This land had been an unofficial 
``landfill''--people would clean out their closets, their 
attics or their basements and bring their discarded items to 
the river. Today, after years of clean-up work and the 
cooperation of over 1,300 people, foundations, government 
agencies, companies and garden clubs the French Broad River 
Greenway is a wonderful example of what can and does happen 
when a community comes together in a spirit of cooperation. 
That's what we believe is the premise of the American Heritage 
River Initiative--cooperation and coordination with a single 
vision from the broadest cross-section of the community.
    In our efforts to name the French Broad as an American 
Heritage River we realize that we have already won the prize. 
We have come together in a whole new way, formed new 
partnerships and alliances, and discovered our neighbors again, 
not just nearby cities and counties but our sister state--
Tennessee. There are things that perhaps we should have known, 
but we didn't.
    We support the American Heritage River Initiative because 
it is non-regulatory and will not cause an increase in the 
Federal budget. Rather, it will focus resources on ``OUR'' plan 
of action. It gives us an umbrella under which to work. The 
AHRI will force the Federal Government to be responsive to 
``OUR'' plan of action for ``OUR'' river.
    In addition to the AHRI promise of no additional 
regulations for rivers selected, our committee has adopted its 
own code of conduct in regard to our pursuit of the AHR 
designation for the French Broad. I would like to read that to 
you. This was adopted unanimously at our last meeting as an 
additional and personal guarantee.
    ``We the organizing committee for the AHRI, adopt the 
following as our personal guarantee and code of conduct in 
seeking the nomination of the French Broad as an American 
Heritage River.''
    We are pursuing the nomination of the French Broad River as 
an American Heritage River. Our initial plan, along with other 
aspects, calls for a greenway along the entire length of the 
French Broad river corridor from Transylvania County to Knox 
County, Tennessee, which will be interpreted with public art 
and historic markers. In pursuit of this greenway and the 
American Heritage River status we pledge individually and 
collectively that no property will be condemned, no property 
owners will be coerced and that all participation in the 
greenway will be voluntary with all due regard for individual 
``property rights.'' We understand that our statement and code 
of conduct is in complete compliance with the stated 
objectives, goals and American Heritage River Initiative 
program as outlined in the Federal Register.
    When I am not acting as a county commissioner, or a 
RiverLink board member or as the chairman of the American 
Heritage River Initiative I am a small businessman. My wife and 
I own a travel agency. Over the years our business has grown as 
our region has been discovered. I know that the national 
recognition and the coordinated Federal services that will 
accompany the naming of the French Broad as an AHR will bring 
more people, tourists and businesses to our region. That's good 
for my business and good for business in general. I invite you 
to visit our French Broad--I invite you join us as we applaud 
the French Broad--and I urge you to support the American 
Heritage River Initiative.
    Thank you for this opportunity to tout the French Broad and 
to show our regions support for the American Heritage River 
Initiative.
                                ------                                

Statement of Gordon Ross, Coos County Commissioner, Coos County, Oregon
    In the opinion of this County Commissioner, Coos County is the most 
favored county in the most favored state in the union for some of the 
following reasons:

        1. Seventy percent of our 1 million acres is privately owned;
        2. We have no ``scenic rivers'' designated;
        3. We have no Congressionally withdrawn wilderness areas;
        4. We have consistently, since 1855, harvested more timber than 
        any county in the State of Oregon;
        5. We have more Coho Salmon per spawning mile than any county 
        on the West Coast;
        6. We have more Coho salmon than any county on the Pacific 
        Coast;
        7. We have more Coho Salmon than all other coastal Oregon 
        counties combined; and
        8. We have watershed associations partnering with up to 75 
        percent of the land owners and managers in the watershed, 
        improving habitat conditions in a ``bottom up'' non-regulatory 
        cooperative fashion.
    I must say, in defense of our Federal partners on the local level, 
we have the best of cooperation, but that is where it ends. Almost 
without exception, Federal regulatory agencies and their regulatory 
mind set, stand in the way of progressive local problem solving. Agency 
interpretation of 1990 Food Security Act, the Clean Water Act, Wetland 
Regulations, etc. have been a constant impediment in getting through 
the permit process in order to do Coho habitat enhancement with our 
farm land cooperators. Projects ranging from sediment removal to ``side 
rearing ponds'' have been viewed as ``wetland violations'' and one 
cooperator was even charged with ``discharging pollutants into the 
waters of the United States.'' He had taken sediment from the previous 
year's storm out of the creek and placed it on his farm land.
    What Coos County does not need is another Federal presence in our 
county or another Federal designation. It may be argued that the 
``Navigator'' that would be hired would ``help'' us get through the 
Federal red tape. I would propose that it is time Congress take care of 
the ``navigation'' by getting rid of the red tape.
    In conclusion, I wish to say that the ``bottoms up'' non-
regulatory, cooperative approach that enlists the efforts of the 
private land owners can and does accomplish far more than another 
Federal presence in our community. I believe it was in Fiddler on the 
Roof where the rabbi was asked ``Is there a proper blessing for the 
Czar.? Yes he replied. God bless the czar and keep him----far far from 
us.!"
    Please do not saddle us with any more Federal bureaucracy. We don't 
need any heritage river designations. We, at the local level, are best 
suited to protect our watersheds. We are the true ``guardians'' of our 
heritage, the caretakers of the future.
                                 ______
                                 

Statement of Bill DeVeny, State Director, District V, Idaho Farm Bureau 
                               Federation

    Mr. Chairman, members of the Committee and visitors, thank 
you for the opportunity to present comments before this 
Committee. My name is Bill DeVeny. This written testimony is 
submitted in support of H.R. 1842 to terminate further 
development and implementation of the American Heritage Rivers 
Initiative. I am a rancher from Riggins which is in Central 
Idaho. I am speaking in behalf of the Idaho Farm Bureau 
Federation representing 47,000 member families in Idaho and 
also in behalf of myself.
    Water is the lifeblood of Idaho, so the way it is managed 
and used is of concern to all of us in Idaho. Water is not only 
essential for all domestic uses, but has transformed the arid 
southern part of the state into productive, irrigated crop 
ground producing grain, onions, beans, potatoes, sugar beets, 
hay, mint, hops, small seeds, fruit, and numerous other crops 
on 3.4 million acres. The value of agricultural products 
produced including cattle is $35 to $45 billion. Water provides 
transportation from the Port of Lewiston to the Pacific Ocean 
at Portland, Oregon, for 2 million tons of cargo valued at $1.5 
to $2.0 billion. Hydro-power generation of electricity provides 
an average of 70 percent of the electricity used in Idaho. 
Recreation, which is the third largest industry in the state, 
depends heavily on water resources including lakes, rivers and 
streams for a variety of uses such as rafting, boating, and 
fishing. Continued use of Idaho water is essential to the 
continued well being and quality of life for residents of this 
state.
    One concern I have with the American Heritage Rivers 
Initiative is that it circumvents the right of states to manage 
and control water which is clearly a right of each individual 
state. The Idaho Constitution (as approved by Congress when 
Idaho entered the Union) expressly states: ``The use of all 
waters . . . (is) subject to the regulations and control of the 
state . . .''. Additionally, Idaho code 42-101 states: ``All 
the waters of the state, when flowing in their natural 
channels, including the waters of all natural springs and lakes 
within the boundaries of the state are declared to be the 
property of the state, whose duty it shall be to supervise 
their appropriation and allotment to those diverting the same 
therefrom for any beneficial purpose.'' The initiative would 
clearly be in direct violation of state law and the state 
constitution.
    Another concern I have with the American Heritage Rivers 
Initiative is that nowhere in the Constitution of the United 
States is there authority for the Federal Government to become 
involved in the issue of water. The Constitution enumerates the 
powers granted to the Federal Government and reserves all 
others to the states or to individuals.
    Furthermore, there is no authority for the Federal 
Government to expend funds for the American Heritage Rivers 
Initiative. The following is quoted from IMPRIMIS, ``Our 
Unconstitutional Congress,'' by Stephen Moore.
    ``The enumerated powers of the Federal Government to spend 
money are defined in the Constitution under Article 1, Section 
8. These powers include the right to `establish Post Offices 
and post roads; raise and support Armies; provide and maintain 
a Navy; declare War . . .' and to conduct a few other 
activities related mostly to national defense. No matter how 
long one searches, it is impossible to find in the Constitution 
and language that authorized at least 90 percent of the 
civilian programs that Congress crams into the Federal budget 
today.''
    There certainly is nothing that allows the executive branch 
to initiate spending programs. My understanding has always been 
that spending originates with the House of Representatives.
    The American Heritage Rivers Initiative is duplication of 
effort between other Federal, state, and local agencies: for 
example, the Corps of Engineers, Rural and Economic Community 
Development, Rural Development Councils, Natural Resource 
Conservation Service, and Soil Conservation Districts to 
mention a few. There also are other rural initiative programs 
in effect and there is no reason to think that another Federal 
program can accomplish what these other programs are not doing, 
nor can any other Federal program cause existing Federal 
programs to be more efficient or effective. In reality, 
probably just the opposite is true.
    A serious anomaly is created by the initiative when 
``nongovernmental organizations'' are included to nominate 
rivers, and to ``coordinate delivery of Federal services'' and 
``. . . restore, protect, and revitalize American Heritage 
Rivers that run through their communities.'' These 
nongovernmental organizations are the same organizations that 
do not respect any of the heritage of the American West. The 
heritage, at least in the West, relies first on the trappers 
(which have become virtually extinct), then miners, later 
grazers followed by farmers, next loggers, and recently 
recreationists. These nongovernmental organizations are the 
very ones that are trying to send the rest of us, grazers, 
farmers, loggers, and recreationists, the way of the trappers--
into extinction. The nongovernmental organizations might 
tolerate a few recreationists who are hardy souls and want to 
brave a wilderness, but even that will require agency 
permission.
    The American Heritage Rivers Initiative is in conflict with 
other Federal laws such as the Clean Water Act and does not 
comply with existing laws such as NEPA which requires an 
extensive environmental assessment for Federal actions or at 
least a finding of no significant impact. The initiative 
attempts to avoid the intent of Congress when it passed the 
Congressional Review of Agency Rulemaking Act by claiming this 
is not a rule. It also avoids, in fact violates, the 
Administrative Procedures Act.
    The American Heritage Rivers Initiative is circumventing 
the authority of Congress and vesting authority in yet another 
bureaucracy. It introduces another layer of bureaucracy which 
we do not need. Agencies have become the ``fourth'' arm of 
government and this is detrimental. We need less bureaucracy, 
not more.
    From personal experience about two weeks before this 
hearing I was contacted by two Federal employees wanting to 
come on my private property to make a stream side survey to see 
what kind of fish were in a very small stream running through 
my property and what kind of habitat there was. When questioned 
why they wanted to make the survey, the employees would not 
tell me why they wanted to know, what they would do with the 
information, or by what authority they were collecting this 
information. From experience I am pretty sure that whatever 
they did would probably not be for my benefit and would 
probably be detrimental to my interests and well being and in 
the long run to the general public as well. This is simply an 
example of the intrusiveness of government that this new 
initiative would create more of.
    The ``river communities'' that would be created by the 
American Heritage Rivers Initiative would have no 
jurisdictional basis and could, in fact, cross jurisdictional 
lines such as those between cities and counties and thus create 
hard feelings or confrontations. The results could be chaotic 
and entirely unpredictable situations.
    When the prospect of grant money is added to a legislative 
proposal, local units of government have a hard time saying no. 
Several years ago I was asked to testify at a meeting of the 
Idaho Association of Counties concerning some of the heritage 
legislation that was being proposed by the late Morris Udall. 
Earlier versions of heritage legislation had been rejected, but 
when the counties were promised a share of the money which most 
certainly would have been ``pork,'' many county commissioners 
had a hard time saying no. They were willing to accept the 
money regardless of the consequences even though there might 
have been serious bad side effects from accepting this money. 
Fortunately there were enough commissioners present who could 
see the down side to the proposed legislation that the 
Association of Counties voted to reject the proposal. Since the 
``river communities'' are not legally established units of 
government, the temptation to accept grant money might even be 
greater and put the private property owners within the area in 
jeopardy because of the obligations that would come associated 
with the grant money. There always are some obligations, even 
though hidden initially. Grant money is a ``carrot and stick'' 
approach. The promise of grant money is the carrot. Any agency 
is made up of human beings, and they can be very unfriendly, 
then the stick is wielded. In an initiative such as this one 
there are myriad opportunities for favoritism. This initiative 
is particularly susceptible to these failings, and to creating 
special favors for selected people or groups of people.
    Another concern I have is for the position that would be 
created of ``river navigator.'' This would be yet one more 
unelected official who would have untold powers over the 
rights, lives, and livelihoods of citizens of the area involved 
yet individuals impacted would have no recourse for unfavorable 
actions or decisions. Local control and decision making will be 
further diluted. For instance in Idaho, this could interfere 
with the Snake River Basin Adjudication of water rights that is 
taking place for the Snake River System. This is a legal 
proceeding.
    Once a river is designated, the designation becomes 
permanent and there are no provisions to reverse this 
designation or for individuals or groups of individuals to opt 
out of the program. The definition of those who can propose a 
designation would allow people from entirely out of the area to 
control local issues. The American Heritage Rivers Initiative 
is yet another tool for use by environmental extremists to stop 
the wise use of our lands. This is an issue about the control 
of resources, Separation of Powers, State Sovereignty, private 
property rights, and freedom from unnecessary and harmful 
Federal intrusion.
    In my view the American Heritage Rivers Initiative is 
contrary to every thing I have ever learned about our form of 
government. We are a nation of laws. The legislative branch is 
to create the laws, the executive branch is to implement and to 
enforce the laws, and the judiciary branch is to interpret the 
laws--not to make the laws. The American Heritage Rivers 
Initiative is contrary to each of those tenets.
    This country is founded on several important principles not 
the least of which is the right to own private property. One of 
the primary reasons many, if not most, immigrants came to this 
country was the freedom to own and control land outright. This 
initiative is just another chink in taking away private 
property rights and a step toward Federal land use control. I 
know of no instances where the government does a better job in 
the long run of managing property than private property owners 
themselves.
    We need less government control, not more, so I encourage 
you to do whatever is in your power to curtail the American 
Heritage Rivers Initiative. Withholding funding as proposed in 
H.R. 1842 is certainly a step in the right direction.
    We do not want another Federal designation. We do not want 
a greater Federal presence. We do not want enhanced Federal 
control over our waters. And we do not want the government to 
come up with yet another way to spend taxpayer dollars.
    Thank you for the opportunity to provide these comments.
                                ------                                


    Statement of Peter Samuel, Executive Director, Schuylkill River 
                     Greenway and Heritage Corridor

    On behalf of the Schuylkill River Greenway and Heritage 
Corridor, its partners and community organizations, I want to 
thank you and the members of this Committee for the opportunity 
to provide testimony in opposition to H.R. 1842. We are opposed 
to H.R. 1842 because we believe the American Heritage River 
Initiative will provide opportunities and benefits to our 
region in Southeastern Pennsylvania and others like ours around 
the country.
    The Schuylkill River Greenway Association is a membership 
organization which has been working with citizens and community 
groups and a host of other partners up and down the river for 
almost 25 years to promote the river resources and advocate the 
protection of open space. In the 1990's we went through a 
process to develop a plan for the Schuylkill as a Heritage 
Corridor. In 1995 the river corridor was designated by Governor 
Ridge as Pennsylvania's seventh Heritage Park. Thus the 
Association expanded its mission to include conservation of the 
historic and cultural resources within the watershed and a 
focus on economic development.
    We in the Schuylkill Watershed--including conservationists, 
elected officials, municipal governments, landowners, 
recreationalists, industry owners and more--are very much 
interested in the American Heritage River Initiative because it 
will provide an excellent chance for the widest range of people 
to take new pride in their river. It will enable us to work 
with the Federal Government as a partner in efforts to improve 
and restore the resources associated with the Schuylkill.
    The goal of the American Heritage Rivers initiative is to 
support communities within existing laws and regulations, by 
providing them with better information, tools and resources and 
by encouraging local efforts deserving of special recognition. 
This is precisely the kind of assistance the Schuylkill River 
Corridor needs.
    We believe that our community knows best what resources 
will benefit us the most and would like to see the government 
prioritize Federal spending based on that community led 
process, and to help people better understand how to access 
existing Federal resources.
    Before I explain further why and how this proposed new 
initiative will help the people and resources directly in the 
Schuylkill River Valley I would like to describe my area of the 
country. I will discuss our efforts to create a heritage 
corridor based on wide ranging partnerships, what works already 
been accomplished, what the larger shared vision is for the 
region and there, how we see this new government initiative 
fitting into the entire picture.

BACKGROUND ON THE SCHUYLKILL

    The Schuylkill River flows through some of the most 
historically significant land in the United States. The natural 
resources of the region and the people who live and work there 
have helped weave the social, political, economic and 
industrial fabric of Pennsylvania and the nation.
    The river itself extends 128 miles from the mining region 
of Schuylkill County through four other counties and into the 
city of Philadelphia where it links up with the Delaware River. 
It comprises three national parks, many acres of state park and 
game lands, numerous county parks, arboretums, wildlife 
preserves as well as widespread residential development, 
agriculture, industrial towns and private lands.
    William Penn established his colony relatively late in the 
history of European colonization of North America's seaboard, 
but the rapid growth of the colony soon made Pennsylvania a 
region of major substance and significance within the world.
    By the 1770's Philadelphia stood as the political, economic 
and cultural center of colonial America. The city's strategic 
location, wealth, industrial and commercial importance, large 
and cosmopolitan population combined to make it the hub of 
America's revolutionary activity. It was the site of the First 
and Second Continental Congresses and the birthplace of the 
Declaration of Independence. It was along the Schuylkill, in 
the winter of 1778, that General Washington and his troops 
camped in Valley Forge before the turning point in the 
Revolutionary War.
    By 1900, the use of anthracite coal to power industry 
caused a total transformation in the valley. The region was 
still dominated by Philadelphia, but with many urban and 
industrial centers, both large and small, thriving and 
interconnected by railroads. During this period, the entire 
river valley functioned as an interlocking series of industrial 
engines, and Philadelphia became a national leader in industry.
    The vast growth and development of communities and 
industries along the river was not without consequence. By 1927 
it was estimated that there was 38 million tons of coal silt in 
the river. The Schuylkill was so polluted that it had 
essentially lost its value as a river--the canal system was no 
longer navigable, the river was spurned as a recreational 
resource and as a supply of drinking water it had become 
seriously degraded.
    The river has been making a slow come back. In the 1970's 
the Schuylkill River Greenway Association was formed to begin 
advocating the protection and health of the river and its 
tributaries. The Schuylkill was designated by the state 
legislature as Pennsylvania's first scenic river in 1977.
    In the spring of 1995, after an extensive three year 
planning process involving representatives from each of the 
five counties and the public and private sectors, a Management 
Action Plan for the Schuylkill Heritage Corridor was completed. 
Later that year the Schuylkill was designated by Governor Tom 
Ridge as Pennsylvania's seventh State Heritage Park.
    The Schuylkill River Greenway Association which had many 
years of experience working with partners throughout the 
corridor, became the organization to implement the Heritage 
Corridor Plan. The SRGA adopted a revised and expanded mission 
for improving the river, increasing recreational opportunities, 
saving historic structures, encouraging regional cooperation, 
attracting tourism and generating jobs and permanent economic 
benefits.
    These actions mirror steps that have been taken in hundreds 
of communities. People across the nation have begun to realize 
the promise of heritage tourism. They are discovering how well 
the preservation of historic, cultural and natural resources 
combines with the development and marketing of tourism to 
sustain local economies and ways of life. Resource preservation 
and economic viability are not mutually exclusive but 
compatible and mutually enhancing. It has been recognized that 
multiple management and funding sources are the most 
appropriate method of preserving and interpreting the 
nationally important resources and themes.
    The Greenway and Heritage Corridor has committed to work 
towards the following goals:

        --Be the keeper of the vision--coordinating, managing and 
        implementing programs projects and activities within the 
        corridor that serve to celebrate the heritage and preserve and 
        enhance quality of life
        --Linking and Leveraging--working between and among agencies, 
        attractions and organizations in support of the vision, mission 
        and goals of the Schuylkill Heritage Corridor
        --Serve as a resource--providing leadership and guidance in 
        educational, historical, financial and marketing efforts and 
        technical assistance in training, interpretation, and community 
        involvement

PROJECTS OF THE GREENWAY AND HERITAGE CORRIDOR

    Projects range from the creation of trails built on abandoned rail 
corridors, the construction or improvement of trail bridges that cross 
streams and roads, development of riverside parks and open space, 
creation of canoe launches, historic conservation and interpretation 
projects, development of visitor information and a wayfinding system, 
and the implementation of an educational curriculum plan.
    Projects throughout the five county area in Historic Conservation 
and Interpretation include:

        <bullet> Planning for the renovation of the historic 
        Phoenixville Foundry building in Phoenixville to become a 
        visitor center which focuses on the steel and iron making 
        heritage--in association with Phoenixville Area Development 
        Corporation
        <bullet> The Reconstruction of the Schuylkill Navigation Canal 
        Lock 60 in Port Providence--in association with the Schuylkill 
        Canal Association
        <bullet> Interpretive Planning and Exhibit Design to develop 
        visitor center exhibits to describe the agricultural history in 
        the Schuylkill Valley--in association with the Peter Wentz 
        Farmstead
        <bullet> Development of a plan for reuse of the historic 
        Tamaqua Train Station in downtown Tamaqua for use as a visitor 
        reception point--in association with the Save Our Station group
        <bullet> Renovation of an historic building in downtown Reading 
        to be used as a heritage corridor visitor center--in 
        association with the Berks County Conservancy
        <bullet> Development of Engineering Plans for the restoration 
        of the historic water wheel at the Fairmount Waterworks in 
        Philadelphia--in association with the Philadelphia Water 
        Department and Fairmount Park
        <bullet> Assistance in the stabilization of the historic 
        Continental Powder Works--in association with East Vincent 
        Township
    It was recognized early on that there would need to be a broad 
range of support among financial, community, educational, business, and 
government leaders and foundations and existing partners in order to 
balance programmatic goals and objectives and achieve financial 
stability within the organization. This diversification of support 
allows the organization to develop flexible funding programs that 
strengthens the corridor and ensures its long-term success.

HOW THE AMERICAN HERITAGE RIVER INITIATIVE CAN HELP OUR WORK

    Since I became the Director of the Schuylkill Corridor I have 
realized that there are Federal agencies in our region which have 
programs that could provide assistance to our various communities. The 
Army Corps of Engineers has indicated an interest in rehabilitation of 
desilting basins into wetlands, the Environmental Protection Agency may 
have funds for restoration projects on the tributaries, the National 
Park Service could provide greenway and trail planning, Fish and 
Wildlife may be involved in the development of fish ladders along the 
many dams. And there are probably many others. How would I know?
    My information about these potential programs has been haphazard, 
helter skelter. If the Schuylkill River is designated as an American 
Heritage River, information about all of these programs would be made 
available as a coordinated package of services. The Federal Government 
would begin to work for us.
    People have called for a better, smarter and more coordinated way 
to work with the Federal Government. The American Heritage River 
Initiative seeks to coordinate these existing authorities in a more 
efficient and complementary way and proposes that assistance from the 
Federal Government will come at the request of the community. Once a 
river is designated, a team of Federal agency representatives will be 
available to help the community determine the role for Federal 
assistance. The committee will look for opportunities to reduce 
bureaucracy, streamline services and remove policy obstacles.
    There is no existing system to provide communities with a 
coordinated system of Federal services. In fact there is so much lack 
of coordination that it is very possible that within one very small 
agency such as the National Park Service that more than one department 
or division could be involved with the same project and never know what 
the other is doing.
    If what is being proposed by the American Heritage Rivers 
Initiative comes to fruition, it will be a major advance for 
government. I am not talking about more government, more regulations, 
more interference, I am talking about coordination, organization and 
responsiveness. I am talking about better government, ideal government. 
One that is there when you want it to be and one that provides a 
coordinated strategy of services that will be truly helpful.
    The American Heritage River Initiative will allow for the proper 
recognition of the collective contributions of ordinary people in 
significant regions of our nation. The Schuylkill Heritage Corridor 
provides a framework for people to take pride in their communities, 
understand their history and work together to enhance the quality of 
life for their children. We are treating our history and heritage as 
one of our greatest resources. The American Heritage River Initiative 
will allow us to build on that and ensure that the present and future 
is successfully linked to our past.
    Thank you for the opportunity to testify here today.
                                 ______
                                 

                  Statement of Reginald William Nelson

    Mr. Chairman, members of this Committee, ladies and 
gentlemen:
    My name is Reginald William Nelson and I live at 1820 New 
Market Road in eastern Henrico County, just outside of the City 
of Richmond, Virginia. I am a full-time farmer. I farm land 
within sight of the James River and practice responsible 
management of my farmland to ensure the safety of my livelihood 
for the perpetuation of my farming, and the cleanliness of the 
environment, as my father and grandfather before me have done. 
My farmland is just beyond the urban boundaries of the City of 
Richmond.
    I and many of my neighbors are concerned that President 
Clinton's ``Executive Order'' creating the ``American Heritage 
Rivers Initiative'' will further denigrate our ability to 
effectively produce crops from our fields and use our private 
property as guaranteed by our United States Constitution.
    This ``Initiative'' addresses ``river communities.'' Those 
folks lobbying hard for this Federal bureaucratic program have 
been defining the boundaries of this Initiative to include all 
land within a river's watershed. That is a broad and inclusive 
definition. Along the James River, its watershed includes 
10,102 square miles, one fourth of the land base of the 
Commonwealth of Virginia.
    What we are sure of, is that this ``Initiative'' intends to 
consume more than the riparian properties adjacent to any 
designated river.
    Further, this ``Initiative'' addresses the concerns of 
those people who consider themselves to be ``stakeholders'' in 
this initiative. They appear to be many, varying ``special 
interest groups''--not among them, appears to be the affected 
individual private property owner!
    There is no provision in this ``Initiative'' for even the 
individual notification of all property owners which are to be 
included in any such ``designation.'' That is appalling to 
me!--However, from my experience over the recent years with the 
Department of the Interior, this is the Federal bureaucracy 
functioning in its regular mode of operation.
    Having worked for several years to try to gain local 
control over the National Park Service's boundary, condemnation 
authority and land use control over as much as 250,000 acres in 
and around Richmond, (including my property), and observing the 
bureaucratic attitude to ignore residents and property owners' 
requests and recommendations--I have had to learn how this 
mushrooming, land-usurping predator works. It continually 
creates additional layers of Federal bureaucrats to confuse the 
taxpaying citizen to slowly, but surely, diminish the private 
property owner's Constitutional rights to use his own property. 
Instead of helping the private property owner, the Federal 
bureaucracy works to use private property ``For the Good of 
All'' such as that non-owner ``stakeholder'' I spoke of 
earlier.
    Ladies and gentlemen, I have no business being here before 
you today. I should be at home in my fields--on my combine--
where I am presently at the peak of my corn and soybean 
harvesting. I usually spend twelve (12) to sixteen (16) hours a 
day this time of year away from my family--working, farming--to 
support my family--and they know an understand that. My two 
young daughters were confused that instead, today, I have 
traveled to, and am sitting in, a Congressional Hearing Room to 
tell you about the harm this ``American Heritage Rivers 
Initiative'' will cause for me and innumerable Americans.
    I and my neighbors regularly elect a Congressman from our 
home district; mine is The Honorable Thomas J. Bliley, Jr.
    Congressman Bliley understands the considerable economic 
harm this new Federal program will cause to me and my neighbors 
as we go about our business of farming and using our private 
property without additional Federal bureaucratic intervention 
or accountability;--and yet, this ``Initiative'' can designate 
and begin appointing a ``River Navigator'' to ``oversee'' the 
activities within a designated community and a river's 
watershed--even over the objection of the duly elected 
Congressional Representative! This is unconstitutional and just 
plain wrong!
    As a farmer I already know about excessive regulation. I 
must comply with and file a ``Nutrient Management Plan,'' an 
``Integrated Pest Management Plan,'' a ``Chesapeake Bay 
Preservation Plan,'' and I am also required to record the 
pesticides I use in my farming, as well as assuring that I am 
in compliance with local land use regulations.
    And yet, I am here to tell you that none of those 
regulations has changed my family's farming practices or the 
methods by which my family grow crops. We have always been 
responsible guardians of our land and the environment. What it 
has changed--is the time and costs involved in reporting back 
to these unelected, government bureaucrats, whose job is 
perpetuated by my being required to spend time at my computer 
reporting minute details of what I have done to grow my crops, 
instead of either: (1) working my fields, or (2) sharing 
precious time with my wife and children.
    If this ``Initiative'' is truly voluntary and 
nonregulatory, why is there to be a Federal presence? Why are 
there Federal agencies to be involved? Why? Because, clearly, 
there will be additional regulations placed on all properties 
within a designation--written by nameless, faceless, 
unaccountable bureaucrats. If this ``Initiative'' is truly 
``honorary,'' there would be no Federal involvement.
    The reason I am here to speak in favor of H.R. 1842 is that 
I fear this Presidential Executive Order's effect on my farm, 
my family, my neighbors, my community and our diminishing 
Constitutional Rights.
    Neither my Senators nor my Representative were given an 
opportunity to vote their approval of this Federal program. 
They were not a part of the process of creat-

ing it. They were not given my right for them to vote on this 
invasive and expensive Federal program which will add an 
additional layer of bureaucracy through which I must weave to 
earn a living for my family.
    There is no reason that localities along any river cannot 
work together to accomplish what this ``Initiative'' purports 
to do. No Federal program is necessary or serves a constructive 
purpose.
    Along our James River, the localities are meeting and 
finding creative methods to promote the river, but, at this 
time, the Federal Government is not involved--or in control. 
And ``in control'' is what it wants to be. But that is neither 
necessary--nor desirable.
    Years ago the James River was seriously polluted. Today it 
is recovering--without Federal intervention. It is not needed--
or wanted--now. The cost for this program is to come from the 
resources within the 12 Federal agencies already identified to 
be involved in this Presidential enacted ``Initiative''--from 
agency budgets reportedly already stretched beyond their 
ability to function appropriately. Will funds be take from 
roadway repair projects? Will they be taken from 
environmentally sensitive clean-up programs to fund this 
``Initiative''? Clearly, the burden of the cost of this added 
layer of bureaucracy will be passed to the over-taxed American 
taxpayer--of which I am one.
    This ``American Heritage Rivers Initiative'' was stated to 
be created to ``preserve, protect and restore rivers and their 
adjacent communities.'' The vagueness and imprecision of these 
words will allow the established--and ``yet to be 
established''--bureaucracies to use Federal controls on private 
use of privately owned property. This strikes fear in the 
hearts and minds of property owners anywhere near any river! 
And so it should! ``The devil is in the details!'' And we have 
not been given those to review in advance of the establishment 
of this Federal bureaucratic program! They will, instead, be 
determined at some later time by those nameless, faceless, 
unaccountable bureaucrats!
    Any citizen ever hoping to own property should fear such 
authority for unchecked Federal control!
    This new Federal power will be used to impose the will of 
the Federal bureaucracy on local jurisdictions, usurping the 
powers Constitutionally ``reserved to the States respectively, 
or to the people.''
    Any intelligent person knows that, historically, 
development began around these flowing conduits. Rivers were--
and are--a natural mode of transportation for relocation and 
trade. And, of course, there is usually fertile farmland near 
and adjacent to rivers. So, with no limits, controls, 
guidelines or ``opt-out provisions'' in this Federal program--
not unlike any other trumped-up ``historic'' or ``heritage'' 
designations--virtually any river in the United States would 
qualify for control by this central, Federal bureaucrat--the 
``River Navigator''--who could impose great and costly 
restrictions on local government land use control.
    I bring to you today a different knowledge and perspective 
from your other speakers. I have had the unfortunate necessity 
to research and learn, together with my neighbors, the details 
and effect of a ``historic designation'' under the Historic 
Preservation Act. We were all under attack by the National Park 
Service in our area, and were misleadingly assured that such a 
designation, even over our objection, had no effect on the use 
or value of our land. Well, that's what they would like 
citizens to believe! But it is absolutely untrue!
    This Presidential Executive Order creating the ``American 
Heritage Rivers Initiative'' expressly states that the 
Department of the Interior shall be one of those Federal 
agencies which shall ``identify all technical tools, including 
those developed for purposes other than river conservation, 
that can be applied to river protection. . . .'' My community 
and others around my state know all too well how that Section 
106 Review Process of the Historic Preservation Act can curtail 
any changes in the area. Progress stops--not just damage. If 
the members of this Committee are not aware of this Act and its 
Section 106 Review process--and the far reaching effect it can 
and has had on communities around the nation--please contact me 
or have your staff members look into the matter. It has the 
propensity to bring this nation to a halt.
    I am fortunate that my local jurisdiction, Henrico County, 
Virginia, is in strong opposition to the designation of the 
river threatening my community, and is preparing a letter to be 
sent to all of our Congressional delegation stating and 
clarifying their opposition. I would like to provide a copy of 
that letter to this Committee to be attached to my testimony, 
as soon as it is available.
    This Presidential-created program, however, does not 
clarify that my community can be saved by my local government's 
refusal to approve of, or request, the designation--we may 
still be forced into the designation by the request of other 
more-naive . . . to say nothing of it being forced upon the 
unnotified, individual private property owners!
    There are no guarantees under this program--except that we 
have no guarantees that our Constitutionally guaranteed rights 
to representation and private property protections have--and 
will be--further violated by this program.
    I ask again--if this ``Initiative'' is truly honorary and 
voluntary, why is there a Federal presence? Why is there no 
property owner notification? Why is it not, instead, required 
that the property owner request the designation in writing and 
have the right to quit the program at any time?
    Why? Is it because these protections from our Federal 
Government were never intended to be a part of this program? 
Because land use control being removed from local control was 
the primary intent from its inception?
    I believe it was and still is.
    Mr. Chairman, and members of this Committee, I appreciate 
this opportunity to explain my personal concerns about the 
``American Heritage Rivers Initiative,'' and I enthusiastically 
request your strong support for H.R. 1842 so that I may go home 
and pursue my livelihood the anticipation of no further Federal 
manipulation and regulation of my land and my community. Such 
an invasive and controlling program should be created only by 
the will of the people--and then must be in compliance with the 
Fifth Amendment to the United States Constitution!
    Please take action to stop this oppressive, dictatorially-
created Federal program by passing and enforcing H.R. 1842.

[GRAPHIC] [TIFF OMITTED] T5912.001

[GRAPHIC] [TIFF OMITTED] T5912.002

[GRAPHIC] [TIFF OMITTED] T5912.003

[GRAPHIC] [TIFF OMITTED] T5912.004

[GRAPHIC] [TIFF OMITTED] T5912.005

[GRAPHIC] [TIFF OMITTED] T5912.006

[GRAPHIC] [TIFF OMITTED] T5912.007

[GRAPHIC] [TIFF OMITTED] T5912.008

[GRAPHIC] [TIFF OMITTED] T5912.009

[GRAPHIC] [TIFF OMITTED] T5912.010

[GRAPHIC] [TIFF OMITTED] T5912.011

[GRAPHIC] [TIFF OMITTED] T5912.012

[GRAPHIC] [TIFF OMITTED] T5912.013

[GRAPHIC] [TIFF OMITTED] T5912.014

[GRAPHIC] [TIFF OMITTED] T5912.015

[GRAPHIC] [TIFF OMITTED] T5912.016

[GRAPHIC] [TIFF OMITTED] T5912.017

[GRAPHIC] [TIFF OMITTED] T5912.018

[GRAPHIC] [TIFF OMITTED] T5912.019

[GRAPHIC] [TIFF OMITTED] T5912.020

[GRAPHIC] [TIFF OMITTED] T5912.021

[GRAPHIC] [TIFF OMITTED] T5912.022

[GRAPHIC] [TIFF OMITTED] T5912.023

[GRAPHIC] [TIFF OMITTED] T5912.024

[GRAPHIC] [TIFF OMITTED] T5912.025

[GRAPHIC] [TIFF OMITTED] T5912.026

[GRAPHIC] [TIFF OMITTED] T5912.027

[GRAPHIC] [TIFF OMITTED] T5912.028

[GRAPHIC] [TIFF OMITTED] T5912.029

[GRAPHIC] [TIFF OMITTED] T5912.030

[GRAPHIC] [TIFF OMITTED] T5912.031

[GRAPHIC] [TIFF OMITTED] T5912.032

[GRAPHIC] [TIFF OMITTED] T5912.033

[GRAPHIC] [TIFF OMITTED] T5912.034

[GRAPHIC] [TIFF OMITTED] T5912.035

[GRAPHIC] [TIFF OMITTED] T5912.036

[GRAPHIC] [TIFF OMITTED] T5912.037

[GRAPHIC] [TIFF OMITTED] T5912.038

[GRAPHIC] [TIFF OMITTED] T5912.039

[GRAPHIC] [TIFF OMITTED] T5912.040

[GRAPHIC] [TIFF OMITTED] T5912.041

[GRAPHIC] [TIFF OMITTED] T5912.042

[GRAPHIC] [TIFF OMITTED] T5912.043

[GRAPHIC] [TIFF OMITTED] T5912.044

[GRAPHIC] [TIFF OMITTED] T5912.045

[GRAPHIC] [TIFF OMITTED] T5912.046

[GRAPHIC] [TIFF OMITTED] T5912.047

[GRAPHIC] [TIFF OMITTED] T5912.048

[GRAPHIC] [TIFF OMITTED] T5912.049

[GRAPHIC] [TIFF OMITTED] T5912.050

[GRAPHIC] [TIFF OMITTED] T5912.051

[GRAPHIC] [TIFF OMITTED] T5912.052

[GRAPHIC] [TIFF OMITTED] T5912.053

[GRAPHIC] [TIFF OMITTED] T5912.054

[GRAPHIC] [TIFF OMITTED] T5912.055

[GRAPHIC] [TIFF OMITTED] T5912.056

[GRAPHIC] [TIFF OMITTED] T5912.057

[GRAPHIC] [TIFF OMITTED] T5912.058

[GRAPHIC] [TIFF OMITTED] T5912.059

[GRAPHIC] [TIFF OMITTED] T5912.060

[GRAPHIC] [TIFF OMITTED] T5912.061

[GRAPHIC] [TIFF OMITTED] T5912.062

[GRAPHIC] [TIFF OMITTED] T5912.063

[GRAPHIC] [TIFF OMITTED] T5912.064

[GRAPHIC] [TIFF OMITTED] T5912.065

[GRAPHIC] [TIFF OMITTED] T5912.066

[GRAPHIC] [TIFF OMITTED] T5912.067

[GRAPHIC] [TIFF OMITTED] T5912.068

[GRAPHIC] [TIFF OMITTED] T5912.069

[GRAPHIC] [TIFF OMITTED] T5912.070

[GRAPHIC] [TIFF OMITTED] T5912.071

[GRAPHIC] [TIFF OMITTED] T5912.072

[GRAPHIC] [TIFF OMITTED] T5912.073

[GRAPHIC] [TIFF OMITTED] T5912.074

[GRAPHIC] [TIFF OMITTED] T5912.075

[GRAPHIC] [TIFF OMITTED] T5912.076

[GRAPHIC] [TIFF OMITTED] T5912.077

[GRAPHIC] [TIFF OMITTED] T5912.078

[GRAPHIC] [TIFF OMITTED] T5912.079

[GRAPHIC] [TIFF OMITTED] T5912.080

[GRAPHIC] [TIFF OMITTED] T5912.081

[GRAPHIC] [TIFF OMITTED] T5912.082

[GRAPHIC] [TIFF OMITTED] T5912.083

[GRAPHIC] [TIFF OMITTED] T5912.084

[GRAPHIC] [TIFF OMITTED] T5912.085

[GRAPHIC] [TIFF OMITTED] T5912.086

[GRAPHIC] [TIFF OMITTED] T5912.087

[GRAPHIC] [TIFF OMITTED] T5912.088

[GRAPHIC] [TIFF OMITTED] T5912.089

[GRAPHIC] [TIFF OMITTED] T5912.090

[GRAPHIC] [TIFF OMITTED] T5912.091

[GRAPHIC] [TIFF OMITTED] T5912.092

[GRAPHIC] [TIFF OMITTED] T5912.093

[GRAPHIC] [TIFF OMITTED] T5912.094

[GRAPHIC] [TIFF OMITTED] T5912.095

[GRAPHIC] [TIFF OMITTED] T5912.096

[GRAPHIC] [TIFF OMITTED] T5912.097

[GRAPHIC] [TIFF OMITTED] T5912.098

[GRAPHIC] [TIFF OMITTED] T5912.099

[GRAPHIC] [TIFF OMITTED] T5912.100

[GRAPHIC] [TIFF OMITTED] T5912.101

[GRAPHIC] [TIFF OMITTED] T5912.102

[GRAPHIC] [TIFF OMITTED] T5912.103

[GRAPHIC] [TIFF OMITTED] T5912.104

[GRAPHIC] [TIFF OMITTED] T5912.105

[GRAPHIC] [TIFF OMITTED] T5912.106

[GRAPHIC] [TIFF OMITTED] T5912.107

[GRAPHIC] [TIFF OMITTED] T5912.108

[GRAPHIC] [TIFF OMITTED] T5912.109

[GRAPHIC] [TIFF OMITTED] T5912.110

[GRAPHIC] [TIFF OMITTED] T5912.111

[GRAPHIC] [TIFF OMITTED] T5912.112

[GRAPHIC] [TIFF OMITTED] T5912.113

[GRAPHIC] [TIFF OMITTED] T5912.114

[GRAPHIC] [TIFF OMITTED] T5912.115

[GRAPHIC] [TIFF OMITTED] T5912.116

[GRAPHIC] [TIFF OMITTED] T5912.117

[GRAPHIC] [TIFF OMITTED] T5912.118

[GRAPHIC] [TIFF OMITTED] T5912.119

[GRAPHIC] [TIFF OMITTED] T5912.120

[GRAPHIC] [TIFF OMITTED] T5912.121

[GRAPHIC] [TIFF OMITTED] T5912.122

[GRAPHIC] [TIFF OMITTED] T5912.123

[GRAPHIC] [TIFF OMITTED] T5912.124

[GRAPHIC] [TIFF OMITTED] T5912.125

[GRAPHIC] [TIFF OMITTED] T5912.126

[GRAPHIC] [TIFF OMITTED] T5912.127

[GRAPHIC] [TIFF OMITTED] T5912.128

[GRAPHIC] [TIFF OMITTED] T5912.129

[GRAPHIC] [TIFF OMITTED] T5912.130

[GRAPHIC] [TIFF OMITTED] T5912.131

[GRAPHIC] [TIFF OMITTED] T5912.132

[GRAPHIC] [TIFF OMITTED] T5912.133

[GRAPHIC] [TIFF OMITTED] T5912.134

[GRAPHIC] [TIFF OMITTED] T5912.135

[GRAPHIC] [TIFF OMITTED] T5912.136

[GRAPHIC] [TIFF OMITTED] T5912.137

[GRAPHIC] [TIFF OMITTED] T5912.138

[GRAPHIC] [TIFF OMITTED] T5912.139

[GRAPHIC] [TIFF OMITTED] T5912.140

[GRAPHIC] [TIFF OMITTED] T5912.141

[GRAPHIC] [TIFF OMITTED] T5912.142

[GRAPHIC] [TIFF OMITTED] T5912.143

[GRAPHIC] [TIFF OMITTED] T5912.144

[GRAPHIC] [TIFF OMITTED] T5912.145

[GRAPHIC] [TIFF OMITTED] T5912.146

[GRAPHIC] [TIFF OMITTED] T5912.147

[GRAPHIC] [TIFF OMITTED] T5912.148

[GRAPHIC] [TIFF OMITTED] T5912.149

[GRAPHIC] [TIFF OMITTED] T5912.150

[GRAPHIC] [TIFF OMITTED] T5912.151

[GRAPHIC] [TIFF OMITTED] T5912.152

[GRAPHIC] [TIFF OMITTED] T5912.153

[GRAPHIC] [TIFF OMITTED] T5912.154

[GRAPHIC] [TIFF OMITTED] T5912.155

[GRAPHIC] [TIFF OMITTED] T5912.156

[GRAPHIC] [TIFF OMITTED] T5912.157

[GRAPHIC] [TIFF OMITTED] T5912.158

[GRAPHIC] [TIFF OMITTED] T5912.159

[GRAPHIC] [TIFF OMITTED] T5912.160

[GRAPHIC] [TIFF OMITTED] T5912.161

[GRAPHIC] [TIFF OMITTED] T5912.162

[GRAPHIC] [TIFF OMITTED] T5912.163

[GRAPHIC] [TIFF OMITTED] T5912.164

[GRAPHIC] [TIFF OMITTED] T5912.165

[GRAPHIC] [TIFF OMITTED] T5912.166

[GRAPHIC] [TIFF OMITTED] T5912.167

[GRAPHIC] [TIFF OMITTED] T5912.168

[GRAPHIC] [TIFF OMITTED] T5912.169

[GRAPHIC] [TIFF OMITTED] T5912.170

[GRAPHIC] [TIFF OMITTED] T5912.171

[GRAPHIC] [TIFF OMITTED] T5912.172

[GRAPHIC] [TIFF OMITTED] T5912.173

[GRAPHIC] [TIFF OMITTED] T5912.174

[GRAPHIC] [TIFF OMITTED] T5912.175

[GRAPHIC] [TIFF OMITTED] T5912.176

[GRAPHIC] [TIFF OMITTED] T5912.177

[GRAPHIC] [TIFF OMITTED] T5912.178

[GRAPHIC] [TIFF OMITTED] T5912.179

[GRAPHIC] [TIFF OMITTED] T5912.180

[GRAPHIC] [TIFF OMITTED] T5912.181

[GRAPHIC] [TIFF OMITTED] T5912.182

[GRAPHIC] [TIFF OMITTED] T5912.183

[GRAPHIC] [TIFF OMITTED] T5912.184

[GRAPHIC] [TIFF OMITTED] T5912.185

[GRAPHIC] [TIFF OMITTED] T5912.186

[GRAPHIC] [TIFF OMITTED] T5912.187

[GRAPHIC] [TIFF OMITTED] T5912.188

[GRAPHIC] [TIFF OMITTED] T5912.189

[GRAPHIC] [TIFF OMITTED] T5912.190

[GRAPHIC] [TIFF OMITTED] T5912.191

[GRAPHIC] [TIFF OMITTED] T5912.192

[GRAPHIC] [TIFF OMITTED] T5912.193

[GRAPHIC] [TIFF OMITTED] T5912.194

[GRAPHIC] [TIFF OMITTED] T5912.195

[GRAPHIC] [TIFF OMITTED] T5912.196

[GRAPHIC] [TIFF OMITTED] T5912.197

[GRAPHIC] [TIFF OMITTED] T5912.198

[GRAPHIC] [TIFF OMITTED] T5912.199

[GRAPHIC] [TIFF OMITTED] T5912.200

[GRAPHIC] [TIFF OMITTED] T5912.201

[GRAPHIC] [TIFF OMITTED] T5912.202

[GRAPHIC] [TIFF OMITTED] T5912.203

[GRAPHIC] [TIFF OMITTED] T5912.204

[GRAPHIC] [TIFF OMITTED] T5912.205

[GRAPHIC] [TIFF OMITTED] T5912.206

[GRAPHIC] [TIFF OMITTED] T5912.207

[GRAPHIC] [TIFF OMITTED] T5912.208


</pre></body></html>
